<html>
<title> - EUROPE'S REFUGEE CRISIS: HOW SHOULD THE U.S., EU, AND OSCE RESPOND?</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  EUROPE'S REFUGEE CRISIS: HOW SHOULD
                    THE U.S., EU, AND OSCE RESPOND?

=======================================================================

                                HEARING

                              BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2015

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-1-5]
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                   Available via http://www.csce.gov
                   
                              ____________
                              
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
97-466 PDF                 WASHINGTON : 2015                      
      
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  
          
            
            
            
            
            
            
            
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey, 		ROGER F. WICKER, Mississippi, 
Chairman					Co-Chairman
ALCEE L. HASTINGS, Florida			BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama			JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas			RICHARD BURR, North Carolina
STEVE COHEN, Tennessee				JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida				TOM UDALL, New Mexico		
RANDY HULTGREN, Illinois			SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York

                                

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]


                  EUROPE'S REFUGEE CRISIS: HOW SHOULD
                    THE U.S., EU, AND OSCE RESPOND?

                              ----------                               
October 20, 2015

                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Joe Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4
Hon. Michael Burgess, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     5
Hon. Jeanne Shaheen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    16
Hon. John Boozman, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    22
Hon. Randy Hultgren, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    24
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    26

                               WITNESSES

Anne C. Richard, Assistant Secretary, Bureau of Population, 
  Refugees, and Migration, U.S. Department of State..............     6
Shelley Pitterman, Regional Representative to the United States 
  and Caribbean, Office of the United Nations High Commissioner 
  for Refugees (UNHCR)...........................................    29
Djerdj Matkovic, Ambassador of the Republic of Serbia to the 
  United States..................................................    32
Sean Callahan, Chief Operating Officer, Catholic Relief Services.    35
David O'Sullivan, Ambassador of the European Union to the United 
  States.........................................................    38

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    50
Prepared statement of Hon. Benjamin L. Cardin....................    52
Prepared statement of Shelley Pitterman..........................    53
Prepared statement of Djerdj Matkovic............................    59
Prepared statement of Sean Callahan..............................    62
Prepared statement of David O'Sullivan...........................    67

Material for the Record..........................................    72

                                 [iii]

 
                  EUROPE'S REFUGEE CRISIS: HOW SHOULD
                    THE U.S., EU, AND OSCE RESPOND?

                              ----------                              


                            October 20, 2015

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 1:59 p.m. in room 2200, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Joe 
Pitts, Commissioner, Commission on Security and Cooperation in 
Europe; Hon. Michael Burgess, Commissioner, Commission on 
Security and Cooperation in Europe; Hon. Jeanne Shaheen, 
Commissioner, Commission on Security and Cooperation in Europe; 
Hon. John Boozman, Commissioner, Commission on Security and 
Cooperation in Europe; Hon. Randy Hultgren, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Steve Cohen, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present:  Anne C. Richard, Assistant Secretary, 
Bureau of Population, Refugees, and Migration, U.S. Department 
of State; Shelley Pitterman, Regional Representative to the 
United States and Caribbean, Office of the United Mations High 
Commissioner for Refugees (UNHCR); Djerdj Matkovic, Ambassador 
of the Republic of Serbia to the United States; Sean Callahan, 
Chief Operating Officer, Catholic Relief Services; and David 
O'Sullivan, Ambassador of the European Union to the United 
States.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. [Sounds gavel.] The Commission will come to 
order, and I want to wish you all a very pleasant afternoon. 
And welcome to this hearing as we inquire into the European 
refugee crisis and how the U.S., the EU and the OSCE should 
respond.
    The Syrian displacement crisis that has consumed seven 
countries in the Middle East has become the biggest refugee 
crisis in Europe since World War II. At least 250,000 people 
have been killed in Syria's civil war, many of them civilians. 
The security forces of Syrian dictator Bashir al-Assad have 
been responsible for many of these killings, targeting 
neighborhoods with barrel bombs and shooting civilians point 
blank. ISIS has committed genocide, mass atrocities, and war 
crimes against Christians and other minorities, and likewise 
targeted, brutalized, and killed Shia and Sunni Muslims who 
reject its ideology and its brutality.
    Fleeing for safety, more than 4 million Syrians are 
refugees, the largest refugee population in the world, and 
another 7.6 million Syrians are displaced inside their home 
country. Syria's neighbors--Jordan, Lebanon, Turkey, Iraq, and 
Egypt--are hosting most of these refugees. Before the Syria 
crisis, these countries struggled with high rates of 
unemployment, strained public services, and a range of other 
domestic challenges. Since the conflict began, Syrian refugees 
have become a quarter of Lebanon's population. And Iraq, which 
has been beset by ISIS and sectarian conflict, is hosting 
almost 250,000 refugees from Syria.
    Until this past summer, few Syrian refugees went beyond 
countries that border their homeland. Syrian refugees and 
migrants from a range of countries have since come to Europe in 
such large numbers, and so quickly, that many European 
countries--especially frontline entry points like Greece, 
transit countries like Serbia, and destination countries like 
Germany--have been challenged and even overwhelmed.
    The U.N. High Commission for Refugees--the UNHCR--reports 
that more than 635,000 refugees and migrants have arrived in 
Europe by sea in 2015 alone. Fifty-three percent of these 
people are from Syria, 16 percent from Afghanistan, 6 percent 
from Eritrea, and 5 percent from Iraq. Notably, only 14 percent 
of them are women. Twenty percent are children, and the 
remaining 65 percent are men.
    The European crisis requires a response that is European, 
national, and international. And the United States, we believe, 
is essential to it. There must be effective coordination and 
communication directly between countries, as well as through 
and with entities like the OSCE and the European Union. 
Individual countries also must have the flexibility to respond 
best to the particular circumstances in their own countries.
    The response must address push factors like economic 
challenges and aid shortfalls in countries like Syria's 
neighbors that have been hosting refugees. As a matter of fact, 
Shelly Pitterman from the UNHCR said that one of the triggers, 
if not the trigger--as he put it, the last straw for some--was 
the humanitarian shortfall, especially the World Food 
Programme's cut of 30 percent in recent months. There also, 
again, we must address the pull factors, like decisions 
individual European countries have made that have attracted 
refugees.
    There is real human need and desperation. We all know it, 
and that's why we're meeting. Refugees are entrusting 
themselves to smugglers, and where there is human smuggling 
there is also a higher risk of human trafficking. I am 
especially concerned about the risk of abuse, exploitation, and 
enslavement of women and children. Already we are hearing 
reports that some European countries are failing to protect 
women and girls from sexual assault and forced prostitution. 
The lack of separate bathroom facilities, for example, for 
males and females, rooms that can be locked, and other basic 
measures enable such attacks. There is no excuse for such 
failures, and everything must be done to ensure that women and 
children are safe.
    There is also the real threat that terrorist groups like 
ISIS will infiltrate these massive movements of people to kill 
civilians in Europe and beyond. I am deeply concerned that the 
screening at many European borders still--and again, this is a 
crisis that was thrust upon them--but remain inadequate, 
putting lives at risk. All of us must be responsive to the 
humanitarian needs without compromising one iota on security. 
European response plans should include specifics about 
strengthening security screening throughout the European 
region.
    During the conflict in Kosovo, I travelled to Stenkovec 
Refugee Camp in Macedonia--parenthetically, CRS was leading the 
effort there--and then was at the McGuire Air Force Base in New 
Jersey later on to welcome some of the 4,400 people brought 
from there to the United States. One refugee, however--Agron 
Abdullahu--was apprehended and sent to jail in 2008 for 
supplying guns and ammunition to the Fort Dix Five, a group of 
terrorists who were also sent to prison for plotting to kill 
American soldiers at the Fort Dix military installation, also 
in New Jersey.
    Given Secretary Kerry's announcement in September that the 
United States intended to resettle at least 85,000 refugees in 
fiscal year 2016--including at least 10,000 Syrians--and at 
least 100,000 refugees in fiscal year 2017, the United States 
and Europe must be on high alert to weed out terrorists from 
real refugees. Because religious and ethnic minorities often 
have additional risks and vulnerabilities even as refugees, 
they should be prioritized for resettlement.
    This hearing will examine the who is arriving, the why they 
are coming to Europe, and the what has been done and should be 
done in response. European governments, entities like the OSCE 
and EU, religiously based entities and civil society all have 
critical roles to play. The United States has been a leading 
donor to the humanitarian crisis inside Syria and refugee 
crises in the region. We also have the largest refugee 
admissions program in the world.
    However, according to testimony of Shelly Pitterman again, 
regional rep of U.N. High Commission for Refugees--we'll hear 
from him shortly--the current interagency Syrian Regional 
Refugee and Resilience Plan for 2015, or the 3RP, is only 41 
percent funded, which has meant cuts in food aid for thousands 
of refugees. Globally, he warns, the humanitarian system is 
financially broke. We are no longer able to meet even the 
absolute minimum requirements of core protection and life-
saving assistance to preserve the human dignity of the people 
we care for.
    The current level of funding, he goes on to say, for the 33 
U.N. appeals to provide humanitarian assistance to some 82 
million people around the world is only 42 percent--in other 
words, almost a 60 percent shortfall. UNHCR expects to receive 
just 47 percent of the funding they need in the next year.
    Again, this hearing will look at how the United States can 
best work with our allies in Europe to meet humanitarian needs 
and prevent security threats. In the 20th and 21st centuries, 
the United States and Europe have come together to address the 
great challenges of our time, and this is an opportunity to do 
so again.
    Before we begin, and before I yield to Dr. Burgess, I'd 
like to recognize Ambassador Dr. Reka Szemerkenyi, who is 
present here in the room today--and thank you, Madam 
Ambassador, for joining us for this hearing.
    I'd like to now yield to Dr. Burgess. Then I will--
Commissioner Pitts?

  HON. JOSEPH PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman.
    I want to thank fellow commissioners and distinguished 
panelists and guests. I want to thank all of you for your 
participation here today on this hearing on Europe's refugee 
crisis.
    The term ``crisis'' does little justice to the dire 
situation that refugees are facing. The war in Syria, where 
more than half of the population has either been killed or 
displaced, has been raging for over four years now. The war's 
ensuing expansion and related brutality in neighboring 
countries have left millions of victims with no choice but to 
leave the lands that some groups have called home for thousands 
of years.
    Many have observed this to constitute the greatest 
migration and refugee crisis since World War II, and this is 
especially troubling when you factor in the relatively small 
scale of the populations and regions in conflict. However, the 
roots of this crisis go far beyond the war in Syria, as 
witnessed by the participants in the migration flows. People 
from across the Middle East, Africa, Afghanistan, South Asia, 
and even the Balkans are contributing to this mass exodus from 
areas of strife. Among them are economic migrants, refugees, 
asylum seekers, and stateless people.
    The numbers of migrants are increasing. It's estimated that 
over 500,000 have crossed into EU borders this year alone. 
Fatalities, too, are increasing at alarming rates. More than 
3,500 perished in the Mediterranean last year, and this year 
possibly more than that will perish.
    The OSCE can play a unique role in addressing this crisis, 
and help alleviate human suffering and mitigate related human 
rights abuses. The organization is uniquely equipped with 
tools, mandates, and a neutral framework that can help member 
states addressing an array of issues.
    With Russia's direct entrance into the war in Syria, the 
OSCE's neutral framework could be of great use in reporting in 
Syria and the surrounding region. Furthermore, its relationship 
with the UNHCR can be of great significance to U.S. interests, 
as we rely on that institution for information on our own 
domestic resettlement processes.
    I look forward to hearing about greater areas of 
cooperation in tackling this crisis. I want to thank all of the 
panelists here for their participation.
    We must not forget that people are dying. As the U.S., the 
EU, and OSCE debate this issue, we must not let fear be the 
greatest motivator of our responses. The United States and the 
West must offer a stark contrast to ISIS and the Assad regime 
and other governments or terrorists that wreak havoc on 
religious and ethnic minorities, or other countless victims of 
human rights abuses that drive this crisis. We must carry a 
firm resolve that justice and charity is done under our watch.
    And I want to thank the chair again for holding this 
hearing, and I yield back.
    Mr. Smith. Thank you very much, Commissioner Pitts.
    Dr. Burgess.

HON. MICHAEL BURGESS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Dr. Burgess. Thank you, Chairman Smith. Thank you for 
having this hearing.
    I'll keep my remarks brief because the numbers have been 
very well stated by other people on the dais, but we all 
recognize the conflict in Syria is moving into its fifth year. 
The Islamic State controls large areas of both Syria and Iraq. 
And Russia has now intervened militarily on behalf of the 
Syrian Government, further exacerbating tensions among the 
armed resistance groups, terrorist insurgents, and those loyal 
to President Assad.
    These factors have contributed and created the staggering 
number of displaced persons that we are seeing, and at least 
710,000 refugees have reached Europe's borders just this year. 
Syrians are the largest group by nationality. Most of them are 
hoping to reach Germany, Sweden, France, the United Kingdom, 
and many ultimately the United States.
    I think Chairman Smith said it very, very well when he gave 
you the breakdown of the numbers. And when you just look at the 
pictures of the people occupying the rail stations awaiting 
transport to a different destination, yes you see women, yes 
you see children, but you see an awful lot of young men of 
military age who are fleeing. This raises questions in the 
minds of the constituents I represent back in Texas. Why is 
this particular subset of the population leaving so quickly, 
leaving so willingly, sacrificing the safety of their loved 
ones that they leave behind? Why aren't these individuals 
defending their country and giving access to women and 
children, the populations who may be most eligible for 
exploitation by the Islamic State? Why not give them the 
opportunity to leave first and to be safe? Are these young men 
leaving to avoid conscription? Or, worse, are they leaving to 
carry on the fight in other fronts?
    Recently European countries pledged to accept an increased 
number of Syrian refugees and other asylum seekers. In 
response, on September 20, Secretary of State John Kerry 
announced the refugee ceiling in the United States for fiscal 
year 2016 would be 85,000. Previously, the administration 
announced the United States would admit at least 10,000 Syrian 
refugees in fiscal year 2016.
    Other reports that have come out have suggested that number 
could be as high as 100[,000] or even 200,000. And I would just 
suggest to the State Department the differences and the 
discrepancies in these numbers are leading to a certain amount 
of unease for the constituents I represent back in Texas. Given 
the large and sudden increase in the admittance of refugees 
from one particular war-torn area, some would-be terrorists are 
bound to try to exploit any deficiencies that occur within 
our--within the barriers that are set up to prevent their 
arrival in this country. And of course, as a member of the 
Commission but also as a member of Congress, I have a 
constitutional obligation to have as my number one goal the 
defense of my nation, and I must not--I must not--I must not 
forget that responsibility.
    How much authority and control does the administration 
actually have over this process? And is Europe, the first stop 
for these refugees, implementing appropriate vetting processes 
before the individuals are moved elsewhere, particularly to the 
United States? I don't want to diminish the incredible hardship 
that these individuals have endured, but we must be certain 
that we aren't inadvertently admitting members of the Islamic 
State or other terrorist organizations into our country.
    I thank the chairman for convening this hearing and I look 
forward to the testimony of our witnesses. And I'll yield back.
    Mr. Smith. Thank you very much, Dr. Burgess.
    And welcome. The Commission's very pleased to welcome Anne 
Richard, the Assistant Secretary for the Bureau of Population, 
Refugees, and Migration. Prior to her appointment, Ms. Richard 
was the vice president of government relations and advocacy for 
the International Rescue Committee, or the IRC. She also--and 
I'll put your full resume and that of all of our witnesses into 
the record, without objection--but from 1999 to 2001 Ms. 
Richard was director of the Secretary's Office of Resources, 
Plans and Policy at the State Department from 1997 to 1999. She 
was deputy chief financial officer for the Peace Corps. 
Earlier, she served as a senior adviser in the Deputy 
Secretary's Office of Public Policy Resources at State and as 
budget examiner at the U.S. Office of Management and Budget.
    Thank you for being here, and the floor is yours.

  ANNE C. RICHARD, ASSISTANT SECRETARY, BUREAU OF POPULATION, 
       REFUGEES, AND MIGRATION, U.S. DEPARTMENT OF STATE

    Sec. Richard. Thank you very much, Chairman Smith. Thank 
you, members of the Helsinki Commission, for holding this 
hearing and for the opportunity to appear before you to discuss 
the refugee and migration emergency in Europe and the Middle 
East.
    I have just returned from a series of meetings overseas, 
including my fifth visit to Turkey and my eighth visit to 
Jordan in my tenure as assistant secretary. It's a very 
challenging situation, and I would like to briefly outline the 
steps taken by the Population, Refugees, and Migration Bureau 
and others at the State Department, and U.S. Agency for 
International Development and in the Obama administration to 
help provide humanitarian assistance to innocent civilians and 
to assist the governments of other countries to deal with this 
crisis.
    As you know, in early September the tragic photo of a 
little boy's body on a beach in Turkey awakened people to the 
plight of Syrian refugees in ways that years of grim 
statistics, bleak images and climbing casualties figures could 
not. What started as unrest in Syria in 2011 has developed into 
a multi-front war and spilled over to become a regional crisis. 
And now the crisis has reached Europe as hundreds of thousands 
of young men, women, and sometimes entire families seek to 
reach that continent by boat, bus, train, and foot. They are 
joined by refugees and migrants from other countries, chiefly 
Afghanistan, Eritrea, and Iraq. They are taking pathways to 
Europe that migrants have always used, but the scale of this 
migration is much bigger than before and has caught the 
attention of the world.
    Americans want to understand what is causing the crisis, 
how we are responding, and what more we can do to help. While 
there has always been migration to Europe through Africa and 
across the Mediterranean, the numbers began to rise noticeably 
in mid-2013. Smugglers took advantage of the breakdown of law 
and order in Libya to profit from and exploit migrants and 
refugees desperate to reach Europe. The numbers have grown 
steadily. So far in 2015 more than 600,000 people have crossed 
the Mediterranean and Aegean Seas to seek entry into Europe. 
Some come by boat from Libya to Italy. Others come the Western 
Balkans route from Turkey by boat to Greece and then onward. As 
the numbers of migrants have risen, so too have we seen an 
increase in the number of drownings and death: 3,200 people 
died in 2014 and more than 3,000 so far this year.
    Syrian refugees in Jordan, Turkey, and Lebanon are losing 
hope of ever returning to their homes. They are worried about 
the reliability of food and assistance programs that are being 
reduced for lack of funds, as you mentioned earlier, Mr. Smith. 
They don't have regular work to sustain their families, rents 
are high, and their children are missing out on school.
    Today an estimated 6.5 million Syrians are internally 
displaced, and nearly 4.1 million are refugees. More than half 
of these refugees are children. Along with the so-called push 
factors--what's going wrong that's pushing them out of the 
region--there are undeniable pull factors prompting individuals 
and families to make this trip. These include the summer 
weather, a perception that Europe was suddenly open to 
unlimited refugee arrivals, fear that the policy would change 
without notice and borders would close, and desire to join 
friends and relatives who had already made it to Europe. It is 
important for us to remember and acknowledge that the vast 
majority of Syrian refugee families--96 percent--remain in the 
Middle East.
    The U.S. Government is very much engaged in responding to 
the crisis and has been for some time. We have a three-pronged 
approach: Strong levels of humanitarian assistance--and for 
this we have to thank bipartisan support from the Congress; 
active diplomacy; and expanded refugee resettlement. The U.S. 
Government is a leading donor of humanitarian assistance to 
people in need inside Syria, in the surrounding countries, and 
to others caught up in crises around the world. Through 
contributions to international organizations such as the U.N. 
High Commissioner for Refugees, the International Committee of 
the Red Cross, the International Organization for Migration, 
the World Food Programme, UNICEF and leading nongovernmental 
organizations, U.S. funds are being used to save millions of 
lives.
    On September 21st, the White House announced that the 
United States will provide nearly 419 million [dollars] in 
additional assistance for those affected by the war in Syria. 
That was our last large announcement for that fiscal year, and 
this brought our total of humanitarian assistance in response 
to the Syrian conflict to more than 4.5 billion [dollars] since 
the start of the crisis. Without our support, I believe more 
people would be making the dangerous voyage further north.
    However, even with our sizeable contributions, U.N. appeals 
for humanitarian aid to address this crisis in Syria remain 
underfunded. And, Mr. Smith, you presented a lot of those 
numbers, and you made the completely accurate point that we see 
that about 60 percent of the response to the appeals for inside 
Syria and in the surrounding countries goes unfunded, and 
that's the case across the board with all of the major 
humanitarian emergencies right now. It's a major frustration. 
And it's not because the U.S. isn't doing its share. The U.S. 
is a major funder of all of these humanitarian operations. But 
even though we're doing more than we've ever done before, it's 
not enough relative to the need. Contributions from other donor 
governments, the private sector and the public are urgently 
needed.
    The second prong of our response is diplomacy on 
humanitarian issues. For several years we have engaged 
government officials in the region to encourage them to keep 
borders open, allow refugees to enter their countries, 
authorize the work of leading humanitarian organizations, and 
allow refugees to pursue normal life--as normal as possible 
given what they have been through. We are part of a chorus of 
nations that call for the respect of humanitarian principles 
even inside Syria in wartime.
    Diplomacy on humanitarian issues means working 
constructively with other nations to find solutions. The issue 
of the refugee and migration crisis was taken up again and 
again in recent international fora such as the U.N. General 
Assembly in New York in September, the U.N. High Commissioner 
for Refugees Executive Committee in Geneva in early October, 
and the just-concluded Global Forum on Migration and 
Development in Istanbul. All provided opportunities for 
countries to come together in a common effort. I attended the 
first and led the U.S. delegation to the others. At all of 
these venues we met on the sidelines with government officials 
involved in the crisis, from Sweden and Germany to Lebanon, 
Jordan, and Turkey.
    Diplomacy also includes pushing when needed those who can 
and should be doing more to do so. Many countries choose to 
provide assistance outside the U.N. system. However, we are 
deeply engaged on encouraging other countries to contribute to 
the U.N. appeals to Syria, to help prevent duplication, ensure 
that precious and scarce humanitarian assistance is provided to 
those who need it the most. We are also encouraging countries 
to identify opportunities for refugees to pursue livelihoods 
and become more self-
sufficient in ways that do not exacerbate existing unemployment 
issues in host countries.
    The third prong of our response is resettling refugees in 
the United States. Since 1975, the U.S. has welcomed over 3 
million refugees from all over the world under the U.S. Refugee 
Admissions Program. In fiscal year 2015, nearly 70,000 refugees 
of 67 different nationalities were admitted for permanent 
resettlement to the United States. This was the third year in a 
row that we reached our target of 70,000.
    So in fiscal year 2016 the President has determined that we 
should increase that number to 85,000, including at least 
10,000 Syrians. And as you know, we would then strive, if 
successful, to reach 100,000 refugees from around the world in 
the following year.
    We need to continue and expand our efforts. And we seek to 
work even more closely with the European Union and its member 
countries, as well as those countries not part of the European 
Union, to help shape a comprehensive and coordinated response. 
And we have already started that process.
    In the Middle East, we are working on an initiative to get 
more refugee children in school in Turkey. Education for 
children who have been displaced, whatever their status and 
wherever they land, is essential for their own futures and for 
ours. We support the No Lost Generation campaign to educate and 
protect Syrian children and youth. Given the protracted nature 
of this crisis, we are also looking at new ways to better link 
our relief and development assistance. With roughly 85 percent 
of refugees now living outside of camps, in cities and villages 
throughout the Middle East, we need to be working to help 
refugees become self-sufficient and support the communities 
that host them.
    So, once again, the U.S. must join with enlightened leaders 
in Europe to take action, and this builds on the work the Obama 
administration has been doing for more than four years to help 
the countries neighboring Syria and address the needs of 
innocent people caught up in the Syria crisis.
    I know that it was said that the U.S., Europe and the OSCE 
are debating what to do. I think Europe is debating, but the 
U.S. is very much doing. We're doing a lot, and we're seeking 
to be as helpful as possible. And that is the message that in 
recent weeks we've been telling European ambassadors and 
leaders, foreign ministers, prime ministers. And this builds on 
what we've been saying to the leaders of Lebanon, Jordan, 
Turkey, Iraq in the previous several years.
    So I'm very happy, with that, to answer your questions 
about my testimony and related issues.
    Mr. Smith. Thank you very much, Madam Secretary. Let me ask 
first, and I'll throw out a few questions and then yield to my 
colleagues because we all have many, many questions.
    In terms of the number of people potentially going to be 
resettled here in the United States, the UNHCR suggests that 10 
percent of the Syrian refugees, or some 400,000 persons in 
total, are in need of resettlement. In the testimony that will 
be provided today, Mr. Pitterman says that UNHCR has already 
referred more than 45,000 Syrians for refugee resettlement, 
with more than 20,000 of those referrals made to the United 
States. Although Syrian arrivals to the U.S. have been fewer 
than 2,000 persons so far, he notes that they are encouraged by 
the intent to admit at least 10,000 in fiscal year 2016.
    My question is, the 2,000 that have come here, this 
referral of some 20,000 that have been made, at what state of 
process of going through their cases, where are we on that? 
Where are they right now, physically? And with regards to the 
robust efforts to ensure that ISIS and other potential groups 
of lone wolves or wolf packs, groups of individuals who come 
here with malice on their mind--I know we have a very robust 
way of doing our screening. I've looked at it very carefully. 
Without objection, a Congressional Research Service--several 
paragraphs describing that will be made part of the record, 
because I think it is robust. But it's very hard to do a 
background check on people about which you know very, very 
little, and there's very little database available anywhere to 
ascertain what their motives might be.
    And I'm wondering how we bridge that gap to ensure that we 
are not unwittingly welcoming to this country--those like the 
young man who came in from Stenkovec during the Kosovo crisis. 
I'm sure he wasn't the only one, but it happened right inside 
of my own district. And I remember, you know, I was there. 
Planeloads of people were coming down. People from the 
community in Mercer County and Burlington County and Ocean 
Counties met them with a great deal of affection, and yet 
included among them was a man who would seek to work with the 
Fort Dix Five to murder service members and their families at 
Fort Dix. Thankfully, that plot was thwarted and they are now 
in prison--at least the five from the Fort Dix Five.
    So your thoughts on that, and then I have a couple of other 
questions. Then I'll yield to Commissioner Pitts.
    Sec. Richard. Well, thank you, Mr. Chairman.
    We have brought nearly 2,000 Syrians to the United States 
as part of the U.S. Refugee Admissions Program since 2011, and 
the numbers have climbed very slowly. Last year we brought--in 
2015--1,682, so almost 1,700.
    Mr. Smith. And is that because of vetting issues, or . . . 
    Sec. Richard. Well, there were a couple of things.
    First is that when there is a crisis and people flee, you 
don't automatically start a refugee resettlement program 
because our hope initially is that they'll be able to go home 
again. And quite candidly, in the first year or so of this 
crisis, I really thought that it would be over soon and people 
would be able to go back. So when that did not become the case, 
in 2013 UNHCR started to think about a resettlement program for 
Syrians who had fled to neighboring countries.
    That's where most of the refugees who have been referred to 
us are. They are living in the countries that neighbor Syria--
the top four countries are Turkey, Jordan, Lebanon, Iraq, and 
also some are as far afield as Egypt. And we already were 
resettling refugees from this area because we were resettling 
Iraqi refugees who had fled to these countries, including 
Syria.
    So the other reason it takes a while to bring people here 
is our process currently takes between an average of 18 to 24 
months because refugee applicants have to go through a series 
of steps. The most important thing I can say related to 
security is that no one comes here who hasn't been approved by 
the Department of Homeland Security. So no foreign entity or 
organization is deciding for us who comes to the United States, 
who crosses that border.
    And as you noted, there have been nearly 22,000 referrals 
made, so there are a number of people who the UNHCR has 
determined would potentially be good applicants for our 
program. So who's a good applicant for our program? Well, we 
tend to take people who are particularly vulnerable, people for 
whom going home to Syria is just not in the cards. It's just 
likely never to happen again.
    So these are people who have been, for example, torture 
victims, who would be traumatized by returning to what once was 
their homes. These are people who have lost family members. 
Sometimes they have suffered bodily harm, families with 
children that have burns or have been traumatized. People who 
could benefit from some of the advanced medicines--medical 
technology that we can provide here. People who need to make a 
fresh start. And this is in keeping with the way we've been 
running the program for some years.
    And the amazing thing is that these people--who are among 
the most vulnerable--turn out to make perfectly fine residents 
in the United States and often are able to come back, to 
support themselves. The kids to extremely well in school and 
they go on to thrive. We've seen this with so many communities 
over the years. So I'm fairly confident that this will be the 
case for Syrian refugees.
    In terms of the security process, the refugees have helped 
putting together their story--a case file on who they are, why 
they had to flee, and what their own personal histories are. 
And this is either an individual or a family will have a case. 
And then we have organizations that we fund in the Middle East 
to help them put that story together and then be prepared for 
an interview by a Department of Homeland Security interviewer.
    The interviewers from DHS are very well trained, so that 
even if there is not a lot of existing information about these 
individuals in U.S. files, they can see whether their stories 
hold up, whether they were at the right place at the right 
time--they can look at their documents. They can sort out 
what's been forged and what's actually authentic. They take 
their time on these interviews. They're very patient. I've sat 
in on some of the interviews. Now, I mean, maybe they had me 
sit in one of the ones that were particularly well run, but 
still I came away very impressed by how our DHS colleagues 
walked very carefully through these stories, and double check 
and recheck. And then they also run the names against the 
national security and law enforcement databases that the United 
States maintains. And essentially, we're weeding out people who 
are liars, who are criminals, or who are would-be terrorists. 
And so this is partly why of the 3 million people we've brought 
here, we have very few cases of people ending up getting into 
trouble or threatening trouble.
    That doesn't mean that we should let our guard down. I 
think we can only run this program taking every possible step 
to keep out bad guys. I completely agree with that, and I know 
the entire State Department agrees with me on this. [Chuckles.] 
But we have to do both. We have to run a program that is as 
efficient as possible, that provides a humanitarian pathway to 
a new life for a number of the refugees, and we have to keep 
out the people who are up to no good.
    Mr. Smith. Just a few final questions.
    We know what the amount of money unmet--the unmet need 
that's not being provided by the international community in 
percentage terms. What is it in actual dollar terms--what is 
the unmet need for this crisis?
    Secondly, are you considering the designation of any P-2 
groups for Syrians, including Christians and other minority 
religions? Is that under active consideration?
    And on the trafficking issue, there have been a number of 
reports--as you know, I'm the author of the Trafficking Victims 
Protection Act and I'm the special representative for the OSCE 
Parliamentary Assembly on trafficking. And we know it's a huge 
problem in the United States, in Europe, around the world, but 
it's often exploited by traffickers during refugee situations 
or war situations, and this obviously is both. We've heard 
reports that in places like Bavaria--there's one refugee camp 
there where one worker described it at the biggest brothel in 
Munich and pointed out that, again, women--80 percent of the 
camp residents are men, and the women have a very, very risky 
life just living there, and they are trafficked and exploited 
and raped. And I'm wondering if you believe enough is being 
done in Europe to ensure that this kind of exploitation of 
women does not occur, and whether or not our TIP Office is 
actually working and collaborating with people in Europe, who I 
know personally care deeply about the trafficking issue.
    And then I'll yield to Mr. Pitts.
    Sec. Richard. The first question was about the funding. The 
second question, can you just remind me?
    Mr. Smith. Was about the P-2.
    Sec. Richard. Oh, right, the P-2 category.
    Mr. Smith. Whether or not you are actively considering 
designating Christians and Yazidis and other minority religions 
as 
P-2 category for immigration purposes, to bring these folks 
over.
    Sec. Richard. The appeal for last year for both inside 
Syria and around Syria was around $8 billion, and I believe 
that it was funded at about--we're looking at 4 or 5 [billion 
dollars]. It's on a 
calendar-year basis, so we'll see how much is brought in by the 
end of December. But most of the funding, I think, has been 
provided.
    On the P-2, the advantage of a P-2 category is that it 
helps UNHCR--it helps us get referrals. It facilitates that. 
Since we have 22,000 referrals right now, it's not a problem 
for us. So it's not something that would benefit us right at 
the moment. We can always take a fresh look at that.
    But behind your question was a concern about minorities, 
and certainly we definitely define the vulnerable people to 
include religious and ethnic minorities. And that includes 
Christian minorities and the Yazidis in Iraq. Forty percent of 
the refugees we've brought from Iraq have been Christians or 
other ethnic or religious minorities.
    Now, with the Syrians, I don't think we'll find those large 
percentages because we just don't have such large percentages 
in the groups of refugees that have fled the country. So we'll 
be certainly looking at protections for those groups, but 
they're not as prevalent in the refugee flows as they have been 
for Iraqis.
    We have heard the stories about the exploitation taking 
place in Germany. We're very concerned about it. Yes, our 
Trafficking in Persons Office has been involved in the 
administration's refugee response. They've been integrated in 
our response through participation at senior and working levels 
and working groups focused on migration and refugee flows, as 
well as law enforcement surrounding human smuggling. We, like 
you, share our horror at what happens to women and girls when 
any big migration or refugee flow happens. You know, we have 
worked hard to agree with the organizations we fund that we 
shouldn't wait for the evidence, we should just assume bad 
things are happening and put in place early steps to prevent 
sexual and gender-based violence.
    So I don't have evidence of the specific situation in 
Germany. We have a very close working relationship right now 
with the Germans. I accompanied Secretary Kerry when he visited 
Germany and met with Syrian refugees there and talked to their 
foreign minister. I met with him in New York. So we can follow 
up and find out more about----
    Mr. Smith. And I would note that the Munich example is only 
one of many that we have here. So I'm hoping that the TIP 
Office is collaborating not just with State, but also with the 
Europeans?
    Sec. Richard. I don't know. They're very involved.
    Mr. Smith. OK.
    Sec. Richard. And so I'll go back and find out----
    Mr. Smith. If you could get back.
    Sec. Richard. ----to what extent we're tracking down some 
of these stories because we don't have evidence of the specific 
things that we've seen on the Web taking place, but I believe 
bad things could be happening because they always do. And so I 
think we have to run down these stories working with the German 
Government.
    Mr. Smith. OK. Thank you.
    Sec. Richard. And I'm very happy to work with the TIP 
Office on that.
    Mr. Smith. Commissioner Pitts?
    Mr. Pitts. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for coming today. And I want to 
emphasize that I think you should prioritize Christians and 
ethnic minorities for the P-2 resettlement program because I 
think they're most at risk.
    But let me go back to this question about all the young men 
in the refugee flow that Dr. Burgess raised and the type of 
vetting processes that are utilized before admitting refugees 
to the United States. I heard you say you review their stories, 
you check the international criminal database. What other steps 
do you take to vet these refugees?
    Sec. Richard. Well, if you want to get in deep into the 
details, we can have a classified briefing, which we've been 
giving more often now to members of Congress. And DHS are 
really the experts on it. But the steps include, then, the 
referral from UNHCR, so they weed out people who are not 
appropriate to refer to us; the preparation of their case; very 
importantly, the interview by DHS examiners; and then checking 
their names and their biometric data--their fingerprints--
against U.S. law enforcement and national security databases. 
When there's a question, sometimes applicants are put on hold 
while further investigations are carried out. So nobody comes 
to the United States about whom there are any open questions. 
DHS takes their role extremely seriously.
    Mr. Pitts. And how long will this vetting process continue? 
How long does it take?
    Sec. Richard. Right now the average is 18 to 24 months. 
There is a sense in the administration this is too long. And 
part of it is we want it to be as quickly as possible for the 
sake of the refugees, but we also wanted to make sure we don't 
cut any corners that would relate to security.
    So in the coming months we will be carrying out a review of 
the program. Senior White House officials have asked us to make 
sure we bring a fresh set of eyes to this, so we will be 
working probably to bring in consultants to see if there are 
ways to speed up the process without cutting certain corners.
    Mr. Pitts. Do you ever turn anyone down----
    Sec. Richard. Turn lots of people down.
    Mr. Pitts. ----for a lack of information?
    Sec. Richard. I have to refer you to DHS on that. But no 
one comes if they have any question about their safety.
    Mr. Pitts. To what degree do European governments share 
this concern about the potential for Islamic terrorists to 
exploit the crisis to gain a foothold in Europe?
    Sec. Richard. Well, they 100 percent share the concern, but 
they are not in a position to run the kind of program we are, 
as they have people walking across borders to reach their 
countries.
     I was recently speaking and met the number two from the 
German embassy here. He said, I wish we had the luxury of 
taking 18 to 24 months to vet people before they cross our 
borders.
    So we are working to support UNHCR, to help make sure that 
at the borders as many people possible are screened and 
registered, and a determination is made, are they bona fide 
refugees, are they people who are perhaps economic migrants who 
had just come for a job and are not fleeing persecution. But I 
think, on this next panel, this is a good question to put to 
some of the European witnesses, is to get at what they are able 
to do and what they are unable to do with the flow currently 
coming from the Middle East.
    Mr. Pitts. And where are these individuals held while 
you're doing this screening? Where are they?
    Sec. Richard. Some of the refugees are in camps in Turkey--
in southern Turkey and in northern Jordan. Many live outside of 
camps, as I mentioned. So they're living in apartments or in 
homes, sometimes with relatives. They're living on their own. 
They come to UNHCR offices to apply for the program, where 
they're referred by UNHCR or NGO staff who know about their 
situations and think they might make good candidates for 
resettlement in a third country.
    Mr. Pitts. You know, Secretary Kerry announced that the 
refugee ceiling in 2017 will be 100,000. What nationalities do 
you anticipate admitting in significant number next year?
    Sec. Richard. Well, in the past the three top nationalities 
were Burmese, Bhutanese, and Iraqis. And that's changing 
because we've brought so many Bhutanese from Nepal that the 
numbers are now going down. We will still see significant 
numbers of Burmese, Iraqis, and Somalis are climbing in terms 
of their percentage coming. So that will continue to be the 
case. I think what you'll see is about half of the people 
coming will be from Africa and half will be--roughly, 40 to 50 
percent--from the Middle East.
    Mr. Pitts. And what are the most common root causes for 
displacement in Africa?
    Sec. Richard. Well, in terms of becoming a refugee, you 
have to prove that you're fleeing--you have a well-founded fear 
of persecution for one of five reasons, which are race, 
nationality, religion, political belief, or membership in a 
particular social group.
    Displacement in Africa, of course, happens for more than 
that reason. Some people are fleeing famine. Some people are 
fleeing at one point Ebola. But right now we see big 
displacement because of poor governance and fighting in South 
Sudan. People have been living outside of Somalia in nearby 
countries for years now as that government--first for the 
violence, and now as that government tries to get its feet 
under it. We're seeing more and more people coming from West 
Africa who are fleeing Boko Haram in northern Nigeria, and 
they're going to several countries nearby. We also have unrest 
in Burundi causing people to flee. So often it's governance--
poor governance, fighting.
    Mr. Pitts. You haven't mentioned Syria yet. How many Syrian 
refugee cases has UNHCR referred to the U.S. program?
    Sec. Richard. It's about 22,000 now.
    Mr. Pitts. Twenty-two thousand. And at what stage are these 
cases in the U.S. resettlement consideration process?
    Sec. Richard. They're at all stages of the process. Because 
it takes a couple of years, we are only just now seeing large 
numbers arrive. And so that's why we're anticipating that this 
year we can climb from nearly--let me see--nearly 1,700 last 
year to more like 10,000 this year.
    Mr. Pitts. OK. And where will the United States process 
Syrian refugee cases this year?
    Sec. Richard. So the top places will be in Jordan--in 
Amman, Jordan and in Turkey. And we also have some other 
facilities in the region. We would like to start bringing 
people out of Lebanon, but we're delayed doing that at the 
moment. So let's see. So Jordan is number one. Turkey, Egypt 
are the other countries where we can bring sizeable numbers 
right now.
    Mr. Pitts. OK. All right.
    Finally, OSCE. Could you elaborate on the role that OSCE 
could have in monitoring the treatment of refugees as they 
transit from OSCE countries?
    Sec. Richard. I'd like to answer that question. Before I 
do, I would just say--because I didn't know this until I saw it 
on the piece of paper in front of me--[laughs]--that of 18,000 
referrals we have right now, 4,000 have been interviewed by DHS 
already and 14,000 are awaiting their interview or getting 
ready for their interview.
    On the OSCE, we welcome any efforts by the Organization for 
Security and Cooperation in Europe and any of its institutions 
or field missions to coordinate with UNHCR and other 
international organizations to provide assistance to countries 
dealing with refugee and migration crises in Europe. The OSCE 
Secretariat and institutions such as the Office for Democratic 
Institutions and Human Rights and the High Commissioner for 
National Minorities have experience helping countries respond 
to crises.
    The OSCE has a history of working with UNHCR. Just last 
year, the OSCE and UNHCR issued a detailed protection checklist 
outlining the types of actions the two organizations could take 
in response to various types of crises.
    OSCE is hosting a conference in Amman, Jordan with its 
Mediterranean country partners--so that's Algeria, Egypt, 
Israel, Jordan, Morocco, Tunisia--today and tomorrow to discuss 
common challenges to European security, including the irregular 
migration, refugee protection and trafficking in persons 
concerns. And of course we support efforts by OSCE in this 
regard, and U.S. Ambassador to the OSCE Daniel Baer is leading 
the U.S. delegation to the conference.
    We also believe that OSCE will be putting together an 
appeal for some funding from us, and so that our Euro 
colleagues would be taking a look at funding that.
    Mr. Pitts. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Commissioner Shaheen.

 HON. JEANNE SHAHEEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Shaheen. Thank you very much.
    I just returned with three other senators from a trip to 
Europe. We visited Greece, the island of Lesbos, where many 
refugees are coming in, and then we visited Germany. And one of 
the things that we heard from all the officials that we talked 
with--again, we met with some officials from Frontex, from 
UNHCR, people at reception centers who are dealing with the 
crisis--was that they hoped that the United States would be 
able to do more to help.
    So you've talked a little bit about some of the challenges 
that we have in terms of vetting refugees, but can you 
elaborate a little bit on the obstacles to bringing refugees 
in, and then also to the challenge of providing humanitarian 
assistance? I know that the United States is one of the top 
countries in terms of providing humanitarian assistance, but my 
understanding is that the U.N. appeal is only 41 percent 
funded. And are there other ways in which we can urge countries 
to be more supportive of those humanitarian efforts?
    Sec. Richard. Thank you for your trip to the region, which 
I heard about when I was in Turkey. And I'll be very interested 
to hear how----
    Ms. Shaheen. We learned a lot.
    Sec. Richard. I know I answer the questions, but I'm still 
curious to hear how your--[chuckles]--your trip went.
    The challenges of bringing refugees in is that we want to 
be certain we're bringing the right people.
    Ms. Shaheen. Sure.
    Sec. Richard. And so getting this balance right between 
determining who the most vulnerable are, who are the people who 
would benefit the most from restarting their lives in the 
United States, and also ensuring that our security measures are 
good so that we keep out anyone with bad intentions, that's the 
tricky thing to do. And it involves several U.S. Government 
agencies, it involves a couple of major international 
organizations, and it involves many not-for-profit 
nongovernmental organizations on both sides of the ocean. So 
there are many hands that help the refugees along the way, and 
that takes time.
    The good part is that it's a very successful program that 
works year in and year out. We've brought 70,000 refugees to 
the United States from all around the world over the past three 
years. I meet refugees all around the United States and I ask 
them is this a good program? Should we continue to run it? And 
they feel it is a life-saving program that has given their 
whole family a chance for a new future. And personally, I feel 
that it strengthens the United States to have such diverse 
population and be bringing in people from all around the world, 
and that it adds to our culture, our fabric. So I am convinced 
that the program should continue and should be strong, and will 
likely be strong. But it does take a lot of steps, and it's 
also a public-private partnership.
    The life of a refugee coming to the United States is very 
challenging. It is not a luxurious program. Within one to three 
months of arriving, able-bodied refugees have to get a job. And 
many refugees, if they don't speak English well, they have to 
start over at the bottom of the economic ladder. But they do 
it, and employers tell us that they're very, very good, highly 
motivated workers. Children get enrolled in school. The younger 
the kids are, the more quickly they adapt. Older kids takes a 
little longer. But generally, the program's great.
    Ms. Shaheen. Sure. And I'm sorry to interrupt, but I 
actually support our program. The question that I'm really 
asking is, are there ways for us to be more efficient--do the 
same kind of vetting, but to do it in a way that is more 
efficient, that better coordinates all the various players who 
are part of the effort so that we can more effectively respond 
when we see this kind of a crisis?
    Sec. Richard. The process has had a lot of scrutiny from 
the National Security Council and the White House over the 
course of this administration. And so a lot of steps have been 
taken--a lot of sort of the easier steps have been taken to 
tighten up the program, but my sense is that few of us are 
satisfied that it still takes an average of 18 to 24 months to 
bring people.
    So we've been asked to take a fresh look, and in the coming 
months to have consultants come in and review the whole process 
and see if we can shorten the time span that it takes to bring 
refugees without cutting corners on security.
    Ms. Shaheen. Thank you. And can you respond on the 41 
percent of funding that's actually been produced for 
humanitarian efforts? And if you could also speak to some of 
our allies in the Middle East, in Arab countries, and their 
commitment to help with refugees.
    Sec. Richard. So even though we're providing sort of what I 
see as the foundation of the humanitarian assistance that goes 
to some of the, you know, most effective operational 
organizations overseas, and we get very solid support--
bipartisan support--from the House and the Senate, it's not 
enough funding. And so we need other countries to provide 
assistance and other countries to do more.
    So first the traditional donors may have been suffering 
from fatigue, because I felt in the last year or two that their 
contributions, while increasing, were not keeping pace with the 
needed increases. So certainly Europe now is very focused on 
needing to provide more assistance to help the refugees who are 
in the Middle East and are displaced inside Syria, and also 
refugees in the surrounding--neighboring countries.
    Then, for a couple of years now, we have been trying to 
encourage Gulf States to become routine, regular donors to and 
through United Nations appeals, and I would say we've had mixed 
success on this. We have seen some very large, generous 
contributions, but they tend to be one-time-only checks 
written. They're not always through the U.N. They're nothing 
you can count on will happen again the following year.
    We're very appreciative that Kuwait held three annual 
pledging conferences on the Syria crisis, and I attended all of 
them. That did help to put real money on the table, and the 
U.S. and Kuwait were the top donors in response to those 
pledging conferences. But it's not enough, and we what we'd 
like to see is some more Gulf States become regular, annual 
donors in a dependable way with the United Nations.
    Then we look at the U.S. and the U.K. and France as part of 
the permanent five members of the U.N. Security Council. But 
Russia and China are also members, and we don't see them being 
engaged on humanitarian activities--supporting humanitarian 
activities to the way that the other members are. So we would 
like to see more countries involved and joining the table of 
traditional donors, expand that.
    Then we also are very interested in getting more private-
sector contributions from philanthropies, foundations, but also 
businesses and from the public. So for me, it's been very 
gratifying that in recent weeks we have seen that happen. And 
we've gone from wondering how to make that happen to seeing it 
really happen. Now the question is, how can we make this a 
sustaining interest?
    What we've seen is that Americans can be very generous, but 
tend to prefer to give after natural disasters--like the 
earthquake in Haiti, I believe half of all households were 
reported--Americans households were reported to give. So I 
think there's been a sense that the situation in the Middle 
East is messy and there's a lot of bad guys running around, and 
we didn't want to do anything to support them. But I know that 
there are a lot of families--innocent families--who are being 
victimized by terrorists who deserve help. And I think when 
Americans see the faces of these families, they realize, oh, 
these are people we have to help, we must help, we feel 
compelled to help. So I'd like to build on some of the 
generosity that we've seen in recent weeks. And of course, this 
is not the responsibility of the U.S. Government to do that, 
but to encourage it certainly and see more giving from more 
private sector and more members of the public.
    Ms. Shaheen. Thank you.
    Thank you, Mr. Chairman. I have other questions, but I'll 
reserve them for the next panel.
    Mr. Smith. Thank you.
    Dr. Burgess.
    Dr. Burgess. Thank you, Mr. Chairman.
    And thank you, Madam Secretary, for being here today.
    You said in your opening statement that one of the drivers 
of the flood of refugees to Europe was the perception that 
Europe was open. Can you expand upon that a little bit? What 
gave people that impression?
    Sec. Richard. I think that the fact that early waves were 
getting all the way to Germany and were being received in 
Germany, then may have, through social media and through just 
plain old media, suggested to people this is the time to go and 
that they would be able to make it all the way. It's probably a 
best question answered by Europeans, but without being an 
expert on all the specific details on this, I think that that 
was part of what was happening.
    Dr. Burgess. Well, you mentioned social media, and that was 
actually what I was going to get to. Was social media one of 
the drivers that led to this?
    Sec. Richard. I've been told that you can get a lot of 
information about how to make the voyage--[chuckles]--and the 
journey off of the Web and off of one's phone.
    Dr. Burgess. I would expect that that's probably true.
    As far as the 1,700 individuals that were approved in 
that--this last fiscal year, fiscal year 2016?
    Sec. Richard. They arrived.
    Dr. Burgess. They arrived. And those all went through the 
DHS vetting process? And of that 1,700, how many were not 
approved? And what then happened to them?
    Sec. Richard. No, the 1,700 is the number that were 
approved. So I don't have the numbers that were disapproved or 
rejected to come, and we can try to get that for you.
    Dr. Burgess. And then the numbers are going to go up, so 
there is going to be a scaling issue with Department of 
Homeland Security being able to keep up with the numbers that 
you will be asking them to vet. Is that correct?
    Sec. Richard. That is very correct.
    Dr. Burgess. And what are the discussions that you've had 
with the secretary of homeland security or that Secretary Kerry 
has had with the secretary of homeland security about what 
you're doing in your agency and what they might expect in their 
agency?
    Sec. Richard. We have had a series, for a couple years now, 
of interagency meetings that the NSC has pulled together and 
deputies committee meetings and even a principals committee 
meeting or two, so at different levels of the executive branch, 
that bring together the State Department, Health and Human 
Services--because they provide assistance to the states to 
help----
    Dr. Burgess. Yeah, I have some questions I want to ask you 
about that. But yeah, go on.
    Sec. Richard. ----[chuckles]--after refugees get here--and 
then DHS and also some of the other law enforcement and 
national security agencies to make sure all of these pieces are 
working together. And there is a lot of pressure now for DHS to 
get more interviewers hired, trained and out to the field so 
that they can support bringing higher numbers of refugees--out 
to the field all around the world, and not just in the Middle 
East.
    Dr. Burgess. Certainly in Texas last summer--July of 2014--
we saw some of the deficiencies of the Office of Refugee 
Relocation through the Department of Health and Human Services, 
who were responsible for processing and handing the 
unaccompanied minors as they came through, and it seemed like 
they were pretty much at or beyond their limit. Are you talking 
with your counterparts in the Department of Health and Human 
Services about additional stresses that may be placed on their 
system because of the numbers that you're bringing--proposing 
to bring in?
    Sec. Richard. So all of the agencies--all three of the 
agencies that play the biggest roles in this have to make 
tradeoffs in terms of their budgets about what they're going to 
fund related to this program. So for the State Department, the 
question is how much of our funding goes to overseas assistance 
to help people who are either displaced in their own countries 
or refugees nearby, and how much do we then spend to bring 
refugees to the United States? And right now we're spending 
about $400 million of our budget for them. So most of our 
funding goes overseas, but it is sizeable.
    Then, for DHS, the question was, do they use their staff to 
help asylum applicants in the United States or do they send 
them overseas to do these interviews? And the two missions were 
competing against each other to a certain extent over the past 
year. So hiring more interviewers will help address that issue.
    And then the Office of Refugee Resettlement in HHS has a 
couple of different responsibilities. And as you rightly point 
out, one of them is to help unaccompanied minor children 
arriving in the United States, such as happened last summer--
and has happened since, but it peaked last summer at the U.S.-
Mexico border. And so they are responsible for these 
unaccompanied minor children, but they also are responsible for 
providing assistance through the states to help refugees beyond 
that initial three months' reception and placement piece that 
the State Department funds, for special programs either to help 
people who need a little longer time getting a job or with 
English-language classes or other special programs.
    So all of these things cost money. And right now the 
administration is looking, working with OMB, to determine if we 
need to be requesting increases in our budgets to handle these 
things. But I think your question is right on target in terms 
of where we need to be doing more work in providing answers to 
you.
    Dr. Burgess. Well, and of course it's not your agency, but 
ORR specifically, in my opinion, needs to work more closely 
with the states that are going to be affected by the people who 
are then resettled in those communities. There are stresses 
that are placed upon our local governments, our school 
districts, because of the numbers of people who are resettled 
in those communities.
    Sec. Richard. I think that is my responsibility, though, as 
someone who's got the whole----
    Dr. Burgess. I had this discussion with Secretary Nuland 
when she came before us a year and a half ago. Yes, I think it 
would be good if State would talk to perhaps senators or even 
individual members of Congress about people who are being 
resettled within their district boundaries or their state 
boundaries. I think that would be extremely helpful. My 
personal experience has been that does not happen. I've not 
been as affected as some other members of Congress and other 
senators, but it certainly does occur. It's something you hear 
about from your local folks all the time.
    Sec. Richard. It's a requirement of the program, and we 
have made it more specific what has to be done, that the nine 
groups that resettle refugees in the United States with us--
they're all not-for-profit; six are faith-based, three are 
not--that they consult with community leaders about their plans 
for resettling refugees so that the local sheriff and the mayor 
and the school superintendent are not surprised when people are 
showing up in their villages, in their homes, in their cities.
    I recently, at the end of August, traveled to Spartanburg, 
South Carolina, because Congressman Trey Gowdy had questions 
about whether sufficient consultation was done. And so I went 
down and traveled with his staff and met with a lot of local 
leaders there. So I see this as part of our job to make sure 
that this happens.
    I'm sorry, I can't get to better know a district in all--
[laughs]--435, but we are making----
    Dr. Burgess. But you know where the people are going. I 
mean, it's not a surprise to you.
    Sec. Richard. Texas is number one; 7,479 refugees went to 
Texas last year. I'm sure a lot of refugees would like to live 
in Texas.
    But so what we're doing is we're making sure that it's a 
requirement of our partners that do the actual reception and 
placement that they check with local leaders and they do it 
four times a year.
    Dr. Burgess. Perhaps if you could provide me some of that 
data that's been generated by that requirement and divulging 
that information.
    Just before--and I'm going to conclude, but Chairman Smith 
made the observation about the number of refugees that were 
young males. Chairman Pitts asked you a similar sort of 
question. Really, give us some comfort here. When you look at 
those pictures--and they do seem to be predominantly military-
age males with very few women and children scattered 
throughout--Chairman Smith has some statistics; I think 
Chairman Pitts had some statistics--why is that? Are these 
young men fleeing conscription? Is there a--perhaps a darker 
purpose afoot? Why does it appear that way?
    Sec. Richard. I think that, for young men coming directly 
out of Syria, part of it is they are trying to avoid serving in 
the Assad regime's military, and they do not want to be part of 
his war effort, and they are people who prefer to live in peace 
and just want a normal life.
    And then, for those fleeing from nearby countries--or not 
fleeing, but leaving, choosing to leave nearby countries--it's 
partly because they don't have jobs that are legal jobs. Many 
are working, but they're working in an underground economy 
where they can be exploited and abused and underpaid, and 
that's not appreciated by their neighbors. And so they're 
looking for a place they can go where they can finish their 
education, some of them, or they can get their kids in school, 
because a lot of children are out of school from the Syrian 
refugee community. And they can acquire skills or practice the 
professions that they've acquired. And so they're moving to 
Europe because they think they will have a better life than the 
places that they've been.
    Dr. Burgess. I guess what I don't understand is why are 
they leaving and not giving preference to their wives or 
girlfriends or mothers, people who might be more readily 
exploitable by ISIS?
    Sec. Richard. Well, I think that they're leaving their 
families in places that they believe are safe. Those members of 
the family inside Syria would not be recruited into the 
military. I am amazed that nearly 7 million displaced Syrians 
have stayed inside Syria, though. Part of that is because of 
programs to try to get as much aid into the country to benefit 
innocent people as possible. But for the people who are leaving 
from Turkey and from Jordan, they feel their families are safe. 
They have achieved safety, but they're not able to afford to 
live there.
    I talked to a woman in Germany who'd left two daughters 
behind and gone on this dangerous trip by boat from Turkey to 
Greece with a 5-year-old. And I said, wasn't it dangerous? And 
she said, yeah, but she could not afford to live in Turkey 
because the rents were so high. And so she felt that the best 
thing for the family was to go on ahead, reach Germany, 
establish a toehold there, and then later send for other family 
members, or send money back to the older daughters.
    I just think these are people who feel very desperate and 
are taking risks with their families--the kind of risks that we 
don't have to do in a normal day in the United States. But it's 
not because they're a threat to the Europeans, it's because 
they really are looking for opportunity and trying to have a 
sense that there's hope--they can have hope for a better life.
    Dr. Burgess. Well, I pray that you're right.
    Thank you, Mr. Chairman. You've been very indulgent. I'll 
yield back.
    Mr. Smith. Thank you, Dr. Burgess.
    Dr. Boozman.

  HON. JOHN BOOZMAN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Boozman. Thank you, Mr. Chairman.
    Thank you for being here. We appreciate your hard work.
    There's some confusion about what the Gulf States are 
doing. Can you elaborate on that--what they're doing in regard 
to the numbers that they're accepting as far as Syrian 
refugees?
    Sec. Richard. They're not accepting Syrian refugees. They 
are giving work visas----
    Mr. Boozman. Because Saudi Arabia----
    Sec. Richard. ----to Syrians to come work in their 
countries, which is helping some families get out of harm's way 
and to support themselves.
    Mr. Boozman. So that's where the claim of Saudi Arabia that 
they've got a couple million----
    Sec. Richard. They have a lot of Syrians living there right 
now who are working in jobs and have work visas. So that's a 
good thing for those families. If they lose their jobs, will 
they have to leave the country? That would be a question I 
would want to ask.
    But what we would like to see is more countries be open to 
resettling refugees the way we do. And right now, the U.S. is 
the world leader in doing that. And traditionally, Canada, 
Australia, the U.K. and New Zealand are the other countries 
that take numbers of refugees--sizeable numbers of refugees. So 
part of our mission is to encourage countries to do more, and 
what we're seeing is some of their own publics are looking for 
that now, are asking for that. And what Europe is doing is 
looking into having that as part of a package of things they'll 
do to deal with the stream of people headed their way.
    Mr. Boozman. What are the top three or four things that the 
Europeans--what are their top three or four problems that 
they've got as they manage the crisis?
    Sec. Richard. The biggest issue is that Europe has a common 
border now, the EU does, but it's a very porous border in terms 
of Italy and Greece and the coastline. Different countries have 
different abilities to manage and secure their borders, and to 
vet people coming across. And then there are different 
policies, not only from country to country but also sometimes 
within a country, for vetting refugees and determining who can 
stay.
    So I believe you're going to be hearing from, in the second 
panel, some European leaders, so it's probably best for them to 
describe that. But that's my thumbnail impression of what the 
problem is right now.
    Mr. Boozman. You mentioned the borders. Are there any other 
policies that you feel like are driving the ability to get into 
Europe? Does that make sense, any of the European policies that 
perhaps are driving----
    Sec. Richard. Well, I think Europeans would say it's not 
just a question of entering Greece; it's also leaving Turkey 
and is there a coast guard there? That's one of the things 
that's being discussed as part of the EU negotiations with 
Turkey about what else can be done? So----
    Mr. Boozman. In line with Congressman Burgess, among those 
involved in the mixed migration crisis in Europe, what 
percentage--and again, and also this would pertain to us, but 
what percentage who are seeking asylum are estimated to be 
migrants, and the countries involved there, as opposed to what 
percentage are estimated to be refugees and from which 
countries?
    Sec. Richard. I probably have this in this enormous book in 
front of me. The----
    Mr. Boozman. The scenario that you described earlier, with 
people in regard to the young--the young man coming--you 
mentioned jobs, things like that. So that would be more migrant 
than refugee----
    Sec. Richard. Senator Boozman----
    Mr. Boozman. ----would be migrant versus refugee.
    Sec. Richard. So if you look at these pie charts down here, 
the dark pink area are people who are considered refugees--
recognized as refugees based on those coming, and then the 
lighter pink is those who have been determined to not qualify 
as refugees. So it starts to give you a picture that on the 
Western Balkans route certainly most are fleeing war--are 
Syrians, Iraqis, Afghanis--or violence. Eritreans are fleeing a 
repressive government and forced conscription into their 
national service.
    For other parts of Africa it's less refugees and more 
economic migrants, but for Nigerians, for example, some would 
be refugees if they're fleeing Boko Haram in Northern Nigeria.
    Mr. Boozman. Thank you, Mr. Chairman.
    Thank you, Ms. Richard.
    Mr. Smith. Thank you, Senator Boozman.
    Commissioner Hultgren?

 HON. RANDY HULTGREN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hultgren. Thank you so much for your work. Thank you 
for being here today. And many of my questions and concerns 
have been discussed already, but I haven't heard you talk much 
about reaction of local populations in Europe and concern of 
how they're responding to this significant impact on their 
countries as far as political parties or some upheaval reacting 
to the changes that are coming to their countries because of 
this in certain regions, maybe having significant numbers of 
refugees there.
    From the State Department, what are you sensing there? What 
concern do you have? And what can we do maybe to help ease some 
of that fear or uncertainty or the process that they're working 
through there with this great influx of refugees?
    Sec. Richard. Well, I think you see European publics 
responding in a number of ways. Some are quite welcoming to the 
refugees and some of them are not welcoming at all. And there 
is a lot of attention to the rise of parties that are 
xenophobic or anti-immigrant, anti-refugee in various countries 
of Western Europe. So I'll leave it to European witnesses to 
discuss that.
    I think what the U.S. can do that we are doing is invite 
people to come here and see how our refugee resettlement 
program works, because even though it's, like I say, not a 
luxurious program--it's a public/private partnership that 
relies on a lot of contributions at the local level in terms of 
used furniture, used clothing, winter coats for people coming 
from Somalia to Minnesota--it is one that works.
    And so we're trying to sort of model how you can bring 
people from other cultures, other countries, other religions to 
your country and all get along just fine. And so that's, I 
think, the most important thing we can do.
    Mr. Hultgren. We've seen some--I represent Illinois west of 
Chicago, and World Relief and some other agencies have been 
fabulous of helping that transition, but I do know--thank you 
again for your work. I'm going to yield back. I know we've got 
another panel that we want to hear from as well. So thank you 
very much, Secretary.
    Mr. Smith. Thank you, sir.
    Sec. Richard. Thank you.
    Mr. Smith. I want to ask a couple of follow-up questions 
and then we'll conclude, although we have another member who 
just joined us.
    Let me just ask, how was the 10,000 number arrived at? Why 
not 15,000? Why not 20[,000]? Why not 5[,000]? Was it 
scientifically arrived at? Is it a sense that this is our 
number? Who calculated that number to get to 10,000?
    Secondly, EU Ambassador David O'Sullivan will be testifying 
shortly before this Commission and lays out a number of things 
that the Europeans have done and continue to do, dozens of 
initiatives including funding, like us, to UNHCR and other 
initiatives, but he also points out that we've launched 
rescuing operations Poseidon and Trident, and tripled our 
presence at sea. Over 122,000 lives have been saved.
    Now, the Sixth Fleet obviously is deployed. There's 26 
countries of Europe that are part of that effort--Trident, for 
example. Are we collaborating? Is the Sixth Fleet collaborating 
with those rescue efforts at sea? What is our role there?
    And finally, Mr. Pitterman makes a very good point talking 
about long-term trends. Two of them he notes. Why now? Why are 
people leaving and coming to Europe and potentially to the 
United States? He said they've lost hope in a political 
solution to the war, and then after so many years the next 
resources have run out, living conditions have so deteriorated, 
two long-term trends, but he said the trigger is the 
humanitarian funding shortfall--again, the WFP, the World Food 
Programme's cut of 30 percent that have just driven people to 
the point where they don't have food so they uproot and leave 
even their meager existence there. Is that true? Do you agree 
with that assessment?
    Sec. Richard. On the second question first, I do think that 
the cuts in the World Food Program rations and the food voucher 
values did send a signal, not from the United States, but it 
was interpreted as a signal from the world that the 
international community was losing interest and things were 
going to get harder for refugees in these countries.
    So I think many of us feel if we could go back in time that 
there would have been much more investment in that. And like I 
say, the U.S. is the leading donor to the World Food Program. 
So this is not the fault of the United States, but it is a 
fault of the collective international community that that was 
allowed to happen. Was it the one single trigger? I don't know. 
I mean, we've talked about push-and-pull factors, but I think 
it was a factor, definitely.
    Last December, the U.N. High Commissioner for Refugees had 
a very interesting dialogue. He organized a sort of a more 
informal meeting every December on a concern, a protection 
concern, and this past year it was protection at sea. So I 
asked the U.S. Coast Guard to come along with us to that 
discussion in Geneva, which doesn't usually happen that we have 
a joint our bureau with Coast Guard discussion, but I thought 
that they are so thoughtful in how they do things in the 
Caribbean that it would be useful for them to be part of the 
discussion. And also, there were members of the Italian navy 
who also came. So it was a really unusual meeting where we had 
nongovernmental organizations, governments, and then coast 
guards and navies present.
    I know that U.S. Navy, U.S. Coast Guard make a priority of 
saving lives no matter who is approaching their ship and who's 
in distress nearby. So I'm sure, without knowing the details, 
that the Sixth Fleet plays a life-saving role in the 
Mediterranean, but I'm not the expert on how they're working 
with the European efforts. And so I'll leave that to the next 
panel.
    Mr. Smith. Again, the 10,000 number? How was that arrived 
at? And if you could get back to us on the Sixth Fleet I think 
it would be----
    Sec. Richard. OK.
    Mr. Smith.----very helpful to the Commission to know. And I 
know that they would never pass someone who is in distress----
    Sec. Richard. Sure.
    Mr. Smith.----but are they working with these two European 
Union efforts?
    Sec. Richard. On the 10,000 number, we were already 
planning to increase our numbers to between 5[,000] to 8,000, 
and the president decided we'd bring a few more than that. So 
that's how the 10,000 number was arrived at.
    Mr. Smith. We're joined by Commissioner Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you. Thank you, Mr. Chair. First I want to 
thank you for holding this hearing. It's such an important 
issue, and so important that America do what America has done 
so many times in the past, to offer our shores as a place of 
refuge to people who have been endangered by political 
conditions in their countries. And I think back personally, as 
a Jewish American, to the situation with Jews who were not 
accepted in this country on ships during the 1940s and maybe 
the 1930s, and I'm sure they met a disastrous outcome because 
we didn't open our shores at the time. And we should learn from 
those mistakes, and I believe we will.
    I hope that the President will allow for a parole 
relationship and bring in the refugees who have been cleared 
who are not in any way--because of the best that we can 
ascertain--a threat to our country but are in need of refugee 
status. And I think it's part of what makes our country great 
and what makes our country the greatest country on the face of 
the Earth. And as the Pope reminded us, we were all immigrants. 
The only people that weren't immigrants were victims of one of 
the greatest slaughters ever, the American Natives, the 
American Indians.
    So, as immigrants, we need to remember, as the Pope told 
us, the Golden Rule and do unto others as you would have them 
do unto you. And as I think about possibly my ancestors who 
would have been on those ships to St. Louis that were not 
accepted, I think we need to be the great country we are and 
accept as many folks as we can and save them from the ravages 
of ISIS and the terrors of war that exist in Syria.
    The food program was cut back, as I understand it. Was 
there any issue with funding for the food program?
    Sec. Richard. Yes. The Food for Peace Office at the U.S. 
Agency for International Development leads the U.S. Government 
in relations with the World Food Program. The World Food 
Program is headed by an American, Ertharin Cousin from Chicago, 
and their headquarters is in Rome. We have a very close 
relationship with them also because sometimes our budget is 
used when there are food pipeline breaks in terms of the 
pipeline of food reaching refugees in hard-to-reach places, 
primarily in Africa.
    So the U.S. is the top donor to the World Food Programme 
year in and year out. It's something I think we're very proud 
of as Americans, that we don't want people going hungry, but 
other countries were not keeping up, keeping pace with their 
contributions as we were. And it wasn't enough for the people 
running the program in the region to continue to provide 
benefits to as many refugees as they would have liked.
    So what they did was they targeted the most vulnerable, 
neediest refugees and they cut back then both in the number of 
people they were reaching and the value of the food vouchers 
they were giving them. And as we were just discussing, it may 
have been a trigger for people deciding to leave the region and 
try to make it to Europe.
    Mr. Cohen. In which countries--was the American--our 
contribution remained constant, is that correct, or was there a 
cut in funding on our side?
    Sec. Richard. It's not a cut in funding on our side because 
both the humanitarian assistance that USAID gets through the 
Food for Peace program and the Office of Foreign Disaster 
Assistance, and our budget, have been well-funded by Congress 
in the last several years. And so one of my messages today is 
thank you very much, because we are the world leader in 
providing this humanitarian assistance. And right now we have 
about $3 billion and AID has about $3 billion in food and 
disaster assistance that together makes a $6 billion 
contribution--which is sizable--to needs around the world.
    The problem is the list of crises is growing. The old 
crises continue even as new ones erupt. You know, we're praying 
that there will be peace in South Sudan, potentially peace in 
Yemen, places where there have been efforts to resolve 
conflicts will happen so that we can then use our precious 
resources for these very, very challenging situations.
    Mr. Cohen. Were there other countries that cut back on 
their financial contribution? And if there were----
    Sec. Richard. I don't have the details for you, but my 
sense was they either cut back or they weren't keeping pace 
with the growth, which we were able to do thanks to Congress.
    Mr. Cohen. And which countries were those?
    Sec. Richard. Well, we were talking before. There is a 
group of traditional donors, which are Western Europe, U.S., 
Canada, Korea, Japan, Australia, New Zealand. And so 
collectively we were unable to keep pace, but I think the U.S. 
did its share.
    Then there's the Gulf States, where sometimes some of them 
are charitable, particularly charitable and write big checks, 
and sometimes not. And they tend to give in very one-off 
situations. And so we would like to see more uniform giving, 
routine giving from the Gulf States.
    And then there are other countries that just do not make a 
habit of providing assistance through humanitarian assistance. 
They prefer to do other ways of engaging with the world. I 
mentioned China and Russia before as to countries that are on 
the permanent five of the U.N. Security Council, but they're 
not really part of the traditional donors.
    Mr. Cohen. Is what you're telling me, and it sounds like 
it's probably an obvious answer, but the democracies seemed to 
do pretty good in caring for other people, and the totalitarian 
regimes and dictatorships don't. So it kind of flows from what 
they give their own they don't give to others either.
    Sec. Richard. Well, it's called Western donors, but now we 
see Japan, Korea. Korea has become a regular donor and didn't 
used to be. I mean, at one point it was an aid recipient. So I 
don't think it has to be a Western enterprise. I think that it 
can be much more internationalized.
    Mr. Cohen. But they're all democracies that you say are 
keeping up with it, Western Europe, Korea, Japan, the United 
States, Canada, it's the democracies. So that's a good thing.
    Sec. Richard. Well, and part of it may be that publics 
expect this from their governments in democracies and make it 
known that they want to see this happen. You know, the Gulf 
States can be very charitable. Giving during Ramadan especially 
goes up. It's a traditional practice in Muslim societies. But 
it's just not something that right now is part of an annual 
contribution that can be relied on by U.N. leaders.
    Mr. Cohen. Maybe Ramadan should be every day of the week, 
like Christmas.
    Sec. Richard. [Chuckles.] And Christmas.
    Mr. Cohen. Yeah, exactly, exactly. Who are the people that 
are--I know Jimmy McGovern's big on feeding the world. Where 
Jimmy's a leader, is Chris a leader? Who are the leaders in 
Congress on this?
    Sec. Richard. How many times do you think I've testified 
before you, Mr. Smith? I mean, he's very used to it. He's very 
interested in our issues. So yeah, he's definitely a leader. I 
met Senator Boozman before and we had a talk about the Syrian 
refugees. It was after you went I think to Turkey or something. 
There's been a lot of visitors to Turkey and Jordan, which I 
find very good in terms of helping me explain to others what is 
going on.
    And then Senator Shaheen just came back from Greece. I 
haven't been to Greece lately, I would have liked to have gone 
to Greece. I've got other countries to go to. But it really 
helps us when you all travel and go out and meet refugees. But 
one doesn't have to go overseas to meet refugees, of course. 
There are a lot of refugee families in the United States who 
can talk about, probably in this room behind me, who can talk 
about the experiences they've had and what their relatives are 
going through.
    Mr. Cohen. Thank you for your good work.
    And thank you, Chairman Smith, for your good work as well.
    Mr. Smith. Thank you very much, Commissioner Cohen.
    I'd like to thank you, Madam Secretary, for your extensive 
answers and for the work of PRM on behalf of those who are 
suffering, these refugees and displaced persons, and look 
forward to seeing you again very soon. Thank you.
    Sec. Richard. Thank you.
    Mr. Smith. I appreciate that very much, we all do.
    I'd like to now welcome our second panel. The Commission is 
very pleased to welcome Shelly Pitterman, the UNHCR Regional 
Representative for the USA and the Caribbean. During his 30-
year career with UNHCR, Mr. Pitterman has served on the ground 
in Sudan, Guinea, Burundi, as well as the UNHCR headquarters in 
Geneva and, of course, here in Washington. He also was seconded 
to the U.N. work relief of UNWRA, the U.N. Relief and Works 
Agency, where he worked with the Palestinian refugees in 
Jordan.
    Thank you for joining us, Mr. Pitterman.
    We'll then hear from Ambassador of the Republic of Serbia 
to the United States Djerdj Matkovic. Ambassador Matkovic has 
served as Serbia's ambassador to the U.S. since February of 
this year. Before his time in Washington, he was the foreign 
policy adviser to the Serbian Prime Minister Vucic. His country 
currently holds the OSCE chairmanship for 2015.
    So thank you, Mr. Ambassador, for being here.
    We'll then hear from Sean Callahan, chief operating officer 
of Catholic Relief Services, the official international 
humanitarian agency of the Catholic community here in the 
United States. Mr. Callahan is responsible for overseas 
operations, U.S. operations and human resources and for 
ensuring CRS's fidelity to the mission to preserve and uphold 
human life, and they have done a magnificent job.
    I mentioned being in Stenkovec, Macedonia at a refugee 
camp. And I've lost track of the number of times I've been in a 
refugee camp and I saw the CRS initials on the baseball cap. 
Thank you so much for the work that you have done and CRS has 
done.
    And lastly, the EU Ambassador to the United States David 
O'Sullivan, who is currently the senior representative of the 
European Union in Washington. Prior to his current appointment, 
Ambassador O'Sullivan served as chief operating officer of the 
European External Action Service, the EU's diplomatic service 
where he assisted the EU's high representative for foreign 
affairs and security policy in ensuring the consistency and 
coordination of the EU's external policies, strategies, 
instruments, missions, and the 140 EU diplomatic delegations 
throughout the world.
    We deeply appreciate the appearance of Ambassador 
O'Sullivan here today as a gesture of friendship and 
cooperation with the European Union. We recognize that the 
normal congressional oversight authority over witnesses does 
not hold for diplomatic witnesses, and we recognize his 
official relationship to the United States Government.
    Ambassador, O'Sullivan, thank you again for taking the time 
out, and all of you for being here to provide your expertise, 
guidance and wisdom to the Commission.
    I'd like to begin now with Mr. Pitterman.

SHELLEY PITTERMAN, REGIONAL REPRESENTATIVE TO THE UNITED STATES 
 AND CARIBBEAN, OFFICE OF THE UNITED NATIONS HIGH COMMISSIONER 
                      FOR REFUGEES (UNHCR)

    Mr. Pitterman. Thank you very, very much, Mr. Chairman. 
It's, for me, a great honor and privilege to be here. It's my 
first time since I took up my assignment as the regional 
representative of UNHCR in 2013.
    So much has already been said by you, Mr. Chairman, and 
others, by Anne Richard as well in relation to the current 
situation, the numbers, the reasons for flight and so on, so I 
will not repeat those remarks, and therefore try to keep it 
short.
    But I did want to nevertheless mention a few numbers that 
have not been stated and a couple of other themes that might 
also provoke some conversation.
    It's important, I think, to remember that now we are at 
more than 60 million refugees, forcibly displaced people around 
the world. That translates to 42,500 people every day. There 
have been more than 15 new conflicts in the last five years and 
none of the old conflicts have been resolved, so we are also 
witnessing the low point in the numbers of people who are 
voluntarily returning to their countries. And so we are facing 
not only protracted situations and new emergencies, we are 
facing protracted emergencies.
    And the first and foremost on our agenda as the U.N. 
refugee agency is the mega crisis in Syria and Iraq, which for 
the first time in years has now hit Europe. As the high 
commissioner said, the poor have come to the home of the rich 
and the world has taken notice.
    More than 643,000 people have arrived through Greece and 
Italy. The trends of the flow have changed over recent months 
from the Central Mediterranean to the Eastern Mediterranean and 
the movement that is now very much on our television screens 
and newspapers. Yesterday's images, I don't know if you saw 
them on the BBC, at the border between Serbia and Croatia, I 
was shocked myself and I believe it's just unbelievable that 
that's happening these days, people in wheelchairs stuck in the 
mud in freezing-rain temperatures.
    That having been said, it's clear that this is 
overwhelmingly a refugee movement. These are people who were 
forcibly displaced from their homes. Ninety percent of the 
people who are arriving are coming from the 10 top refugee-
producing countries in the world; Syria first and foremost, as 
well as Afghanistan, Eritrea, Iraq, Nigeria, Somalia, and 
Sudan.
    The conflict in Syria has entered its fifth year, there's 
no end in sight. As we spoke earlier, you made reference, Mr. 
Chairman, to the lack of hope, to the desperation, to the 
increasing impoverishment of refugees, leading them now to take 
the hard decision, even in the cold as we're seeing these days, 
to cross to Europe.
    Like all other refugee movements, stemming the tide is not 
an effective policy objective. Building barriers, as we've seen 
in some European states, or pushing back refugees, as we've 
seen in other European states, it doesn't end elsewhere around 
the world, simply doesn't work.
    To quote the high commissioner for refugees, ``Those who 
believe that the easy solution is to close doors should forget 
about it. When a door is closed, people will open a window. If 
the window is closed, people will dig a tunnel. If there's a 
basic need for survival, a basic need for protection, people 
will move. Whatever obstacles are put in their way, those 
obstacles will only make their journeys more dramatic.''
    And now we're seeing in Europe, we're seeing it as well in 
Central America, that there is then a temptation, a need for 
refugees to resort to smugglers and traffickers in order to 
find security and safety.
    What matters is the management of the flow, not stemming 
the tide. And in Europe, there's evidence that the flow has not 
been very well managed up until now. And there is a pressure by 
force of circumstance, but also leadership in Europe and in the 
European Union to resolve that and to address the problem in a 
more unified and coherent way.
    UNHCR is active itself in trying to find a comprehensive 
solution, first by focusing on saving the lives of refugees and 
addressing humanitarian protection needs, especially at the 
points of transit, first arrival, and destination.
    We're working hard to, as well, strengthen protection 
systems through capacity building for asylum procedures in 
Europe, but also in the eastern Horn of Africa from where some 
of the refugees are coming, as well as from North Africa, and 
reinforcing the availability of protection and solutions in the 
regions where they first find security and safety.
    So we have been working to provide emergency lifesaving 
assistance, strengthening first-line reception capacity, 
providing information, simple matters such as even 
interpretation, protection monitoring, advocacy, working with 
the civil society and focusing as well on unaccompanied and 
separated children, of whom there are several thousand who have 
been registered to date.
    We think that the United States has a key leadership role 
to play, always has and hopefully always will, not only in 
terms of humanitarian funding, a subject which has been already 
discussed, where we have the gaps and where we count on 
Congress and the State Department to provide support, but also 
in terms of humanitarian diplomacy and resettlement.
    Most refugees want to return home. But because of the 
conflict, wars and persecution, many refugees are unable to 
repatriate, they live in perilous circumstances, and so we 
identify those who require a resettlement solution for their 
own protection, as well as part of a strategic approach to 
burden-sharing.
    According to the UNHCR current assessments, about 10 
percent of Syrian refugees, about 400,000 people, will need 
resettlement over the coming years. And we focused our 
resettlement efforts on identifying and referring the most 
vulnerable refugees in Jordan, Turkey, Lebanon and Iraq, as 
well as in Egypt.
    So far we've referred more than 45,000 Syrians for refugee 
resettlement globally, with 20,000 made to the United States. 
And as you mentioned earlier, Mr. Chairman, we're quite 
encouraged that there is now an acceleration of the process of 
processing of refugees for resettlement to the United States.
    One point that hasn't been mentioned before that I'd like 
to highlight now is that UNHCR's been encouraging states to 
offer other legal avenues for access to safety and security. 
Resettlement is one, but we see as well family reunification, 
other types of humanitarian visas as an opportunity for Syrians 
and other refugees for that matter to gain access rather than 
having to risk dangerous journeys in order to arrive in a 
secure place. And this might also address the willingness of 
the diaspora community to receive their family members from 
countries of asylum now.
    But still, resettlement will remain a solution for only a 
small percentage of the Syrian refugees, and that's why there 
has to be a comprehensive international response to the Syrian 
humanitarian crisis, one that also includes robust humanitarian 
assistance to Syrian refugees and to the governments and 
communities where they're hosted in Turkey, Lebanon, Jordan, 
and Iraq.
    This will have to be accomplished with development actors 
and with development budgets as well. As the high commissioner 
said in his closing remarks to the Executive Committee earlier 
this month, there is no way that global humanitarian budgets 
will be able to face the enormous challenges related to the 
dramatic growth of the humanitarian problem in the world.
    UNHCR, therefore, appeals to the United States to continue 
to exercise leadership in helping refugees in the host 
communities and asylum countries to recover and grow after the 
trauma of flight, because the U.S. Government and the American 
people know better than most just how richly refugees and 
migrants can indeed contribute to the political, economic, and 
cultural fabric of the nation.
    Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you so very much, Mr. Pitterman.
    Ambassador Matkovic.

 DJERDJ MATKOVIC, AMBASSADOR OF THE REPUBLIC OF SERBIA TO THE 
                         UNITED STATES

    Amb. Matkovic. Thank you, Mr. Chairman. Chairman Smith, 
ladies and gentlemen and the members of the Helsinki 
Commission, thank you for the invitation to testify before you 
today on the issue of the migrant crisis Europe. I would like 
also to thank you for organizing this important hearing which 
highlights the fact that the complexity and the magnitude of 
this problem makes it incumbent upon all of us to give full and 
serious attention to it.
    I'm here to offer the views of the Republic of Serbia, the 
chair country of the OSCE, as well as a country which is at the 
very center of the western Balkan migration routes.
    Today's global migration scenario shows how migratory 
movements are driven often inseparably by traditional economic 
pull and push factors, as well as by instability and lack of 
security in a growing number of countries.
    The migrant crisis bursting through and over political, 
administrative, and civilization borders speaks tellingly of 
the interrelatedness of far-away countries and peoples, 
highlighting the consequent need for a responsible and an 
adequate approach to the quest for a lasting and comprehensive 
solution to this burning issue.
    Partial and limited steps are not a solution. In the 
process of solving this problem, the support of all the member 
states of the most important multilateral organizations, 
including the OSCE, is of paramount importance.
    The OSCE region is witnessing the largest influx of 
refugees in decades. Apart from being a significant economic 
challenge, this is a process with potentially very serious 
security implications and, of course, of concern in regards to 
respect for human rights.
    As the international community is struggling to find 
responses that reconcile refugee protection and human rights 
commitments with security considerations, the OSCE for its part 
reflects on the role it will play in supporting the shared 
interests of its participating states and Mediterranean 
partners for cooperation.
    As the first, largest regional security arrangement under 
Chapter 8 of the United Nations Charter, the OSCE is in a 
distinctive position to contribute to the handling and 
resolution of the crisis. Its comprehensive and 
multidimensional approach to their security is a unique asset.
    It is worth mentioning that the OSCEs do not have a mandate 
to tackle the crisis directly. The organization is actually 
dealing with the security challenges obviously derived from the 
migrant crisis, primarily human trafficking, transnational 
criminal activities and threats, as well as border management.
    While the primary responsibility for these commitments lies 
with the participating states, the OSCE is mandated with 
reminding us for our commitments and assisting the 
participating states in implementing them.
    Traditionally, OSCE decisions have largely framed its 
mandate on migration within the second dimension. As a result, 
the Office of the Coordinator for Economic Environmental 
Activities has been tasked with assisting the implementation of 
OSCE commitments, particularly in the areas of comprehensive 
labor, migration management, gender aspects of the labor 
migration policies, as well migration data collection and 
harmonization.
    Over the years, the OSCE has also widened its third 
dimension mandate, including issues related to migrant 
integration and the protection of human rights and of the 
vulnerable migrant groups. The Office of Democratic 
Institutions and Human Rights promotes the development and the 
implementation of legal regulatory frameworks that respect the 
rights of migrants, with special attention to the most 
vulnerable categories.
    In this context, I would like to underline that during the 
negotiations on the OSCE budget for 2015, Serbia, as the 
presiding country, has supported the proposal by the U.S.--
[inaudible]--the Helsinki Commission to enhance activities in 
the field and fight against human trafficking to increasing the 
budget of the ODIHR.
    OSCE field operations have also been increasingly involved 
in migration-related activities and projects, although they 
have been unevenly mandated reflecting the diversity of 
arrangements with host countries and different political 
priorities and needs.
    As the presiding country, Serbia recognizes the importance 
of these issues and is trying to provide more active and 
concrete approach to the OSCE in addressing them. In light of 
this bleak security situation and looming instability, it is 
paramount that all the mechanisms that were designed and 
adopted by the participating states, to oversee the 
implementation and commitment, are strong and functioning.
    This year, the Serbian parliament has promoted a set of 
dramatic discussions on migration and human trafficking, 
including in the framework of the OSCE Security Committee and 
the [humanitarian?] contract group.
    In May, the Serbian chairmanship co-organized with the OSCE 
Transnational Threats Department the 2015 OSCE Annual Police 
Experts Meeting which focused on trafficking in human beings 
and illegal migrations within the context of fighting against 
organized crime.
    At the initiative of our presidency, a joint meeting of the 
Security Committee, the Economic and Environmental Committee 
and the Human Dimensions Committee on Migration was held in 
Vienna on October 6.
    As the OSCE chair country, Serbia supports the position of 
the United States by which concrete ideas for OSCE activities 
in terms of migration crisis should be put into the context of 
the preparation for the upcoming Mediterranean Conference in 
Jordan, as well as the OSCE Ministerial Council in Belgrade.
    The Serbian chairmanship is pursuing a package of 
Ministerial Council decisions for the forthcoming meeting in 
Belgrade. As they start negotiating in the coming days, we 
intend to incorporate into the draft decision as many concrete 
recommendations as possible.
    Mr. Chairman, allow me to point out that Serbia is not 
dealing with this crisis only in the capacity of the OSCE chair 
country. The migrant wave from the conflict-ridden areas has 
not bypassed my country. While Serbia is not the final 
destination for most of the migrants and refugees, it has found 
itself at the very center of the western Balkan migration 
route. And almost all migrants and refugees coming from Syria, 
Afghanistan, Iraq, and other unstable areas have transited 
through it, heading to the countries of Western and Northern 
Europe.
    It is important to note that the numbers of migrants on the 
western Balkan route are constantly rising since 2009, and 
thus, this is not a completely new problem. What is essentially 
new is that in the past few months we are facing a dramatic 
increase in their numbers. From the beginning of this year, the 
Republic of Serbia has registered over 240,000 irregular 
migrants, with tendencies such that these numbers will only 
increase.
    The migrants who enter our territory are being registered 
and provided with accommodations, food, and medical care. The 
way in which we dealt with this pressure and in various aspects 
of the migrant crisis, namely our approach and empathy that was 
demonstrated so far, were very positively evaluated both by EU 
institutions and EU member countries as well as the migrants 
themselves and by the Arab countries.
    However, it is obvious that the burden we bear during this 
crisis is becoming increasingly difficult. Specifically, aside 
from the financial costs of the current crisis, Serbia is, for 
almost two decades now, dealing with over 500,000 refugees and 
internally displaced persons from the wars from the former 
Yugoslavia in the 1990s.
    In a nutshell, all of the experiences we've had during this 
period have demonstrated that the solution for this crisis 
cannot be based on partial and local steps, such as closing 
borders or building fences. Cooperation and coordination within 
the international community is a must. It is necessary to reach 
a comprehensive and sustainable solution as soon as possible at 
the EU level, to include also transit countries of the western 
Balkan route.
    We wish to be part of this common solution and we are ready 
to take our share of responsibility. I can assure you that 
Serbia will continue to be a credible EU partner and treat the 
migrants in a manner that is fully consistent with European and 
international standards.
    We are also committed to actively participating in the 
implementation of the agreed solutions. Aside from greater 
solidarity, there should be an increased willingness for a 
political response to the root of the crisis. This means more 
readiness to seek a comprehensive solution and for creating 
conditions for sustainable peace and development in the region 
affected by the crisis.
    The alternative is much worse. And that could lead to 
further worsening of the situation that would grow into a 
humanitarian crisis with hardly conceivable consequences.
    At the end, I would like to emphasize that although a small 
country, Serbia is ready to cooperate with the EU, the United 
States, neighboring countries, and the international community 
in working for a peaceful and lasting solution.
    Thank you for your attention and I'm looking forward to 
your questions.
    Mr. Smith. Ambassador Matkovic, thank you very much for 
your testimony.
    I'd like to now yield the floor to Mr. Callahan.

    SEAN CALLAHAN, CHIEF OPERATING OFFICER, CATHOLIC RELIEF 
                            SERVICES

    Mr. Callahan. Chairman Smith and esteemed members of the 
Committee, thank you very much for calling this hearing 
together, particularly as it addresses the needs and safeties 
and well-being of hundreds of thousands of people.
    I am Sean Callahan, the chief operating officer of Catholic 
Relief Services which is the official overseas relief and 
development agency of the Catholic Church of the United States. 
And we serve a hundred million people annually in over a 
hundred countries throughout the world.
    We are also a member of Caritas International which is a 
network of 200 different country offices throughout the world, 
and that is our natural partner network.
    I recently traveled to the Balkans to witness firsthand the 
response to the refugees that CRS was doing there. And CRS is 
currently working with many of its Caritas partners in the most 
affected countries.
    In a region that historically had religious strife, we 
found a great vibrancy in inter-religious work there and 
Catholic Relief Services, working closely with the Catholic 
community, the Orthodox community, and the Muslim community, to 
address the needs of the local communities as well as the 
migrants coming in.
    In addition to that, we're working very closely with the 
local governments and increasing that coordination as we move 
forward.
    I would also like to say that we're also receiving not only 
great generosity from people within the United States, but also 
Islamic relief and the Mormon Church here to have an interfaith 
effort as far as the resources go. And this is supporting that 
effort in Europe. So we're using private funding to assist 
these people and we've committed over 2 million [dollars] in 
the coming year.
    I'd also like to give a nod to the ambassador as in Serbia 
we did notice firsthand, as I was on the border right between 
in Shid, right on the border of Serbia and Croatia, where 
thousands of people had been this weekend, and we noticed the 
outpouring of the Serbian people. And frankly, I think Serbia 
could be an example in the way that many of the people there 
were coming together to assist the refugees. In some countries, 
it seems to be pulling it apart; and in Serbia, it's actually 
pulling people together. So I think we should highlight that 
great example of Serbia and maybe see if we can duplicate that 
in other areas.
    Who are the people that are coming and who are the people 
that we've seen? I think one of the examples was a young man 
named Khalid who came with his wife and his four children, who 
we saw on this no-man's-land border where many of the people 
rested. They rest between the border of Serbia and Croatia 
because they're afraid of being caught in one country or 
another, and so they were in the no-man's-land there.
    Their home had been bombed in Aleppo and completely 
destroyed. They were threatened in that community and had to 
leave. And we asked how they got here, and Khalid said, ``I was 
swimming alongside the boat with Ronya, wrapping her arms 
around me and clinging her head to my neck. It was a rubber 
boat and very slow so I could keep pace.'' Ronya is two and a 
half years old.
    Khalid's eight-year-old daughter spoke up and told us 
proudly, ``My daddy is very strong. When we went from Syria to 
Turkey, he walked over hills and mountains and most of the time 
he was carrying Joud and Ronya in a backpack and sometimes he 
carried me.''
    So despite the generosity and hospitality of the 
governments of Jordan, Lebanon and Turkey, the scale of the 
suffering and the need has outpaced their ability to respond to 
the refugee crisis, both from Syria and Iraq.
    CRS and our partners have assisted nearly 800,000 people 
and spent over 110 million [dollars] in the last three years in 
response to this crisis, some addressing the crucial, immediate 
needs of people, but also trying to provide livelihoods to 
people so that they can eke out a life and so that they don't 
have to migrate.
    Although the Holy Father has called all of us to reach out 
to those people who do migrate, we are working very hard to 
work with the local countries and communities there to ensure 
that people don't have to migrate, that there is security and 
opportunity from them in these countries in the region.
    But the conflict has entered a new phase. Many have given 
up the idea of returning to Syria anytime soon. But unless 
their children can go to school and parents can provide for 
their families in the refugee host communities, then local 
integration is unrealistic.
    Many of the refugees in Lebanon and Jordan, particularly 
religious minorities, have not registered with the U.N., and 
many are living outside with local communities. And as the 
assistance contracts, they move on to other locations.
    There's been many questions on why young men--and as 
they're coming--and we found that if a family member can find 
work, they will send back remittances. The rest of the family 
can remain in the region where the cultural and family ties and 
the cost of living make life easier. Similarly, the cost of 
transporting a whole family, for many of these people at this 
time after four years of war, is too great for them to 
transport the whole family because many do have to pay 
traffickers to allow them to cross various borders.
    Similarly, the issue that you raised earlier, Mr. Chairman, 
conscription, is a big issue. Those coming out of Syria cannot 
come out legally out of Syria. They have to sneak through the 
lines. They're either conscripted by the government or by a 
local rebel group, and so they sneak in and then try to get out 
of the local countries so that they're not sent back.
    As global leaders in the international humanitarian and 
refugee response, the U.S. and Europe must heed Pope Francis' 
call and find new ways to alleviate the suffering and protect 
the vulnerable. We at Catholic Relief Services, and our 
partners with Caritas International throughout Europe, give six 
different recommendations.
    The first recommendation, as the Holy Father has called, is 
let's work tirelessly and urgently to end the conflict. Stop 
the violence. Stop the arming of these different groups that 
are going there. And stop the terrible efforts of ISIS. But the 
governments should galvanize greater support for a regional 
strategy to support medium-term integration of humanitarian and 
development assistance to the refugee host communities. We need 
to help the refugees not just survive but thrive and integrate 
into the local communities. If we don't do that, then they will 
be on the move.
    We need to respond to the fluid situation in Europe and we 
need to have BPRM be able to be a little bit more flexible to 
support agile international nongovernmental organizations 
because, as we noticed when I arrived in Belgrade, there were 
many people filling parks in the center city. Within the next 
week they were bypassing Belgrade and going right to Sid. We 
need to have that agility so that we could set things up. It 
was fortunate that the international actors that were there 
could, within a moment's notice, ship their people to the 
border. And the opportunity in Serbia was ideal as the local 
population was providing assistance as well.
    We also would support that Congress robustly fund the 
humanitarian and development assistance, as it has for the last 
four years, at current or beyond current levels. And we do 
strongly support the Senate Emergency Supplemental Initiative 
to boost that effort, and hope that the House would agree.
    We want to redouble our efforts at protection--and you 
brought this up, Mr. Chairman--particularly education for 
children. We find that it's crucially important for children to 
have education because it stops the abuse. You get to see the 
children. You get to view them at that time. And we have found 
many of the children require psychosocial help, and we've got 
innovative ways of working with puppets and others that allow 
the children to express the horrors they've seen. And frankly, 
it's allowed some of their parents to as well, because they 
have all suffered great violence.
    And then we would also ask the administration, as Senator 
Shaheen has said, to expedite and increase the number of 
refugees settled in the United States. Eighteen to 24 months 
means that these people will be on the road, will not see an 
opportunity in the future, and they need to know their future 
in the short term.
    Again, I thank you for hosting this hearing here, and happy 
to answer any questions.
    Mr. Smith. Mr. Callahan, thank you very much. And now I'm 
very pleased to welcome Ambassador O'Sullivan.

   DAVID O'SULLIVAN, AMBASSADOR OF THE EUROPEAN UNION TO THE 
                         UNITED STATES

    Amb. O'Sullivan. Mr. Chairman, members of the Commission, 
ladies and gentlemen, thank you very much indeed for taking the 
initiative to organize this event. And thank you for the strong 
commitment which members of the Congress have shown, those here 
present and others who have traveled to the region. And we in 
Europe are very grateful for the interest and attention which 
you give to this very difficult issue.
    And, Mr. Chairman, it's already been a long afternoon. I've 
submitted a written statement. I suggest it be entered in the 
record. May I just make a few remarks so as not to take up too 
much time and allow for more interactive discussion?
    As everyone has said, this is, first and foremost, a human 
tragedy. It is probably the worst humanitarian crisis in a 
generation. And as has been pointed out, it also is primarily a 
refugee crisis. This is extremely important in terms of the 
legal rights of the people involved.
    As Assistant Secretary Richards said, we in Europe don't 
have the luxury, when people come knocking on the door seeking 
asylum, of telling them to go away and let us think about it. 
They have to be received immediately because we have legal and 
international commitments which we take very seriously, which 
means they must be granted immediate possibility of shelter, of 
care, and the possibility to make their case and have their 
file processed.
    Now, we've been doing this for many, many years and it has 
all worked extremely successfully, and Europe has been a major 
destination for asylum seekers and refugees. What has changed, 
frankly, is the scale and the numbers, which have simply 
overwhelmed the system. And I think to the extent there are 
deficiencies, it is because of that.
    And I would just like to remind people that I think there's 
been a great deal of compassion and humanity shown all across 
Europe. I think what the people of Italy have been doing, the 
people of Greece when this crisis first hit through the 
Mediterranean, they've opened their homes, their town halls, 
their schools. They've provided shelter and food. They've shown 
great generosity and compassion. Islands like Lesbos, which I 
think has a population of 80,000 people, has seen 350,000 
refugees transit. It's clearly unmanageable for these countries 
to face this kind of crisis.
    We acted immediately to try and stem the situation in the 
Mediterranean with the two naval forces that you've mentioned, 
the search and rescue operation, which has saved nearly 120,000 
lives, and an anti-smuggler naval operation designed to try and 
break the business model of the smugglers. This has, to a 
certain extent, stabilized the situation in the Mediterranean, 
but of course it has immediately created a new flow through the 
Western Balkans, which has now produced the crisis that we're 
now dealing with. And here we have tried to firstly help the 
member states of the European Union who are in the front line 
by offering to relocate asylum seekers from the frontline 
states. That's 160,000 people to be located elsewhere and whose 
files will be treated elsewhere in the European Union.
    We are offering assistance--technical assistance--to the 
member states to help with the processing of the applications 
and also to help with the very difficult issue of returning 
those whose asylum claims are rejected. And this is a very 
difficult issue because it's complicated, but our processing 
for asylum seekers takes, on average, about four months. But at 
the end of that time you do have to make some choices. People 
who are granted asylum have the right to stay. People who are 
not, we have to find out how they are dealt with, and dealt 
with correctly.
    It's clear from all of this that the system which worked 
well in Europe for the last couple of years, notably the Dublin 
principle that the country of first arrival is the country that 
takes the responsibility, is no longer workable faced with this 
crisis. And since this crisis will probably continue, the 
Commission has made it clear we will need to rethink the system 
and will be making proposals both to have a permanent 
resettlement scheme but also to have a revision of our asylum 
procedures so that in the future we can handle these kind of 
situations much more nimbly and much more effectively.
    Of course it is very important--and this has been said many 
times--that the people we're experiencing in Europe as refugees 
are only a small percentage of the total number of displaced 
people. And I want to support everything that has been said 
about the need to support the neighboring countries--Lebanon, 
Jordan and Turkey--and also other countries in the region who 
are experiencing difficulty, and particularly the push factor.
    And I agree with everything that Assistant Secretary 
Richards said about the falloff of funding for the 
international agencies. The European Union, as member states 
we're the largest donor of humanitarian assistance in the 
world. We're the largest donor of humanitarian assistance in 
this region and have been for the last four years. We have 
stepped up our assistance, additionally. The United States is 
also a major donor. I think we are doing our share. I think we 
do need to insist that others do more in order to try and 
ensure that the conditions in which people are living in these 
countries enables them to have a decent existence and perhaps 
somewhat to reduce the pressure they may feel to move 
elsewhere.
    Also we need a political solution to the sources of this 
conflict; Syria obviously, an end to the violence, some 
political process to let the people of Syria rebuild their own 
future. We're fortunate that at least in Libya, which was a 
major transit problem due to the breakdown of law and order, 
there has been a positive political evolution. We hope we can 
build on that.
    So my major point, Mr. Chairman, is simply to say that this 
is certainly a crisis which is affecting Europe massively, but 
it is actually truly a global crisis, as the representative of 
UNHCR has said. And I think we do need a global effort. We're 
extremely grateful for all that the United States has done as a 
donor, as a political ally, but I think we all need to increase 
our efforts.
    We would hope that the United States will continue its 
diplomatic engagement with us and all relevant international 
partners to try and find a political solution to the root 
causes of the refugee crisis, reaching out to third countries, 
encouraging them to be more receptive to refugees but also 
increasing the amount of money to the U.N. agencies--World Food 
Program, UNHCR. There is desperate under-funding. We need a 
major international effort.
    We would be grateful if some consideration could be given 
to increasing the number of Syrian refugees taken in the United 
States. We're grateful for the numbers which have been 
mentioned. We would also appreciate if some--and we appreciate 
it's difficult and a sovereign decision of the United States, 
but some effort on reducing the processing time, which is 
indeed quite lengthy. We all need to push for increasing the 
funding through the U.N. system.
    So, Chairman, that's really all I will say in addition to 
my written submission. We're very grateful for this 
opportunity. It's a huge challenge. We really, in Europe, are 
very committed to facing this challenge. I think we can be very 
proud of much that has been done. Perhaps some things could 
have been done differently or better--I would not deny that--
but we will continue to face this crisis with the full basis of 
our humanitarian values, our commitment to treating refugees 
fairly and decently, and to providing, hopefully, assistance 
where it's needed, but most importantly political solutions 
which get to the root causes of why people flee their homes. 
Thank you.
    Mr. Smith. Thank you so much, Ambassador O'Sullivan. You 
mentioned increasing the number of asylum slots or refugee 
slots. With all due respect, what do you think it ought to be?
    Amb. O'Sullivan. Sir, I----
    Mr. Smith. It's a tough question but I don't----
    Amb. O'Sullivan. Any increase would be welcome. I mean, we 
appreciate this is a matter ultimately for the United States to 
decide, but clearly this problem is going to be with us for 
some time. We're going to have to find ways of offering these 
11 million displaced people some possibilities of diverse 
places to build a future and we hope that the United States 
could play its part in that.
    Mr. Smith. Thank you.
    I'll ask all of you these questions, and answer whichever 
ones you would like. But with winter fast approaching, 
obviously the threat of disease, of people dying from exposure 
to cold and bad weather is increased markedly, particularly 
with so many people in transit. And I'm wondering if there's 
some early warning surveillance on how we might mitigate that 
threat. We're always worried about a breakout of a new 
pandemic, and obviously that looms large, I think, in the 
affected region with so many people potentially going to get 
sick.
    And maybe, Mr. Callahan, you might want to speak to what 
you're finding and what others are finding--and all of you 
might want to speak to this--in terms of diseases, the 
morbidity as well as the fatality rates. We know that children 
are less likely to be getting their immunizations. We know that 
other opportunistic infections will seize upon all of this 
transition and all of this chaos. And people do get sicker in 
more torn areas. And if you might want to speak to that, I 
would appreciate it.
    I would ask you also, do Christians and those of other 
religious minorities face any unique challenges not faced 
perhaps by the Sunni or the Shia? We know that in some refugee 
camps some of the Christians are less likely to be housed 
there, that there are problems sometimes with an integration 
issue. So I'm wondering if they are left further behind when it 
comes to refugee protection and asylum seeking. Do they have 
unique problems?
    The WFP shortfall, the World Food Program shortfall, if 
that were to be alleviated quickly, and other humanitarian gaps 
that exist, as Mr. Pitterman pointed out so well, would that 
likely lead to stemming the number of people who are uprooting, 
or has this now become a movement that is going to run its 
course, so to speak, as people just leave?
    And again, I thought your two megatrends, coupled with the 
trigger, I think so well put it. You know, people don't expect 
this war to end anytime soon. They have spent down to the point 
of gross impoverishment, and now in comes the WFP cuts and the 
other cuts that have just made life beyond miserable. But if 
that were reversed, if the humanitarian crisis from that point 
of view were to be very robustly attacked, what would happen 
there?
    You mentioned, Ambassador O'Sullivan, about the Dublin 
regulation, and we all know that means the country where they 
first make their presence are the ones who need to adjudicate 
whether or not they're asylum-eligible, but we all know that 
some of the countries have less capability in that area.
    And I know that our own Director of Intelligence Clapper, 
our FBI Director Comey, the Special Presidential Envoy for the 
Global Coalition to Counter ISIL Allen, have all publicly 
expressed concerns about terrorist groups like ISIS posing as 
refugees, especially at those European countries where there 
might be a less capable effort to weed them out. And I'm 
wondering--you did indicate that that's being looked at. It 
seems to me that would be a--if you could elaborate on where 
that might go.
    And finally--I guess that's enough for now--if you could.
    Mr. Pitterman. Let me perhaps focus in on the question 
regarding what would happen if the funding pipeline was 
replenished in WFP and everybody was able to respond to the 
needs of the refugees in the countries of asylum, so in the 
principal countries of Lebanon, Turkey, Jordan, Iraq, to a 
lesser extent Egypt.
    I think that the answer is that people would continue to 
flee from Syria. There would continue to be internal 
displacement. The attacks of these last days in Aleppo are said 
to have generated 70,000 new people moving. So it wouldn't stem 
the tide, once again, because their refugees, they would simply 
perhaps be less compelled to leave their first countries of 
asylum to go to Europe or elsewhere, but it wouldn't relieve 
the pressure on the international community to still provide 
support to the host countries in a bigger and better way, in a 
more sustained and multiyear manner rather than year to year--
actually it's quarter-to-quarter humanitarian assistance.
    And it would perhaps also focus more attention on the legal 
avenues for people to leave Lebanon and Jordan and Turkey 
through resettlement, through family reunification and other 
means, which would allow for a more managed, predictable 
approach to arrival in Europe as well as to the United States. 
That's the best-case scenario.
    Mr. Smith. And before the rest of you answer, if you 
could--and maybe you would want to touch on this as well--with 
regards to human trafficking and the exploitation of women, are 
there assessments being undertaken to look at the situations 
where women are more vulnerable? I have a whole list of 
places--I mentioned Munich as just one of those--where women 
have been raped and they've been sold into slavery. And we all 
know how the exploiters just have capability to find these 
women and sell them and reduce them to commodities.
    And I know we all care about it. I know the European Union 
has done yeoman's work on combating these crimes. But I'm 
wondering if, given all of the chaos, if enough is being done 
and your recommendations on that.
    Mr. Pitterman. Very good. I know for a fact that this is a 
matter of particular interest to UNHCR and to our partners and 
to the states. There's no question about that. I don't have 
with me specific references, but we can certainly furnish them 
to theCommittee when I get back to the----
    Mr. Smith. I appreciate that very much.
    Amb. Matkovic. If I may answer two of your questions 
regarding the disease which you have mentioned and the bad 
weather which is coming. Of course it is a great concern in 
Serbia. We are trying to assist the refugees as much as 
possible and trying to give them accommodation, food and warm 
clothes, because most of them they are coming from areas there 
is no harsh winter conditions.
    So we are trying to do that, but of course Serbia's 
capacities are limited so that's why we need the assistance 
from the European Union. And I am thankful that the EU has 
allocated already 1.5 million euros for these purposes, but 
actually we need more. We have established some refugee centers 
and registration centers on the border with Macedonia, with 
Bulgaria, and also on the leaving side towards Hungary and 
Croatia.
    As far as these diseases are concerned they are present, 
and there are medical experts who can aid these refugees 
currently in Serbia, although I have to stress that the 
destination country of most of them is not Serbia. They are 
just in transit. The average stay in Serbia is about three to 
four days. So that limits, actually, the possibility that there 
are some diseases already happened, that people were sick and 
even some of them died, and also women giving birth to 
children, but all of these were taken care of by the medical 
team.
    And the other question which you have mentioned regarding 
the treatment of the various nationalities and their religions 
in Serbia, all of them are treated equally. So if they are 
Sunnis or Shia or Christians, it is no difference. We are 
treating them with dignity and we are welcoming them and trying 
to help them, because Serbian people were also, in the past, 
subjected to some situations similar to this and we really 
understand their plight and why they are leaving their own 
country.
    So if it would be the situation, my opinion is that we have 
to work together, the whole international community, with the 
lead of the United States, to slow the crisis at the roots, and 
in that way the refugees--the number of refugees will be much 
smaller. Thank you.
    Mr. Callahan. Just to pick up on those two points, 
winterization, it is something that we're working on right now, 
getting proper clothing and structures in place, because as we 
see--and they need to be portable structures because of the 
points of migration constantly changing. So we're looking at 
that as well as bathrooms in some of the host countries, with 
the porta potties and things like that.
    We have had medical teams out and there is an increase in 
respiratory diseases, skin diseases, as you might imagine, 
because people haven't been able to bathe in weeks. We're 
talking to families that have been going for 10 weeks at a 
time. And so those are very difficult. I think in some of these 
circumstances you do have to worry about--in the longer term, 
if you get more and more people packed in some of these no-
man's lands the issues of other diseases spreading would be 
more rapid.
    To jump on the issue of the Christians, we haven't noticed 
as much in the current migration, but certainly when Christians 
have left both Syria and Iraq they are not going into camps 
because, frankly, they don't trust those communities and are 
integrating into local communities where they have someone that 
they know that they can trust in those areas. And I'd say 
that's both for Christians and Yazidis. They also aren't 
seeking the same refugee protection because they're outside of 
that.
    And you mentioned the issue of trafficking. I think not 
only is there an issue of trafficking of women, but because of 
the vulnerability of the refugees, children are much more 
susceptible. The parents go out doing things. They leave 
children behind for someone to take care of. And we've found 
more and more cases of children being abused, which is just 
heartbreaking. And so it's one of those cases that, to get them 
out of these situations, we need to make sure that they have 
emergency schooling and that they have caregivers that provide 
that opportunity so their families aren't vulnerable.
    Amb. O'Sullivan. Chairman, on your point about the Dublin 
agreement--and as you say, just for those not familiar with the 
jargon, it means, within the European Union, the first country 
where a person claims asylum is the country that processes the 
application and looks after the person while that is happening. 
And this used to work quite well, and I don't think there was a 
problem of technical ability of any country to process such 
asylum seekers until we got to the point of large numbers where 
the system has now been overwhelmed.
    And also, as the ambassador of Serbia said, in many cases 
people don't want to stay in the first country where they've 
arrived. They actually want to go somewhere else. So the 
struggle now is simply to have some form of registration, some 
fingerprinting, some minimum photographing, and then allowing 
them to travel on.
    So that's why we will certainly need to revisit this as the 
basic principle of asylum seeking in Europe. I don't know 
exactly what the Commission will come forward as an 
alternative, but clearly in the short term we are giving strong 
assistance to member states who feel overwhelmed with the 
numbers they have to deal with to help them cope better with 
the numbers and process the claims better.
    On the security issue--I mean, you discussed this at some 
length with Assistant Secretary Richards--I don't want to say 
that there is no risk, but to be very frank, the calculation on 
the European security level--and this is not a European 
competence; it's a national competence, but they generally feel 
that this is not a high risk at the moment. Frankly, the 
terrorist acts we've had in Europe have often come from 
homegrown terrorists. And there are other easier ways for 
people to get into Europe if they want to as terrorists than 
disguising themselves as refugees and having to accept to be 
fingerprinted and photographed. And I'm not so sure that this 
has to be our major concern.
    I'm not saying that we do not need to be aware of it. I'm 
not saying that--the security forces, I'm quite sure, are 
keeping a close eye on the people who are claiming asylum and 
whose files are now with them with fingerprints and 
photographs. And I'm not saying that we may not develop 
problems in the future, particularly if we are unable to 
integrate these people who are granted asylum and who may 
become alienated in our societies. Then I think we could face 
some challenges. But I think in the immediate term this doesn't 
have to be our major concern, and I think we need to allay 
public fears rather than fuel them.
    And I agree entirely with Mr. Callahan about the young men. 
I think those of us of Irish origin remember well that it was 
often easier for an income earner to be the first person to 
move and to leave the family behind and then to send money back 
or eventually to seek family unification when you'd actually 
built up a livelihood. And it's a fairly tough journey from 
those countries to anywhere in Europe, and I'm not surprised 
that it's the young, fit men who feel more able to make it than 
people with families, or that man who was carrying his children 
on his shoulder. So I think those are just some elements I 
would put into the discussion.
    Mr. Smith. Just if I could follow up, if you don't mind. 
There have been reports that funding for Macedonia, which is 
obviously an area that's been very much impacted by the inflow, 
is inadequate. Is that something the European Union is looking 
at to beef that up because so many people have come in through 
Macedonia?
    Amb. O'Sullivan. Well, I mean, what we are firstly trying 
to deal with the influx coming onto the European territory, 
European Union territory, for which we're legally responsible. 
But we are working very closely with all the neighboring 
countries because we understand that, as the UNHCR 
representative said, I mean, nobody thinks that you can build a 
wall and stop this, but it is a question of how you can manage 
it and how you can avoid trying to fix it in one place. You 
simply spill the problem over into a neighboring country and 
then into another neighboring country.
    That's why we really need an integrated effort across the 
region with good cooperation between us, and also financial 
burden-
sharing to help everyone contribute to helping this to be done 
in the most humane and correct way vis-a-vis the refugees, and 
hopefully, in due course, to slow down the flow and persuade 
people that maybe they don't have to rush to get inside the 
European borders; there is a better future which may be 
elsewhere for them.
    Mr. Smith. Commissioner Shaheen?
    Ms. Shaheen. Well, thank you very much. And thank you to 
all of you both for being here this afternoon and for the work 
that you're doing to address this crisis.
    I want to first agree with the statements that have been 
said. What I saw when I was in Europe was a tremendous 
outpouring of native people in Greece, in Germany--I heard of 
that and other places where people were trying to respond to 
the humanitarian effort. And while they were overwhelmed, they 
were trying to do the right thing, and I think people deserve a 
lot of credit for that. I'm sure in Serbia that's also the 
case.
    And I think certainly leadership from countries like 
Germany to say that this is a crisis that we should all respond 
to is important to recognize. And we met with the coast guard 
in Greece who, often at great personal risk, had rescued 
literally thousands of people from the Mediterranean who were 
saved because of that heroism.
    I also agree with everything that's been said about the 
need to support Lebanon, Turkey and Jordan, because they have 
certainly taken in so many refugees. And, Mr. Callahan, thank 
you for putting a face on these refugees. We talked to some 
young men in a settlement house in Berlin who were students who 
had fled, wanted to continue their education and wanted to go 
back to Syria because they wanted to be the future leaders of 
that country.
    I have three just questions before we close this afternoon. 
And the first has to do, Ambassador, with--one of the things 
that surprised me in Germany was hearing how many of the 
refugees who had come there were from the Balkans, mostly from 
Albania and Kosovo. And, appreciating the history in the 
Balkans, you may want to hand that question off to somebody 
else, but can you talk about why you think we're seeing those 
large numbers of refugees from the Balkans? Most of this 
discussion today has focused on Africa and the Middle East, 
but, in fact, we are seeing those refugees. And what is the 
response to those folks who have left those Balkan countries?
    Amb. Matkovic. Thank you, Senator, for this question. And 
yes, you are right that a big number of refugees have left, 
recently, the Balkans, mainly from Kosovo, Albania, but also 
some from some other countries. And the reason I think is more 
economic, that the economic hardships, the lack of jobs, the 
level of unemployment and a lack of perspective for their 
future lives. So they think that they will find a better life 
in Western Europe and that it will be their future.
    But in order to solve this problem I think we have to work 
together, and all these countries in the region should be 
united on an agenda to promote the economic relations with all 
the Western European countries and the United States and to 
attract more investment, to create conditions for more foreign 
investment. Once they have a better life there and they have 
possibilities for jobs and a livelihood there, they will stay.
    So the root problem in the Balkans is economic reasons, 
much like in Syria or in other countries. But yes, I can 
compare it with some African countries who are also leaving for 
economic reasons. My prime minister, Mr. Vucic--and thank you 
very much receiving him last time he was here--has really a 
very good agenda on the regional reconciliation in the 
countries. That's why his first visit as prime minister was to 
Bosnia Herzegovina to show our support to the united and one 
country Bosnia Herzegovina. And also he visited, as you know, 
Albania twice, and the Albanian prime minister, Mr. Edi Rama, 
was in Belgrade.
    So this regional reconciliation and the problems which we 
are doing is, I think, the whole--the solution of the whole 
problem.
    Ms. Shaheen. And I certainly applaud that leadership and 
very much appreciate it.
    One of the things that we heard was--we know that many of 
the African migrants are coming across through Libya, as has 
been talked about, many coming from Turkey across the 
Mediterranean to Greece. One of the things that we heard was 
that there are traffickers operating out of Turkey and that 
there is the potential to help crack down on those traffickers 
in a way that would help with the problem. To what extent do 
you all see the international community or the EU working with 
Turkey to try and address those traffickers who are 
contributing to immigration, Mr. Pitterman or Ambassador 
O'Sullivan?
    Amb. O'Sullivan. I think the consensus is I should answer 
that question, Senator. [Laughter.]
    I mentioned the naval mission that we put in place, and I 
was--I don't know if there's a legal difference between 
people--smugglers and traffickers, but basically both types of 
activity are at work here. And it is clear that in the early 
stages of this crisis this was particularly true in Libya, 
people paying large sums of money to come a very convoluted 
route and then being put in unseaworthy vessels, pushed out to 
sea and then phone calls to the Italian coast guard to say a 
boat's going to sink if you don't rescue it--extremely cynical 
and dangerous.
    And we have put in place a stable mission which basically 
will operate across the whole Mediterranean with a mandate. 
We've not got a--we're very grateful to the United States for 
the support for that--a U.N. mandate to operate on the high 
seas. We would hope that we could reach an agreement with a new 
Libyan administration also to help them address this issue on 
their shores. And we're engaged in conversations with Turkey, 
as you know, actively now to see how we can jointly work with 
them to try and deal with this issue of illegal movement into 
Greece, which you've been able to witness it firsthand.
    So yes, I mean, I think we're actively engaged. We have a 
naval force that's out there trying to make some inroads. It's 
not easy, but I think we need to deal with the smugglers. Of 
course it will not--once again, this is dealing with a symptom, 
but we need to deal with it--the bigger problem will still 
remain but this is one aspect I think we definitely need to 
address.
    Ms. Shaheen. Yes, one of the things that we heard is that 
as migrants were put into the big rubber boats--and that's 
exactly what they are, big rubber rafts--that they were told 
when they get close to the shore to cut them so they will begin 
to sink so that the coast guard would come and rescue them.
    As you point out, this is--whether it's the smugglers or 
whether it's humanitarian efforts, it's a response to the 
immediate challenge. The longer-term challenge is how do we 
address the conflicts that are causing--or the economic 
conditions that are causing the refugees? But also, what about 
the reintegration efforts, because one of the things that we 
heard was that that's a longer-term challenge. It's probably a 
more-expensive-in-the-long-term challenge, and it's one in 
which often members of EU countries are more concerned about 
addressing. And certainly the United States has seen that here 
in terms of the immigration challenges that we have in the 
United States.
    So can you speak to, Ambassador O'Sullivan, the discussions 
at the EU and what you are looking at that will address that 
longer-term reintegration challenge, and how that is being 
looked at across EU member states?
    Amb. O'Sullivan. Well, we have a long history of migration 
within Europe. Almost every European country has significant 
populations either from within Europe in previous generations 
or from North Africa or Turkey--3 million Turks living in 
Germany, very substantial North African populations living in 
France and Belgium. Even in more recent times my own country, 
Ireland, has now got 250,000 Poles living there, and some 
60,000 Chinese, I believe.
    So the world has changed, and I think we are conscious that 
in some cases the integration of these communities has been 
more successful than others. And I think people are very 
conscious that looking forward--and we can now assume, I think, 
that we are going to have a fairly consistent flow of refugees 
and asylum seekers, and possibly even economic migrants that 
we're going to have to face and deal with. I mean, we'd like to 
deal with the root causes. We'd like to feel that people didn't 
have to come. But on the other hand, we also have a demographic 
situation which maybe would mean that we actually might have 
economic needs for migrants.
    And I think people are very conscious of trying to think 
through now, how do we ensure the integration; how do we ensure 
language training, access to education? President Juncker, the 
president of the Commission, made a very strong appeal that all 
of these asylum seekers should be allowed work, which is not 
necessarily the case for people with pending applications for 
asylum, because he said not only the dignity of work but the 
integration and the sense of belonging to a community.
    So I think, yes, there's a lot of thought going into it. 
We're dealing with the immediate crisis, but the next phase is 
definitely--well, given that these people are now here and 
probably will continue to come, perhaps in slightly smaller 
numbers, but it doesn't matter. We really need in each member 
state to have a conscious policy of how we make sure that they 
are successfully integrated into our respective societies, yes.
    Ms. Shaheen. So we will stay tuned for----
    Amb. O'Sullivan. Yes, well----
    Ms. Shaheen. ----further decisions at the EU level?
    Amb. O'Sullivan. Unfortunately it's not something that you 
see the results of two days afterwards.
    Ms. Shaheen. Sure.
    Amb. O'Sullivan. I think we need to stay tuned and come 
back in five years' time to see how successful we've been.
    Ms. Shaheen. Well, thank you all very much. Thank you----
    Mr. Smith. Thank you.
    Ms. Shaheen. ----Chairman Smith, for holding the hearing.
    Mr. Smith. Thank you very much, Commissioner.
    Mr. Pitterman. If I may just add a quick word on this 
point, because UNHCR has been quite proactive, I think, 
together with other resettlement countries, to help promote 
dialogue, to provide a convening for that. And the U.S. has 
quite a lot to learn from the resettlement experience in 
Europe, but up until now that experience has been very much the 
social welfare state model, dealing with tens, hundreds of 
people. Now, au contraire, they're confronted with quite 
important numbers of refugees being resettled or relocated 
within Europe, much like the American model.
    And so, as Assistant Secretary Richards said, they're also 
asking questions, and the United States can provide, I think, 
some very helpful answers, with the imperative to work. But the 
United States hasn't really set up standards for citizenship. 
We don't know how many refugees who have been resettled have 
become citizens of the United States, and the other data 
indicators aren't always very clearly available.
    But the main thing now that's happening, I see, is a lot 
more engagement by, for example, the Migration Policy 
Institute, where they're having experts in integration of 
refugees and immigrants in Europe speaking to Americans to 
learn more about how things are--how things are happening and 
where there are lessons to be learned. But it will be a long-
term thing.
    A lot of what we've been talking about today--if I may 
just, as a sort of summary, closure remark from my side--first, 
the refugees are, like you said, a symptom of the problem. They 
are victims. They're not choosing to go. They're not--while 
they may be of economic importance, that's not their primary 
motivation, after all.
    But what we're in for now is the long term, whether it's--
and it's big bucks, frankly, in terms of reconstruction in 
Syria when there is a solution--and Iraq--in terms of 
development assistance to the host countries in the interim, 
and also to encourage other middle-income asylum countries like 
Tunisia and Kenya and Ethiopia and Cameroon to continue to 
provide asylum to literally hundreds of thousands of refugees, 
very much at their expense, because there is no way that UNHCR 
is able to support host communities at the same level as we 
provide support to refugees, and that there will be, therefore, 
a continuing need for development aid. And it's a big challenge 
ahead of us, and I think it's--we're talking Marshall Plan.
    Mr. Smith. Thank you. Anyone else like to--concluding?
    Thank you so much for your expertise, your extraordinary 
commitment to humanity, which is played out every single day. 
You have provided this commission with a tremendous number of 
insights and recommendations that we will work on as individual 
members of the Senate and the House, but also as a commission. 
So thank you so very much. The hearing is adjourned.
    [Whereupon, at 4:39 p.m., the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon and welcome to everyone joining us this afternoon as 
we inquire into the European refugee crisis and how the US, EU, and 
OSCE should respond.
    The Syrian displacement crisis that has consumed seven countries in 
the Middle East has become the biggest refugee crisis in Europe since 
World War II. At least 250,000 people have been killed in Syria's civil 
war, many of them civilians.
    The security forces of Syrian dictator Bashar al-Assad's security 
forces have been responsible for many of these killings, targeting 
neighborhoods with barrel bombs and shooting civilians point-blank. 
ISIS has committed genocide, mass atrocities, and war crimes, against 
Christians and other minorities, and likewise targeted, brutalized and 
killed Shia and Sunni Muslims who reject its ideology and brutality.
    Fleeing for safety, more than four million Syrians are refugees, 
the largest refugee population in the world, and another 7.6 million 
Syrians are displaced inside their home country.
    Syria's neighbors, Jordan, Lebanon, Turkey, Iraq, and Egypt, are 
hosting most of these refugees. Before the Syria crisis, these 
countries struggled with high rates of unemployment, strained public 
services, and a range of other domestic challenges. Since the conflict 
began, Syrians refugees have become a quarter of Lebanon's population, 
and Iraq, which has been beset by ISIS and sectarian conflict, is 
hosting almost 250,000 refugees from Syria.
    Until this past summer, few Syrian refugees went beyond countries 
that border their homeland. Syrian refugees and migrants from a range 
of countries have since come to Europe in such large numbers, and so 
quickly, that many European countries, especially front-line entry 
points like Greece, transit countries like Serbia, and destination 
countries like Germany, have been challenged to respond.
    The UN High Commission for Refugees, UNHCR, reports that more than 
635,000 refugees and migrants have arrived in Europe by sea in 2015. 
Fifty three percent of these people are from Syria, sixteen percent 
from Afghanistan, six percent from Eritrea, and five percent from Iraq. 
Notably, only fourteen percent of them are women, twenty percent are 
children, and the remaining sixty five percent are men. The European 
crisis requires a response that is European, national, and 
international, and the United States is essential to it. There must be 
effective coordination and communication directly between countries as 
well as through and with entities like the OSCE and European Union. 
Individual countries also must have the flexibility to respond best to 
the particular circumstances in their own countries.
    The response must address ``push'' factors, like economic 
challenges and aid short-falls in countries like Syria's neighbors that 
have been hosting refugees. It must also address ``pull'' factors, like 
decisions individual European countries have made that have attracted 
refugees.
    There is real human need and desperation. Refugees are entrusting 
themselves to smugglers and where there is human smuggling there is a 
higher risk of human trafficking. I am especially concerned about the 
risk of abuse, exploitation, and enslavement, of women and children. 
Already we are hearing reports that some European countries are failing 
to protect women and girls from sexual assault and forced prostitution. 
The lack of separate bathroom facilities for males and females, rooms 
that can be locked, and other basic measures, enable such attacks. 
There is no excuse for such failures and everything must be done to 
ensure that women and children are safe.
    There is also the real threat that terrorist groups like ISIS will 
infiltrate these massive movements of people to kill civilians in 
Europe and beyond. I am deeply concerned that the screening at many 
European borders is inadequate and putting lives at risk. All of us 
must be responsive to the humanitarian needs without compromising one 
iota on security. European response plans should include specifics 
about strengthening security screening throughout the European region.
    During the conflict in Kosovo, I travelled to Stenkovec refugee 
camp in Macedonia and was at the McGuire Air Force Base in New Jersey 
to welcome some of the 4,400 people brought from there to the United 
States. A refugee--Agron Abdullahu--was apprehended and sent to jail in 
2008 for supplying guns and ammunition to the ``Fort Dix 5''--a group 
of terrorists who were also sent to prison for plotting to kill 
American soldiers at the Fort Dix military installation.
    Given Secretary Kerry's announcement in September that the United 
States intends to resettle at least 85,000 refugees in fiscal year 
2016, including at least 10,000 Syrians, and at least 100,000 refugees 
in fiscal year 2017, the United States and Europe must be on high alert 
to weed out terrorists from real refugees. Because religious and ethnic 
minorities often have additional risks and vulnerabilities even as 
refugees, they should be prioritized for resettlement.
    This hearing will examine the ``who'' is arriving, the ``why'' they 
are coming to Europe, and the ``what'' has been done and should be done 
in response. European governments, entities like the OSCE and the EU, 
and civil society all have critical roles to play.
    The United States has been the leading donor to the humanitarian 
crisis inside Syria and refugee crisis in the region. We also have the 
largest refugee admissions program in the world. However, according to 
the testimony of Shelly Pitterman, Regional Representative for the UN 
High Commission for Refugees, who we will hear from soon, ``The current 
inter-agency Syrian Regional Refugee and Resilience (3RP) plan for 2015 
is only 41% funded, which has meant cuts in food aid for thousands of 
refugees.'' Globally, he warns, ``The humanitarian system is 
financially broke. We are no longer able to meet even the absolute 
minimum requirements of core protection and lifesaving assistance to 
preserve the human dignity of the people we care for. The current 
funding level for the 33 UN appeals to provide humanitarian assistance 
to 82 million people around the world is only 42%. UNHCR expects to 
receive just 47% of the funding we need this year.''
    This hearing will look at how the United States can best work with 
our allies in Europe to meet humanitarian needs and prevent security 
threats.
    In the 20th and 21st centuries, the United States and Europe have 
come together to address the great challenges of our time and this is 
an opportunity to do so again.

Prepared Statement of Hon. Benjamin L. Cardin, Commissioner, Commission 
                 on Security and Cooperation in Europe

    Ladies and gentlemen, I join my colleagues in welcoming our 
witnesses to this hearing before the Helsinki Commission today.
    The current crisis facing many of our fellow OSCE participating 
States is both unprecedented and heartbreaking. Not since World War II 
has Europe seen such a massive movement of people across the continent. 
According to estimates, more than 600,000 people have entered Europe so 
far in 2015. That's nearly the entire population of Baltimore.
    According to UNHCR, an organization we'll hear from shortly, most 
of those currently entering Europe are fleeing war or persecution, in 
Syria or elsewhere, and more than meet the criteria of the 1951 Geneva 
Refugee Convention. Many of these refugees have suffered tremendously.
    No parent should ever have to be put in the desperate position of 
Alan Kurdi's father, weighing the potential danger of flight against 
nearly certain death at home. Sadly, we know the end to that tragic 
story.
    The United States and other countries must continue to address the 
underlying causes that have propelled so many people to leave their 
homes in search of a better life. But while we seek to address the 
security and economic challenges that are part of the current crisis, 
we must not lose sight of human rights and humanitarian aspects of the 
crisis.
    Government conversations thus far have primarily focused on 
hardening European borders, discouraging refugee travel from transit 
countries into the Schengen zone, and the security threat of refugees. 
Noting that the original comprehensive definition of security contained 
in the Helsinki Final Act rested on the pillars of human rights and 
fundamental freedoms, it is incumbent upon the long-term stability of 
the transatlantic relationship that humanitarian and sustainable 
strategies increasingly become part of the conversation.
    To that end, I share concerns that government officials from 
countries whose own refugees were given shelter in 1956, 1968, and 1981 
have shown far less empathy for the displaced and uprooted today. 
Hungary's decision to militarize its border, as called for by the 
extremist Jobbik party, and its use of tear gas and water cannons on 
migrants, including children, is contrary to humanitarian norms.
    Ignoring the potentially destabilizing effect that an influx of 
refugees may have over time on fragile and blossoming governments in 
neighboring non-EU countries like Serbia, Macedonia, and Turkey, and 
OSCE Mediterranean Partners, like Jordan, is only a precursor for other 
possible issues down the road.
    Serious conversations on long-term resettlement plans for refugee 
populations throughout Europe must accompany efforts that currently 
seek to house large numbers of refugees in border states.
    With experts estimating many refugees will not be able to return to 
their homes for a decade or more, the need for long-term sustainable 
planning for integrating refugee populations to complement processing 
and sheltering efforts is critical. Employment, education, delivery of 
services, participation in public life, and mechanisms to address 
discrimination are only some of the concerns integral to national 
resettlement plans.
    Building comprehensive and inclusive plans that guard against the 
creation of two-tiered systems that prioritize new arrivals over 
existing refugees and migrants is another.
    Addressing the exorbitant increase in anti-migrant rhetoric from 
political leaders and others is vital to advancing wide-ranging humane 
resettlement efforts, and if unaddressed can fuel anti-migrant 
violence. For instance, the German government has reported nearly three 
times as many attacks on homes for asylum seekers this year compared to 
last year linked to fearmongering.
    I commend Chancellor Merkel for standing up for the dignity of 
asylum seekers and addressing the long-term benefits of integration 
initiatives.
    In my role as OSCE Parliamentary Assembly Special Representative on 
Anti-Semitism, Racism, and Intolerance, I am not only charged to 
monitor these situations, but also facilitate solutions. As such, I 
have introduced legislative provisions in the Senate calling for joint 
action between our nations to address discrimination and foster 
inclusive societies.
    Again, thank you to each of our witnesses for making the time to 
appear before us today. I look forward to your testimony.

Prepared Statement of Shelly Pitterman, Regional Representative of the 
         United Nations High Commissioner for Refugees (UNHCR)

Introduction

    Mr. Chairman and members of the Commission on Security and 
Cooperation in Europe, on behalf of the Office of the United Nations 
High Commissioner for Refugees (UNHCR) I would like to express our 
appreciation for the opportunity to appear before you today to address 
the refugee crisis in Europe.
    My name is Shelly Pitterman, and I am the Regional Representative 
for the United States and the Caribbean in Washington, D.C., a position 
that I have held since 2013. During my tenure I have repeatedly seen 
the critical role of the Helsinki Commission in shedding light on 
numerous humanitarian crises. Our office has enjoyed an excellent 
working relationship with the Commission, and we look forward to 
continued collaboration.

Overview of UNHCR

    UNHCR is the UN refugee agency mandated by the international 
community to ensure refugee protection and to identify durable 
solutions to refugee situations around the globe. With a staff of 
nearly 9,500, of which about 88% are located in deep field and hardship 
locations, we work tirelessly to assist the world's most vulnerable 
people. UNHCR's mandate and international law define a refugee as a 
person who has a well-founded fear of persecution based on reasons of 
race, religion, nationality, membership in a particular social group, 
or political opinion. While refugees remain our core constituency, our 
populations of concern also include internally displaced persons 
(IDPs), asylum seekers, and stateless persons. In certain situations, 
we have also helped provide protection and assistance to victims of 
natural disasters.
    The vast number of the forcibly displaced and the growing 
complexity of the causes of displacement make our work and the work of 
our partners both more challenging and more needed than ever before. We 
recognize and greatly appreciate this Commission's ongoing support of 
UNHCR and your concern for vulnerable people worldwide.

Global displacement at historic heights

    Today's global displacement situation is unprecedented. There are 
currently more than 60 million refugees, asylum seekers and internally 
displaced persons worldwide as a result of conflict and persecution. 
Last year, only 126,000 refugees were able to return to their homes, 
the lowest number since 1983. Fifteen new conflicts have broken out or 
reignited in the past five years, while none of the old conflicts were 
resolved. The number of people forced to flee their homes each day due 
to conflict or persecution stood at 42,500 last year. That's a small 
city fleeing each day. The interlinked mega-crises in Syria and Iraq, 
which have uprooted over 15 million people, are powerful examples of 
this evolution--but not the only ones. In the last twelve months alone, 
500,000 people have fled from their homes in South Sudan and 190,000 
from Burundi. Some 1.1 million were newly displaced in and from Yemen, 
and 300,000 in Libya. In the Asia-Pacific region, 94,000 people have 
crossed the Bay of Bengal and the Andaman Sea since 2014 in search of 
protection and a more dignified life. Tens of thousands, many of them 
children, are fleeing horrific gang violence and abuse in Central 
America. And there has been little or no improvement in the crises 
affecting the Central African Republic, Nigeria, Ukraine, the 
Democratic Republic of Congo, and elsewhere.
    As these crises grow, so does the politicization of refugee 
resettlement and aid. A major challenge to the safety and protection of 
refugees arises from toxic public debates and the climate of fear they 
engender. In some countries around the world, there has been a 
proliferation of xenophobic narratives and inflammatory statements--
both at the political and civil society levels. This contributes to a 
hostile environment, which has in some instances even led to violent 
attacks against refugees. In this climate, we need an all-out effort to 
ensure that protection--and in particular, the institution of asylum--
remains life-saving, non-political, and fundamentally humanitarian. 
Today's problems desperately require a depoliticized space in which we 
can get on with practicalities, such as shelter, necessities of life, 
and the determination of who is in need of refugee protection.

The European Crisis

    As of October 13, more than 590,000 people have arrived in Europe 
through Greece and Italy so far this year. September alone saw 168,000 
arrivals (mostly in Greece), five times the number from the year 
before. In total more than 3,000 people have tragically died or gone 
missing during their journey. The stories and photographs of families 
packed into flimsy boats fleeing for their lives, camping in train 
stations and in the open air with just the clothes on their back, and 
fleeing from sometimes brutal police and border agents, have shocked 
the world. The conflicts in Syria and Iraq have spilled beyond that 
region, and the effects can now be felt throughout much of Europe as 
the humanitarian community struggles to provide enough assistance. Make 
no mistake, Europe is facing its biggest refugee influx in decades.
    UNHCR is calling upon the European Union to provide an immediate 
and life-saving response to the thousands of refugees as they are 
crossing the Mediterranean and making their way through Europe. We are 
also calling upon the European Union to relocate thousands of refugees 
throughout Europe. We currently predict that that up to 700,000 people 
will be seeking safety and international protection in Europe by the 
end of 2015. While it is difficult to estimate at this point, it is 
possible that there could be even greater numbers of arrivals in 2016.

Who is coming and why?

    Despite the extreme risks and difficulties of the trip, UNHCR 
continues to see thousands of people arriving in Europe every week. 
Although most attention is focused on Syrians, it should be noted that 
they are not the only refugee population making this journey. While 
Syrians comprise 70% of the sea arrivals to Greece, the top ten refugee 
producing countries represent over 90% of such arrivals. The other main 
nationalities of refugees and migrants arriving in Greece are Afghans, 
Iraqis, Nigerians, Pakistanis, Somalis, and Sudanese. All of these 
countries have been marked by conflict, violence and persecution. 
Without peaceful solutions to these crises, people lose hope and seek 
other options for themselves and their families. Many are resorting to 
smugglers to bring them to a safer haven and are clinging to the hope 
that a life in Europe can provide a better future for their children, 
one with peace and education. Of the total arrivals in Europe, 18% are 
children.

Syria crisis

    While the refugee crisis in Europe is due to protracted conflicts 
in a number of different countries, the ongoing deadly conflict in 
Syria has become the main source of refugees. As the conflict in Syria 
has entered its fifth year with no end in sight, more than 4 million 
Syrian refugees have fled to neighboring countries. Continued danger 
inside Syria and deteriorating conditions in the host countries are now 
driving thousands of Syrians to risk everything on perilous journeys to 
Europe. The spike of Syrian refugees coming to Europe this year is 
mainly due to three factors--two long-term trends, and a more recent 
trigger.
    First, many have lost hope that a political solution will soon be 
found to end the war. Second, after so many years in exile, their 
resources have run out and living conditions have been steadily 
deteriorating. Seven out of ten Syrian refugees in Lebanon live in 
extreme poverty, and in Jordan 86% of refugees in urban areas live 
below the Jordanian poverty line. The vast majority of Syrian refugees 
in Jordan live in urban areas rather than in camps, which is also the 
case in the other host countries. Refugees across the region are unable 
to work legally, and over half of their children are not getting any 
education. This situation of poverty among urban Syrian refugees is a 
major concern.
    The third factor--the trigger that has encouraged many refugees to 
make the journey to Europe--is the humanitarian funding shortfall. 
UNHCR has been struggling to continue supporting the growing number of 
extremely vulnerable families with cash and shelter items, especially 
ahead of the coming winter. A few months ago, a lack of funding forced 
the World Food Program to cut their assistance by 30%. As a 
consequence, many refugees felt that the international community could 
be starting to abandon them.
    To break down the causes for flight even further, UNHCR staff have 
identified the following seven core factors behind this movement based 
on observations and conversations with refugees in Jordan, Lebanon, 
Egypt and Iraq.
Loss of hope
    Hope is dwindling for many refugees. Feelings of uncertainty about 
the future are compounded by miserable conditions, are fueling a sense 
of despair and desperation.
High costs of living/Deepening poverty
    Refugees in Lebanon cite the high cost of living as a factor in 
deciding whether to stay or go. In Egypt, refugees say it is getting 
harder to pay rent, manage high levels of indebtedness and provide for 
their basic needs. In Jordan, the inability to provide for one's family 
was the most common reason cited by people who knew someone who had 
left.
    The cumulative effect of four years in exile with restricted access 
to legal employment was also said to be taking its toll. In many cases 
savings are long depleted, precious valuables have been sold off, and 
many refugees across the region live in miserable conditions, 
struggling to pay rent, feed their families, and cover their basic 
needs.
Limited livelihood opportunities
    Without the ability to work legally, many refugees struggle to make 
a living. Lack of livelihood opportunities or access to the formal 
labor market was cited as a problem by refugees in Lebanon, Egypt and 
Jordan. Syrian refugees in Iraq say the large number of internally 
displaced Iraqis has increased competition for jobs in the Kurdistan 
region of the country. Meanwhile, work on construction sites in the 
region has dried up with the drop in oil prices.
    The lack of access to legal work leads refugees, desperate to 
provide for themselves, to resort to informal employment--risking 
exploitation, working in unsafe conditions or having payment withheld 
by unscrupulous employers. If caught working illegally, some refugees 
face sanctions, for example in Jordan being returned to a camp. Under 
new regulations in Lebanon, refugees must sign a pledge not to work 
when renewing their residency status.
Aid shortfalls
    Aid programs for refugees and host communities in the region have 
been plagued by chronic funding shortages. The current inter-agency 
Syrian Regional Refugee and Resilience (3RP) plan for 2015 is only 41% 
funded, which has meant cuts in food aid for thousands of refugees. 
Those refugees still receiving food aid must survive on about 50 cents 
a day. Many refugees in Jordan told UNHCR that the WFP food aid cuts 
were the last straw in their decision to leave the country. Tens of 
thousands miss out on cash assistance, sinking deeper into debt. As a 
result, people resort to negative coping strategies--including begging, 
child labor, and increased indebtedness. Shrinking humanitarian aid was 
cited by refugees in Iraq, Jordan, Lebanon and Egypt as cause of 
desperation and a driver of onward movement.
    In Jordan, inadequate funding has caused refugees to lose free 
access to healthcare. As a result, almost 60 percent of adults with 
chronic medical conditions do without medicine or health services, up 
from 23 per cent in 2014. There is also a marked decrease in access to 
curative and preventative health care.
Hurdles to renew legal residency
    In Lebanon, new regulations for Syrian refugees have made it harder 
for Syrians to reside in the country legally. Increasingly, therefore, 
Syrians transit through Lebanon to Turkey. Refugees already in Lebanon 
must pay US$200 per year to renew their stay. The Syrians are required 
to sign a pledge not to work and must present a certified lease 
agreement. Many refugees are fearful of arrest or detention and feel 
vulnerable because of lapsed residency visas.
    In Jordan, an urban verification exercise was launched by the 
authorities in February to ensure that all Syrians residing outside of 
camps are issued with a new identity document in order to access 
services. This exercise has presented a number of challenges, including 
the cost of obtaining a health certificate (JD30/US$42 for those over 
12 years of age) as part of the process.
Scant education opportunities
    Limited education opportunities were cited as a problem for 
refugees in Jordan, Egypt, Lebanon and Iraq. Education is highly valued 
among Syrians, who enjoyed free and mandatory schooling at home before 
the war. The worsening conditions that refugees face in exile are 
having a devastating impact on the education of refugees. In Jordan, 
some 20 per cent of children are abandoning school in order to work, 
and in some cases girls are being forced into early marriage. Some 
90,000 Syrians of school age have no formal education, with 30,000 of 
those accessing informal education and the rest missing out completely.
    In Lebanon, where education is free to Syrians in a two-shift 
system, many children struggle to attend while at the same time working 
to support their families. While the Ministry of Education has doubled 
the number of places for Syrian children (that is, 200,000 in the 2015/
2016 school year), another 200,000 Syrian children will be out of 
school this year. Across the region, Syrian youth are missing out on 
tertiary education and losing hope for their future.
Feeling unsafe in Iraq
    In addition to the large numbers of Syrians leaving the neighboring 
countries for Europe, Iraqis are also undertaking the journey. Violence 
by armed militias has created deep insecurity in Iraq, with recent 
months noting increased improvised explosive devises (IEDs) and suicide 
attacks in Baghdad. According to the most recent International 
Organization for Migration (IOM) displacement update, 3.2 million 
people have been displaced in Iraq since January 2014. The majority of 
displaced Iraqis UNHCR spoke to who were travelling outside Iraq 
reported feeling unsafe in their country. In particular, many Iraqis 
from minority groups told UNHCR that they see migration as the key to 
their physical safety. These reasons have driven thousands of refugees 
to look beyond neighboring countries and undertake the dangerous 
journey to Europe to find shelter.

Response in the EU

    Over half a million refugees and migrants have arrived on Europe's 
shores since January of this year. Even on a continent of more than 500 
million inhabitants, five thousand people arriving daily is a very 
significant number. But it is not an unmanageable one--provided that 
things are properly handled. The decision taken by the European Union 
to internally relocate 160,000 asylum seekers is a key step in the 
right direction, but much more is needed for this system to work well. 
The solution will include the creation of adequate reception centers 
near the entry points, with sufficient capacity to receive, assist, 
register and screen tens of thousands of people, together with more 
legal migration avenues for those in search of protection. Immediate 
efforts must be undertaken to ensure adequate reception facilities and 
to provide humanitarian relief items in the European countries where 
refugees first arrive, such as Greece and Italy, and in the countries 
refugees travel through on their journey north. While there have been 
improvements in reception conditions in the last few weeks, there is an 
immediate need for more reception capacity and infrastructure, 
sanitation facilities, and core relief items such as warm clothing as 
the weather worsens.
    Implementation of the European Union's relocation program is 
critical. The EU Ministers for Justice and Home Affairs met on 
September 22 in Brussels and adopted a decision on the relocation of an 
additional 120,000 people in need of international protection from 
Greece and Italy. UNHCR welcomes the news of the departure of the first 
relocation of refugees in the EU. Recently, 19 Eritrean asylum seekers 
were relocated from Italy to Sweden, as the first step in a process 
that envisions the relocation of 150,000 people from Italy and Greece 
to participating EU states.
    UNHCR strongly urges EU member states to unite behind the emergency 
proposals negotiated on September 22, to manage the refugee and 
migration crisis that is becoming increasingly chaotic and 
unpredictable. As the High Commissioner for Refugees stated, ``The 
relocation plan will not put an end to the problem, but it will 
hopefully be the beginning of a solution.'' UNHCR additionally urges a 
substantial and rapid increase in legal opportunities for refugees to 
access the EU, including enhanced resettlement and humanitarian 
admission, family reunification, and humanitarian and student visas. 
Without such avenues, refugees will continue to be left with few 
options, and the increase in international efforts to crack down on 
smugglers and traffickers is unlikely to be effective.
    UNHCR reiterates its deep conviction that only a united European 
emergency response can address the present refugee and migration 
crisis. Europe can no longer afford to continue with this fragmented 
approach that undermines efforts to rebuild responsibility, solidarity 
and trust among States, and is creating chaos and desperation among 
thousands of refugee women, men and children. After the many gestures 
by governments and citizens across Europe to welcome refugees, the 
focus now needs to be on a robust, joint European response.

UNHCR's Response

    UNHCR is promoting a three-pronged comprehensive response to the 
European refugee crisis: a) saving lives and addressing humanitarian 
and protection needs at points of transit, first arrival and 
destination; b) strengthening protection systems through capacity 
building for various asylum procedures in the East and Horn of Africa, 
North Africa and Europe; and c) reinforcing the availability of 
protection and solutions in regions where refugees first find safety. 
In Europe, UNHCR's actions will support first-line reception 
interventions through: provision of emergency and life-saving 
assistance; strengthening of first-line reception capacity; provision 
of information; protection monitoring and follow-up; advocacy; and the 
provision of appropriate technical assistance and other support to 
national and local authorities, as well as civil society, particularly 
relating to emergency reception arrangements. UNHCR is also working 
with local partners to ensure adequate identification and response for 
women, men, boys and girls at particular risk, such as unaccompanied 
and separated children. This includes working to ensure prevention and 
response to sexual and gender based violence, access to child 
protection systems, and services for those with specific needs.
    Specifically, in close cooperation with relevant government 
counterparts; EU institutions and agencies; international partners; 
INGOs; NGOs; local communities and civil society, UNHCR will:
    <bullet>  Support the creation of adequate reception arrangements 
and management;
    <bullet>  Enhance protection monitoring through direct or indirect 
establishment of UNHCR presence at entry, transit and exit points along 
transit routes;
    <bullet>  Provide interpretation support to local authorities and 
NGOs in the different countries that engage with arrivals and refugees 
on the move to ensure better communication, profiling and 
identification of protection concerns, and facilitate the swift access 
of persons of concern to the asylum procedure;
    <bullet>  Assist the authorities and other relevant institutions 
with the identification and registration of new arrivals;
    <bullet>  Enhance the provision of relevant information and 
counseling to new arrivals and persons on the move on: their rights and 
obligations upon entry of the country of transit/asylum; the risks of 
irregular onward movement; and means of accessing the asylum procedure, 
family reunification, the EU relocation program, and options for 
resettlement outside the EU, when applicable;
    <bullet>  Strengthen public information and advocacy strategies to 
elicit wider understanding by the public, governments and stakeholders 
towards refugees;
    <bullet>  Enhance communication efforts to reach communities in 
countries of origin and first asylum through a more concerted use of 
mass communication channels and platforms, to inform of the dangers of 
irregular crossings and existing and emerging legal ways to enter 
Europe, as well as provide accurate information on their rights and 
obligations once in Europe and the overall situation, with a view to 
manage expectations and counter inaccurate information relayed by 
smugglers and traffickers.

Global UNHCR recommendations

    UNHCR has two main global recommendations to address this crisis.

1. Financial and Political Support
    The humanitarian system is financially broke. We are no longer able 
to meet even the absolute minimum requirements of core protection and 
lifesaving assistance to preserve the human dignity of the people we 
care for. The current funding level for the 33 UN appeals to provide 
humanitarian assistance to 82 million people around the world is only 
42%. UNHCR expects to receive just 47% of the funding we need this 
year. We have managed to avoid meaningful reductions of our direct 
support to refugee families, but at a high cost to our other 
activities.
    In light of this, UNHCR is appealing for more funding to meet the 
immediate needs of the hundreds of thousands of refugees we are 
currently serving in Europe. Our most recent appeal highlights the need 
for $128 million in total financial requirements for the Special 
Mediterranean Initiative from June 2015 to December 2016. \1\ In the 
current volatile and fast-changing environment, we are appealing to 
donors to provide contributions that can be allocated as flexible as 
possibly across the Europe region.

    \1\ file:///C:/Users/fisherc/Downloads/UNHCRSMISBAppealJune2015-
December2016-30SEPT15.pdf

2. Resettlement
    Most refugees want to return home as soon as conditions allow; 
unfortunately continued conflict, wars and persecution prevent many 
refugees from being able to repatriate. Many also live in perilous 
situations or have specific needs that cannot be addressed in the 
country where they have sought protection. In such circumstances, UNHCR 
helps resettle refugees to a third country.
    Resettlement is the transfer of refugees from an asylum country to 
another State that has agreed to admit them and ultimately grant them 
permanent settlement. Resettlement is unique in that it is the only 
durable solution that involves the relocation of refugees from an 
asylum country to a third country. Of the 14.4 million refugees of 
concern to UNHCR around the world, less than one percent are submitted 
for resettlement.
    According to UNHCR's current assessments, about 10% of Syrian 
refugees--some 400,000 persons in total--are in need of resettlement. 
UNHCR is focussing its resettlement efforts on identifying and 
referring the most vulnerable refugees in the host countries of Jordan, 
Turkey, Lebanon, and Iraq. These particularly vulnerable refugees 
include survivors of torture and severe violence, women-headed 
households, refugees with serious medical needs, and others who remain 
at heightened risk. Resettlement remains an important tool for refugee 
protection, while also being an important expression of solidarity by 
the international community with the countries in the region that are 
hosting millions of Syrian refugees.
    UNHCR has already referred more than 45,000 Syrians for refugee 
resettlement, with more than 20,000 of those referrals made to the US. 
Although Syrian arrivals to the US have been fewer than 2,000 persons 
so far, we are encouraged by the stated intent of the US administration 
to admit at least 10,000 Syrian refugees in US fiscal year 2016.
    Resettlement of 400,000 Syrians, a number not seen since the 1980s 
when millions of Southeast Asian refugees were resettled, will take a 
concerted international commitment over the next several years. To 
date, more than 30 countries have pledged 130,000 resettlement and 
humanitarian admission places for Syrian refugees. UNHCR is calling 
upon the international community to expand upon this generous initial 
response. Towards this end, UNHCR has also encouraged states to be 
flexible in their immigration laws and procedures and to offer family 
reunion and other migration opportunities for Syrian refugees. While 
UNHCR recognizes the need for all states to have thorough security 
screening measures applied to all refugees and immigrants, including 
Syrians, UNHCR has called upon states to find ways to make these 
necessary procedures as fair, efficient and as timely as possible. 
UNHCR is dedicated to working with states to ensure that resettlement 
program remain safe and secure for both refugees and for receiving 
states.
    I'd like to emphasize that, as is the case with other refugee 
populations globally, permanent resettlement to another country is--and 
will remain--a solution for only a small percentage of the Syrian 
refugees. Even if countries significantly increase the number of 
resettlement places and related opportunities that they offer, the vast 
majority of the Syrian refugees will remain in the Syria region. For 
that reason, resettlement must be approached as a critical part of a 
comprehensive international response to the Syrian humanitarian crisis; 
a response that also includes robust humanitarian assistance to the 
Syrian refugees and to the governments and communities in Turkey, 
Lebanon, Jordan, and elsewhere that are so generously hosting these 
refugees.

Conclusion

    We must call upon our shared humanity, histories, and sacred 
traditions of providing refuge to persons fleeing conflict and 
persecution, and remember that it was exactly for times like these that 
the international refugee protection regime was created. Let us 
recognize the reality of human displacement, remain true to the rule of 
law, and acknowledge the positive contributions that refugees and 
migrants make to our societies. To quote the High Commissioner for 
Refugees, Antonio Guterres, ``This is the starting point: there is no 
easy solution. And so, those who believe that the easy solution is to 
close doors should forget about it. When a door is closed, people will 
open a window. If the window is closed, people will dig a tunnel. If 
there is a basic need of survival, a basic need of protection, people 
will move, whatever obstacles are put in their way--those obstacles 
will only make their journeys more dramatic.''

Mr. Shelly Pitterman is the UNHCR Regional Representative for the USA 
and the Caribbean. He joined UNHCR in 1984 and served in Yei, Sudan 
(1984-1988); Headquarters Geneva on the Somalia Desk (1988-1990); 
N'zerekore, Guinea (1990-1992); and as the UNHCR Representative in 
Burundi (1992-1995).

During his four year tenure as the Chief of UNHCR's Resettlement 
Section, the Annual Tripartite Consultations on Resettlement began and 
the UNHCR Handbook on Resettlement was first introduced. He then 
established UNHCR's Regional Support Center in Nairobi, Kenya before 
returning to Geneva as Deputy Director of the Human Resource Management 
Division.

In 2005, he was seconded to UNRWA (UN Relief and Works Agency) to be 
the Director of Operations serving Palestinian refugees in Jordan. He 
returned to UNHCR in 2008 to lead UNHCR's Human Resources Management 
Division, a position he held until his appointment to Washington.

Mr. Pitterman is a native of New York City. He is a graduate of 
Brandeis University and earned his doctorate from Northwestern 
University.

 Prepared Statement of Djerdj Matkovic, Ambassador of the Republic of 
                      Serbia to the United States

    Chairman Smith, Co-Chairman Wicker, Commissioners, Ladies and 
Gentlemen;
    Thank you for the invitation to testify before you today on the 
issue of the migrant crises in Europe. I would also like to thank you 
for organizing this important hearing, which highlights the fact that 
the complexity and the magnitude of this problem makes it incumbent 
upon all of us to give full and serious attention to it.
    I am here to offer the views of the Republic of Serbia, the chair-
country of the OSCE as well as the country which is at the very center 
of the Western Balkan migration routes.
    Today's global migration scenario shows how migratory movements are 
driven, often inseparably, by traditional economic pull and push 
factors, as well as by instability and the lack of security in a 
growing number of local contexts. The migrant crisis, bursting through 
and over the political, administrative and civilization borders, speaks 
tellingly of the inter-relatedness of faraway countries and peoples, 
highlighting the consequent need for a responsible and energetic 
approach to the quest for a lasting and comprehensive solution to this 
burning issue. Partial and limited local steps are not a solution. In 
the process of solving these problems, the support of all of us, the 
Member States of the most important multilateral organizations, 
including the OSCE, is of paramount importance.
    The OSCE region is witnessing the largest refugee influx in 
decades. Apart from being a significant economic challenge, this is a 
process with potentially very serious security implications and the 
cause of concern in regards to the respect for human rights.
    As the international community is struggling to find responses that 
reconcile refugee protection and human rights commitments with security 
considerations, the OSCE for its part reflects on the role it could 
play in supporting the shared interests of its participating States and 
Mediterranean Partners for Co-operation. As the world's largest 
regional security arrangement under Chapter VIII of the UN Charter, the 
OSCE is in a distinctive position to contribute to the handling and 
resolution of the current crises. Its comprehensive and multi-
dimensional approach to security is a unique asset.
    Traditionally, OSCE decisions have largely framed the OSCE mandate 
on migration within the second dimension. As a result, the Office of 
the Coordinator for Economic and Environmental Activities (OCEEA) has 
been tasked with assisting in the implementation of OSCE commitments, 
particularly in the areas of comprehensive labor migration management, 
gender aspects of labor migration policies, and migration data 
collection and harmonization.
    Over the years, the OSCE has also widened its third dimension's 
mandate, including issues related to migrants' integration and the 
protection of human rights of vulnerable migrant groups. The Office of 
Democratic Institutions and Human Rights (ODIHR) promotes the 
development and implementation of legal and regulatory frameworks that 
respect the rights of migrants, with special attention to the 
vulnerable categories.
    Further roles and responsibilities have been progressively 
allocated to Executive Structures and specialized units in response to 
the evolving nature of the migration phenomenon, which has been shaped 
by the many trends that have come to characterize the increasingly 
inter-connected OSCE region. In particular: Conflict Prevention Center 
for the protection of persons at risk of displacement or already 
affected by it in all phases of the conflict cycle, including 
cooperation with specialized agencies such as UNHCR. Gender Section for 
addressing the specific aspirations and vulnerabilities of migrant 
women. Office of the Special Representative and Coordinator for 
Combating Trafficking in Human Beings for the protection of the rights 
of victims of trafficking who have been involved in vulnerable 
migration processes, particularly if irregular migrants. TNTD/Strategic 
Police Matters Unit, Border Security and Management Unit (BSMU) and 
Action against Terrorism Unit (ATU) for migration-related crimes, in 
particular human trafficking and migration smuggling as well as 
enhancing Travel Document Security (TDS) as an integral part of 
strengthening border management.
    OSCE Field Operations have also been increasingly involved in 
migration-related activities and projects although they have been 
unevenly mandated, reflecting the diversity of agreements with the host 
countries and the different local priorities and needs.
    As the presiding country Serbia recognizes the importance of this 
issue and is trying to provide more active and concrete approach of the 
OSCE in addressing it. In light of this bleak security situation and 
looming instability, it is paramount that all the mechanisms that were 
designed and adopted by the participating States to oversee the 
implementation of commitments are strong and functioning.
    At the initiative of our presidency a Joint Meeting of the Security 
Committee, the Economic and Environmental Committee and the Human 
Dimension Committee on Migration was held in Vienna on October 6th.
    In the conclusions of the meeting, among others, the following 
specific courses of action and proposals of activities are listed:
    First Dimension: Maximum use of all three platforms (border 
management, the police and the fight against terrorism) for exchange of 
information with a special focus on the fight against trafficking and 
smuggling. This in particular since it has been determined that a large 
percentage of migrants are among the total number of victims of 
trafficking.
    Second Dimension: Intensification of cooperation with other 
international organizations dealing with migratory movements, as well 
as activities to implement obligations in the field of labor migration.
    Third Dimension: Ensuring full respect for the obligations in the 
field of human rights, tolerance and non-discrimination, freedom of 
movement, integration of migrants and so forth. ODIHR stands ready to 
carry out missions in the field and provide support to member countries 
at their request, in assessing the situation in the light of respect 
for human rights of migrants, asylum seekers and refugees, and respect 
for their freedom of movement.
    As the OSCE chair-country Serbia supports the position of the US by 
which the concrete ideas for OSCE activities in terms of migration 
crises should be put into the context of the preparation of the 
upcoming Mediterranean Conference in Jordan, as well as the OSCE 
Ministerial Council in Belgrade. The Serbian Chairmanship is pursuing 
an ambitious package of Ministerial Council Decisions in view of the 
forthcoming Belgrade Meeting. Only in the field of the human dimension 
9 Ministerial Council Decisions are now under consultation with 
participating States. As we start negotiating in the coming days, we 
intend to incorporate into the draft decisions as many concrete 
recommendations as possible.
    Mr. Chairman,
    Allow me to point out that Serbia is not dealing with this issue 
only in the capacity of the OSCE chair country. The migrant wave from 
the conflict-ridden areas, flooding many European countries, has not 
by-passed my country. Although Serbia is not the final destination for 
most of the migrants and refugees, it has found itself at the very 
center of the Western Balkans migration routes and almost all migrants 
and refugees coming from Syria, Afghanistan, Iraq and other unstable 
areas, primarily from the Middle East, have transited through it, 
heading to the countries of Western and Northern Europe via the two EU 
Member States--Greece and Bulgaria.
    It is important to notice that the numbers of migrants on the 
``Western Balkan route'' were constantly rising since 2009 and thus, 
this is not an entirely new problem. What is essentially new is that in 
2015 we are facing a dramatic increase in their numbers. Using the 
figures--from the beginning of this year until the October 8th, the 
Republic of Serbia has registered over 200.000 irregular migrants. The 
tendency is such that these numbers will not subside, but only 
increase.
    Migrants who enter our territory are being registered (including 
fingerprints taken) and provided with accommodation, food and medical 
care. The way in which we have dealt with this pressure and the various 
aspects of the migrant crisis, namely our approach and empathy that was 
demonstrated so far, were very positively evaluated by both EU 
institutions and EU member states, as well as by the migrants 
themselves and by the Arab countries.
    While this can make us proud, it is obvious that the burden we bear 
during this crisis is becoming increasingly difficult. Specifically, 
aside from the financial coasts of the current crisis, Serbia is almost 
for two decades now, dealing with over 500,000 refugees and Internally 
Displaced Persons from wars in Yugoslavia from 1990's.
    In a nutshell, all of the experiences we had, either directly or 
indirectly, during the crisis have demonstrated to all of us that the 
solution (or solutions) for this crisis cannot be based on partial or 
local steps (such as closing borders or building fences). Cooperation 
and coordination within the international community a must.
    It is necessary to reach a comprehensive and sustainable solution, 
as soon as possible, at the EU level, to include also transit countries 
on the Western Balkan route. We wish to be part of this common solution 
and we are ready to take our share of responsibility, once the European 
Union agrees a migrant crisis settlement strategy. I would like to 
point out that Serbia will continue to be a credible EU partner and 
treat the migrants in a manner that is fully consistent with European 
and international standards. We are also committed to actively 
participating in the implementation of all agreed upon today, including 
comprehensive border management.
    On a more global scale, aside from greater solidarity, there should 
be an increased readiness for the political response to the source of 
the current crisis. That means more readiness to seek political 
solutions and for creating conditions for sustainable peace and 
development at the source of the crisis. The alternative to such 
actions is much worse and that would lead to further deterioration of 
the situation and degenerate into a humanitarian crisis, with hardly 
conceivable magnitude and consequences.
    Thank you for your attention.

Mr. Djerdj Matkovic was born in Subotica, Serbia, on May 28, 1955. He 
graduated from the University of Belgrade, Faculty of Law in 1978, 
International Law and International Organizations.

Career
Since February 2015: Ambassador Extraordinary and Plenipotentiary of 
the Republic of Serbia in the United States

April 2014-February 2015: Foreign Policy Advisor to the Prime Minister 
of the Republic of Serbia Mr. Aleksandar Vucic

August 2012-April 2014: Foreign Policy Advisor to the First Deputy 
Prime Minister of the Republic of Serbia Mr. Aleksandar Vucic

February 2012-July 2012: Chief of Protocol of the Ministry of Foreign 
Affairs of the Republic of Serbia

2011-2012: Director of the Department for North and South America at 
the Ministry of Foreign Affairs of the Republic of Serbia

2007-2011: First Counselor at the Embassy of the Republic of Serbia in 
Washington, D.C., USA

2006-2007: Deputy Secretary General of the Ministry of Foreign Affairs 
of the Republic of Serbia

2005-2006: Deputy Chief of Cabinet of the Minister of Foreign Affairs 
of Serbia and Montenegro

2001-2005: Minister Counselor and Deputy Chief of Mission at the 
Embassy of the FR of Yugoslavia (later Serbia and Montenegro) in 
Budapest, Hungary

1998-2001: Counselor--Chief of Cabinet of the Assistant Secretary for 
Bilateral Relations at the Ministry of Foreign Affairs

1993-1998: First Secretary at the Embassy of the FR of Yugoslavia in 
Harare, Zimbabwe

1990-1993: First Secretary--Chief of Cabinet of the Under Secretary at 
the Ministry of Foreign Affairs 1986-1990 Third Secretary at the 
Embassy of the SFR of Yugoslavia in Ottawa, Canada

1982-1986: Attache and Third Secretary at the Department for 
Neighboring Countries at the Federal Secretariat of Foreign Affairs

1981-1982: Trainee at the Federal Secretariat of Foreign Affairs of the 
SFR of Yugoslavia

Mr. Matkovic speaks English and Hungarian; Married, spouse Vera and son 
Djerdj Jr.

Prepared Statement of Sean Callahan, Chief Operating Officer, Catholic 
                            Relief Services

    Chairman Smith, Co-Chairman Wicker, thank you very much for calling 
this hearing to consider how the US and Europe can better respond to 
the plight of hundreds of thousands of people fleeing to Europe in 
recent months. Chairman Smith, your long-standing commitment to 
protecting the poor and marginalized across the globe and in places 
long forgotten is a profound demonstration of the compassion and 
solidarity Pope Francis asks us all to engender.
    I am Sean Callahan, Chief Operating Officer of Catholic Relief 
Services (CRS). CRS is the official humanitarian relief and development 
agency of the Catholic Church in the United States. We serve nearly 100 
million people annually with local partners in more than 100 countries.
    I recently traveled to the Balkans to witness firsthand CRS' 
response to the refugees entering by the thousands every day. It is 
heart-breaking to imagine walking in their shoes; to imagine one's own 
life in such chaos. First, suffering violence in one's home community; 
then biding time in a neighboring country, humbly accepting charity. 
And then finally to conclude that your family has no future and so 
someone must undertake a supreme act of love and sacrifice, risking a 
treacherous and unknown journey so that the rest of the family may 
live.
    Khaled, who came to Serbia with his wife and four children after 
their apartment in Aleppo was bombed, told us, ``I was swimming 
alongside the boat, with Ronya (age two and one-half) wrapping her arms 
around me and clinging her head to my neck. It was a rubber boat and 
very slow. So I could keep pace.''
    Khaled's eight-year-old daughter, Omama, told us proudly, ``My 
Daddy is very strong. When we went from Syria to Turkey, we walked over 
hills and mountains. And most of the time he was carrying Joud (six 
months old) and Ronya in a big backpack. And sometimes he was also 
carrying me.''
    Despite immense generosity and hospitality on the part of the 
governments of Jordan, Lebanon and Turkey, the scale of suffering has 
outpaced their ability to respond. It has also overwhelmed the capacity 
of the international humanitarian and refugee systems. CRS and our 
partners have assisted nearly 800,000 people and spent over $110 
million in the last three years in response to the Syrian crisis. Many 
other international non-governmental organizations (iNGOs) and 
intergovernmental organizations (IGOs), as well as new donors like the 
Gulf States, have committed significant resources to respond to this 
crisis. Despite these generous responses, the exodus to Europe cries 
out that so much more must be done. As global leaders in international 
humanitarian and refugee response, the US and Europe must find new and 
creative ways to help to alleviate this suffering and protect the 
vulnerable. Pope Francis has led in this effort to do more by asking 
every Catholic parish in Europe to reach out and assist the refugees; 
He reminds us of our moral obligation to help the stranger.
    In my testimony, I offer first, CRS' analysis of the current exodus 
to Europe; second, CRS' response to those in need and third, our 
recommendations for how to move forward not only to address the 
extraordinary humanitarian needs in Europe but also the longer-term 
needs in refugee host countries.
Exodus to Europe
    During my recent visit to Europe, I was amazed by the rapid pace 
and fluidity with which the refugees are moving. The scale of movement 
is also noteworthy: as many as 6,000 people passed into Serbia one day; 
the average is 4,500 people a day. Most are guided by their cell 
phones; information from family or friends who preceded them; and 
social media.
    The UN reports that two-thirds of the refugees fleeing to Europe 
are from refugee-producing countries: predominantly Syrians; while most 
of the others are Iraqis--largely Kurds--and Afghans. This matches CRS' 
experience. The Syrians are from Kobani, Tartous, and Hassake, among 
other places, but many had already fled Syria and had been residing in 
neighboring countries. Some are coming in family groups. These refugees 
brought only what they could carry. As the Washington Post and others 
have reported, we have come across a smattering of other opportunistic 
economic migrants, but they are not the majority by far. Many of the 
Afghans had been living in Turkey for years. Nevertheless, those 
fleeing are not the poorest of the poor: it costs about $3,000 per 
person currently to cross the Mediterranean. People are traveling using 
their smartphones, without guides or other assistance. They hire 
drivers or ride buses from one border to the next. Some report 
exploitation in the form of extortion and robbery. As entrepreneurial 
individuals offer services such as transportation, the risk of this 
exploitation will continue.
    Most of the refugees with whom I met traveled through Greece and 
Macedonia; some through Bulgaria. Most did not travel by boat but 
rather through Turkey. Many refugees have discovered they can traverse 
southern Europe more quickly by bypassing the major cities such 
Belgrade, and the registration process. Individuals are moving 
astonishingly fast--spending a few hours in Macedonia. The route is 
very fluid, changing based on what successful travelers report out 
about border openings. Our partnership with faith-based organizations 
enables us to respond quickly to these shifts. Like way stations on a 
marathon route, we aim to be punctual and flexible. This response will 
become more challenging with the onset of winter: the need for shelter, 
medical assistance, and warmer clothes will increase the risk of the 
journey.
CRS' Response
    CRS is working with partners in Serbia, Greece, Macedonia, Albania 
and Croatia to meet the needs of tens of thousands of refugees. As the 
Chairman knows, CRS operates as part of the international umbrella of 
Caritas Internationalis--the Catholic social service agencies 
throughout the world. Caritas agencies throughout Europe have been 
responding to the plight of Syrians, and CRS is helping them to rapidly 
scale up in response to the immense needs. Given the scale of need, CRS 
is partnering with other faith-based organizations as well. In a symbol 
of the healing salve of time, we are working with Muslim and Orthodox 
partners.
    Likewise, our funding is interfaith: the Church of Latter Day 
Saints and Islamic Relief have funded CRS. As always, CRS is leveraging 
private money with public money to maximize efficiency and 
effectiveness. We anticipate spending at least $2 million into next 
year on the response in Europe, including with a grant to Caritas 
Germany.
    Program activities include meeting basic needs. Food and emergency 
living supplies are being provided to families including women, 
children and the elderly; they include sleeping bags and mats, hygiene 
packages, food rations, clean water and other support. Most refugees in 
transit are sleeping in public parks, forests and abandoned factories. 
CRS and our partners in Serbia have established several large 
structures equipped with beds, toilets and showers to provide basic 
shelter and sanitary needs for the most vulnerable refugees, 
particularly those who returned from Hungarian border. Doctors on staff 
in Serbia treat hundreds of refugees at a refugee aid center near the 
Hungarian border. Finally, CRS and our Church partners provide critical 
information, legal resources, translation and language services, so 
refugees know their rights and can make informed decisions. As winter 
approaches, assistance will become more complex and more costly.
    As faith-based organizations, we serve not only refugees' physical 
needs, but also are sensitive to their spiritual ones. For example, on 
September 24, we joined other aid organizations to organize an Eid 
celebration for Muslim refugees.
    CRS and our partners' assistance throughout the Middle East runs 
the gamut: from distribution of non-food items and food to legal 
support; from medical assistance to water and sanitation. We have 
focused in particular on emergency education, child-friendly spaces, 
and psycho-social support. In one particularly innovative project, we 
partnered with No Strings International (the creators of the Muppets) 
to create culturally appropriate videos to help children process trauma 
and facilitate peacebuilding. Through trainings of trainers, we have 
exported this program throughout the region. We primarily work outside 
of camps, where most of the refugees live.
Why this new movement now?
    A steadily growing sense of hopelessness as their situation 
deteriorates seems to be the catalyst for most fleeing. They can no 
longer live with such uncertainty for their future or their families'. 
Life in Syria has become too difficult and violent, but dreams cannot 
be realized in a country where one is but a guest.
    To name violence as the cause of this flight is necessary but not 
sufficient. Violence is not new. Yet as it becomes more complex, the 
dangers weigh more heavily. A certain randomness as to who is bombing 
whom exacerbates the fear and uncertainty. The refugees with whom we 
spoke do feel that Assad is more vulnerable now. (Though it is 
noteworthy that this was before the Russian airstrikes began.) The 
unknown of who might fill that power vacuum--and the possibility that 
it could be a radical group--can be terrifying. Fear of the self-
proclaimed called Islamic State and how it will operate overshadows 
communities in their proximity. Particularly in Iraq, people would not 
be nearly so fatalistic were it not for the presence of the self-
proclaimed Islamic State.
    Beginning last year, refugees with whom we work in the region began 
to voice despair. Many had given up the idea of returning to Syria 
anytime soon. And unless children can go to school and parents can 
provide for their families in the refugee host communities, integration 
into these host communities will be unrealistic. \1\ We know that many 
refugees in Jordan and Lebanon, particularly religious minorities, have 
not registered with the UN and may be moving as assistance in the 
region contracts. Some male refugees decline to register to avoid being 
recruited, and some flee Syria for fear of forced recruitment.
---------------------------------------------------------------------------
    \1\  There are traditionally three options for refugees in the 
long-term (known as ``durable solutions''): return to their home 
country; integration in the host country to which they fled and have 
been living; or resettlement to a third country. Resettlement is 
usually a reality for less than 1% of the population.
---------------------------------------------------------------------------
    We also know that many of the Syrians fleeing are educated and 
entrepreneurial. CRS and our partners have hired many: as teachers, 
engineers, and outreach workers. The inability to work in refugee host 
communities affects not only their economic but also their 
psychological well-being. The inability to work legally leads to 
negative coping strategies, including early marriages, prostitution, 
and child labor, among others. CRS commends the Government of Jordan 
for its recent authorization for refugees to work. When refugees can 
legally work, NGOs can engage in livelihoods programs to help them 
become more self-sufficient.
    The remote likelihood of returning to Syria in the near future, and 
the possibility of finding opportunity in Europe appear to be the main 
reasons so many have determined that the journey is worth the risk. 
Some families' coping strategy, as resources wear thin, is to send one 
worker to Europe who can send remittances back to the family. This 
would enable the rest of the family to remain in the region, where 
cultural and family ties, not to mention cost of living, make life 
easier. Nonetheless, unless education and work opportunities for 
Syrians in Syria's neighboring countries can be vastly scaled up, the 
family member in Europe will almost certainly eventually send for the 
rest of the family.
    The exodus of Syrians and Iraqis from the region signals a new 
phase in the Syrian conflict. Despite efforts by INGOs like CRS, local 
civil societies, governments, and non-traditional donors, the despair 
of so many refugees indicates that assistance must move beyond short-
term band-aids to longer-term solutions. To that end, CRS offers the 
following recommendations.

Recommendations

    Resolve to end the conflict. The Administration should commit to 
high-level negotiations towards a political solution to the conflict in 
Syria. As the violence escalates, the time is ripe. The Administration 
should work urgently and tirelessly with other governments to obtain a 
ceasefire, initiate serious negotiations, provide impartial 
humanitarian assistance, and encourage efforts to build an inclusive 
society in Syria that protects the rights of all its citizens, 
including Christians and other minorities.
    To respond adequately to the situation in Europe, the Department of 
State's bureau of Population, Refugees and Migration (PRM) should fund 
international private organizations directly. The agility and speed 
required to respond to the scale and fluidity of this flight to Europe 
demands the shortest funding routes possible. By mandate, PRM gives the 
majority of its funding through four agencies, including UNHCR and the 
International Organization for Migration. Yet direct funding of 
operational agencies will help to get assistance on the ground faster 
and navigate potential governmental barriers. Staffing limitations to 
manage funding within PRM can be creatively solved through mechanisms 
such as consortia, which have worked well elsewhere.
    The US government should galvanize greater support for the regional 
strategy--with traditional and new donors such as the Gulf States--to 
support medium-term integration of humanitarian and development 
assistance in refugee host communities. This will help families to 
envision a future in countries of potential integration, and reduce 
tension among host communities. If many refugees will remain in 
Lebanon, Jordan, and Turkey for the foreseeable future, a focus on 
helping them to thrive and integrate, rather than merely survive, 
should be the aim of humanitarian and development strategies. The World 
Bank and other development organizations do not operate in these 
countries because they are considered middle income; but extraordinary 
times in fragile states call for extraordinary measures. Development 
organizations can help to facilitate such a strategy by supporting the 
host country schools, medical facilities, and economic development, 
among other institutions and activities. Gulf States could help by 
significantly increasing their reception of ``guest workers.'' (Those 
governments are not signatories to the international refugee 
convention, but have allowed refugees to work there.)
    Congress should robustly fund both humanitarian and development 
assistance in host countries beyond previous fiscal years. With $4.5 
billion in funding to date to the region, the US has led traditional 
donors in assistance. We must continue robust funding and seek to 
collaborate with other donors, including the Gulf States, to maximize 
efficiency and effectiveness. Gregory Maniatis of the Migration Policy 
Institute estimates that an adequate response would cost on the order 
of $20 billion in the region and around $30 billion per year in Europe. 
For Fiscal Year 2016, the US should fund no less than was appropriated 
in Fiscal Year 2015. CRS and the US Conference of Catholic Bishops 
support the Middle East Refugee Emergency Supplemental Appropriations 
Act of 2016 (S. 2145) released last week by Senators Graham and Leahy, 
which, if enacted, would provide an additional $1 billion for BPRM.
    Redouble efforts at protection, particularly education of children. 
UNICEF's No Lost Generation campaign reminds us that a child without an 
education will suffer throughout life. According to UNICEF, as many as 
1.5 million of the refugees are children, and many of them are out of 
school. The cumulative impact on Syria's development will be 
significant. As Pope Paul VI once said, ``war is development in 
reverse.'' The United States should increase its funding for emergency 
education and other protection efforts, including psycho-social support 
and child-friendly spaces.
    Continue the United States' historic leadership in refugee 
resettlement: the Administration should significantly increase the 
numbers of refugees resettled in the United States. When the US helps 
to resettle particularly vulnerable populations, including religious 
and ethnic minorities and those with complex medical needs, it helps to 
ease the burden of neighboring countries hosting particularly large 
refugee populations. Our colleagues at the United States Conference of 
Catholic Bishops resettle a significant number of refugees in the 
United States and can speak to the requirements necessary to scale up. 
The Administration must work diligently to make resettlement more 
effective and efficient for these vulnerable populations.
    With the UN, the Administration must strengthen support for and 
adherence to UN Security Council resolutions 2139 and 2165 calling for 
greater humanitarian access within Syria. \2\ A paltry percentage of 
the more than 400,000 Syrians in besieged areas receive assistance, due 
to lack of access. Unless the United States and other actors reinforce 
these resolutions, both these lives and the future of international 
humanitarian law are at great risk.
---------------------------------------------------------------------------
    \2\  Resolution 2139 (February 2014) demands that parties 
``promptly allow rapid, safe and unhindered humanitarian access,'' and 
Resolution 2165 (July 2014) authorizes UN humanitarian agencies and 
their implementing partners to provide cross-border assistance with 
notification to (rather than the consent of) the Syrian government.

As the chief operating officer for Catholic Relief Services, Sean 
Callahan is responsible for Overseas Operations, U.S. Operations and 
Human Resources, and for ensuring CRS' fidelity to its mission to 
cherish, preserve and uphold the sacredness and dignity of all human 
life, foster charity and justice, and embody Catholic social and moral 
teaching. His role is to enhance performance, stimulate innovation and 
---------------------------------------------------------------------------
position CRS for the future.

Sean's commitment to CRS
Sean was executive vice president for Overseas Operations from June 
2004 to September 2012. He provided oversight for a program and 
management portfolio which grew to more than $700 million, serving 
people in more than 100 countries and engaging a team of more than 
5,000 staff.

As regional director for South Asia from January 1998 to May 2004, Sean 
strengthened CRS' programming and partnerships in India, Pakistan, 
Afghanistan, Sri Lanka, Bangladesh and Nepal. He worked closely with 
Blessed Teresa and the Missionaries of Charity in Calcutta, represented 
CRS at the Asian Bishops Synod in 1998, and led the regional response 
to floods, droughts, earthquakes, cyclones and man-made emergencies. He 
experienced a terrorist attack by the Tamil Tigers at the Sri Lankan 
airport, and championed programming in Afghanistan during and after the 
Taliban's rule.

Immediately before his assignment to South Asia, he served as director 
of Human Resources for CRS at our world headquarters in Baltimore, and 
previously as the director of the CRS Nicaragua program. He also worked 
in other Central American locations and at headquarters in various 
capacities.
Education and other roles
Sean holds a master's in law and diplomacy from Tufts University, where 
he also received a bachelor's, magna cum laude, in Spanish.

Sean is on the Board of Trustees for Catholic Charities USA (2014-
present) and on the Executive Committee and Representative Council of 
Caritas Internationalis (2011-2015). He is also the president of 
Caritas North America (2015-2019).

More about Sean
Sean and his wife, Piyali, have two children, Sahana and Ryan. Sean is 
a member of the Church of the Resurrection in Ellicott City, Maryland.

  Prepared Statement of David O'Sullivan, Ambassador of the European 
                       Union to the United States

    I would like to thank you, in particular, Chairman Smith and your 
Co-Chairman Senator Wicker, as well as the other members of the 
Commission for giving me the opportunity to present the main components 
of the EU's response to the refugee crisis. I am David O'Sullivan the 
European Union ambassador to the United States, a position I have held 
for just about a year and it is an honor to speak to you today about 
what the press refers to as ``the migration crisis in Europe.''
    The ongoing refugee crisis is not a European crisis. It is a global 
crisis, fuelled by conflicts, inequality and poverty, the consequences 
of which unfolded in Europe but the roots of which are far away from 
our continent. This does not mean that we as Europeans do not have a 
responsibility to respond to it.
    Nevertheless, we are seeking a global response to achieve a lasting 
solution to the conflicts, instability and poverty, which are the main 
causes of the refugee crisis, working closely with our international 
partners.
    This crisis is also a sensitive issue for Europeans. While some of 
our Member States are facing major economic difficulties, many of our 
fellow citizens wonder about our capacity to welcome and integrate new 
waves of migrants.
    However, I also want to emphasize that European citizens have 
offered unprecedented support to the refugees. Civil society is showing 
a vibrancy that often goes unreported but is strong, moving and 
comforting and provides first help to thousands of refugees across 
Europe.
    Among the many examples I have in mind, I would like to point out 
the incredible signs of support expressed by Greek citizens to 
migrants. While Greece is still facing a severe economic crisis, local 
people in islands like Kos or Lesbos have continued to donate food and 
other basic supplies to help the refugees.
    In Italy, a country which has encountered economic difficulties for 
some time, 300 families from Lombardy have responded to the appeal of 
the Archbishop of Milano, Cardinal Scola, by offering to host refugees 
in their homes.
    I also want to mention the throngs of people joining marches and 
vigils across Europe in a show of solidarity with refugees, with almost 
30,000 people in Stockholm. And of course, it is impossible to forget 
the images of Syrian migrants being welcomed at train stations in 
Germany and Austria.
Overview of the situation
    Whether one looks at the numbers or at the images, the current 
refugee crisis is of unprecedented magnitude.
    We are confronted with a multi-faceted phenomenon, comprising 
economic migration on one side and asylum seekers on the other side, 
with despair and quest for security and a better life as their common 
denominator. By October 2015, 710,000 migrants and refugees had entered 
the European Union this year, while only 282,000 migrants crossed EU 
borders for the whole of 2014.
    I want to underline that the migration crisis is of a mixed nature, 
comprising economic migration on one side and ``forced migration'' of 
asylum seekers on the other side.
    It is important to keep the question of economic migrants separate 
from the issue of refugees.
    This calls for different types of responses from the European 
Union. We have a responsibility to show solidarity and put in place the 
adequate mechanisms of reception for refugees. By virtue of 
international law, refugees have a right to protection. No state, 
regardless of whether it has signed the U.N. Refugee Convention, can 
return a refugee to a place where his life would be endangered.
    On the other hand, migrants, whose motivations are primarily 
economic and who are not entitled to international protection and 
cannot be legally admitted will be provided temporary accommodation, 
while appropriate mechanisms are put in place for their return to their 
countries of origin in accordance with the international rules and 
standards.
The EU response
    We all understand that ultimately, only political solutions to the 
conflicts combined with economic development in the host countries will 
provide a lasting solution to the migration and refugee crisis in 
Europe.
    At the political level, we need to work hard to find solutions to 
conflicts such as the ones in Syria and Libya. To do this, we need to 
intensify our diplomatic engagement with all relevant international 
partners. In parallel, a lot of work needs to be done on the root 
causes of migration in the main countries of origin.
    At the operational level, we continue to work hard in order to 
provide support to those who need it, respecting human rights and 
providing protection notably for the most vulnerable.
    We have taken steps to deal with migration crisis a long time 
before it hit the headlines. We have mobilized our instruments, with 
three objectives: (i) to save lives, (ii) to ensure protection to those 
in need and (iii) to manage borders and mobility.

    <bullet>  We launched rescuing operations Poseidon and Triton and 
tripled our presence at sea. Over 122,000 lives have been saved;
    <bullet>  Member States have agreed to relocate 160,000 refugees 
from Greece, Italy and other Member States directly affected by the 
refugee crisis. On October 9th, a first flight took off from Rome, 
Italy carrying migrants to Sweden. This solidarity is based on the 
shared understanding by Member States that geography should not 
determine the burden to bear;
    <bullet>  The EU has launched a crisis management operation 
(EUNAVFOR MED)--which aims at disrupting the business model of migrant 
smuggling in the Southern Central Mediterranean and has now entered the 
second, active phase. In this context let me thank for a constructive 
approach of the US in the UN Security Council on that issue;
    <bullet>  The EU has led the international humanitarian response 
since the beginning of the Syria crisis with more than =4.1 billion 
mobilised. Member States and the Commission announced on September 23rd 
an additional contribution of =1 billion to UN agencies and the World 
Food Program;
    <bullet>  The EU has established the EU regional Trust Fund for 
Syria (Madad Fund) with more than =500 million funding in order to 
enhance resilience in refugee hosting countries around Syria and 
provide opportunities for refugees to pursue livelihoods, have access 
to education and labour market;
    <bullet>  The EU is also setting up the Emergency Trust Fund For 
Africa focused on addressing the root causes of irregular migration 
from Africa;
    <bullet>  The EU is also significantly strengthening its support to 
transit countries in the Western Balkan which are under enormous 
pressure in handling the refugee flows. An important high-level 
conference on the Eastern Mediterranean/Western Balkan migratory route 
took place recently in Luxembourg (8 October);
    <bullet>  We step up our support to and strategic dialogue with 
Turkey, which is a key country in the region hosting a large bulk of 
the refugees. We have just negotiated with Turkish authorities a Joint 
Action Plan aimed at addressing the phenomenon in a spirit of 
partnership and burden-sharing. The EU will make available =1 billion 
for refugee-related actions in 2015-16, in order to support refugees 
and their Turkish host communities and strengthen cooperation to 
prevent irregular migration;
    <bullet>  The High Representative is holding High Level Dialogues 
on migration with key Third countries in order to identify leverage and 
enhance cooperation in the area of migration. Cooperation on return and 
readmission of those who are not entitled to stay is also an important 
aspect in this context;
    <bullet>  An effective response to the current requires us to work 
closely together, as the international community, to address both its 
consequences but also the root causes. Since the beginning of the 
crisis, we have worked closely with our international partners, 
including the US, to formulate a global response. We welcome 
considerable humanitarian assistance provided by the US authorities in 
the context of the refugee crisis so far. We hope that there will be 
opportunity to cooperate more with the US also in order to provide more 
resilience and opportunities for the refugees in the region. 
Appreciating the involvement of the US in the crisis, especially as 
regards resettlement, the UE is counting strongly on the US to heighten 
its efforts, including by expanding the resettlement quotas.
Next steps
    Undoubtedly, the refugee crisis has generated major challenges for 
the European Union. We have been able to take major steps to build a 
common approach and common policies based on solidarity and 
responsibility. In order to deal with issues that have long been seen 
as internal affairs at the heart of their sovereignty, EU Member States 
have agreed to develop a strong and multi-dimensional EU response.
    On November 11-12, European heads of state and government will 
convene with key African countries to tackle the roots of economic 
migration in Africa during the Valletta Summit on Migration.
    On November 13, the EU-US Justice and Home Affairs Ministerial 
meeting will take place to discuss the matter in details and exchange 
experience and best practice in managing migratory flows.
    Over the next 6 months, the European Commission will also bring 
forward new major legislative proposals to implement a robust system 
that will bear the test of time.
    By December 2015, the Commission will come forward with a proposal 
to strengthen Frontex and enhance its mandate in the context of 
discussions over the development of a European Border and Coast Guard 
System, giving it the competence and financial resources it needs to 
run return operations and to support member States.
    To reinforce the overall migration and asylum policy of the EU, the 
Commission will also table a proposal for a permanent resettlement 
scheme and further reform of the Dublin Regulation in March 2016.
    In addition, the Commission will table a legal migration package 
including the revision of the Blue Card, the EU work permit for highly 
qualified workers, in March 2016.
    The EU will also continue to provide protection to those who come 
to European as well as continue its efforts to establish safe and legal 
means for asylum seekers to seek protection in Europe without risking 
their lives, for instance through expanded resettlement. It is crucial 
to protect people in need of protection in a humane way--regardless of 
which EU Member State they arrive in. The EU and its Member States are 
firmly committed to the promotion and protection of the human rights of 
migrants. Despite the influx, we do not remove or return genuine 
refugees, we respect the fundamental rights of all persons arriving in 
the EU, and we invest major resources in saving lives at sea. No flow 
of refugees justifies the catastrophic humanitarian conditions that we 
have seen earlier this month. This is why we need better harmonised 
procedures, better cooperation and shared standards across the globe. 
This is why the involvement of Europe has been increasing.
    We will also closely monitor how the situation evolves in Turkey 
and in other countries neighbouring Syria and further adapt our 
policies accordingly, keeping as a priority international protection 
and humanitarian assistance to those in need.
    Despite the challenges which remain ahead of us, I strongly believe 
that the refugee crisis can actually make the European Union stronger 
and more resilient.
    Thank you for this opportunity to discuss such an important issue 
with you.

Prior to arriving in the United States, David O'Sullivan served as the 
Chief Operating Officer of the European External Action Service. The 
EEAS supports the High Representative/Vice President of the European 
Commission, in fulfilling her mandate to ensure the consistency of the 
Union's external action. The EEAS also assists the President of the 
European Council and the President of the European Commission in the 
area of external relations.

David O'Sullivan was Director General for Trade from 2005 to 2010. 
Previously he was Secretary General of the European Commission from 
June 2000 to November 2005, Head of Cabinet of Commission President 
Romano Prodi and Director General for Education and Training. He 
started his career in the Irish Foreign Ministry and spent four years 
in the Commission Delegation in Tokyo. He also has extensive experience 
in EU social and employment policy.

David O'Sullivan has a background in economics, graduating from Trinity 
College, Dublin and having completed post graduate studies at the 
College of Europe, Bruges. He holds an Honorary Doctorate from the 
Dublin Institute of Technology. He is also a Member of the Consultative 
Board of the Institute for International Integration Studies at Trinity 
College, Dublin. He is a visiting Professor at the European College of 
Parma and was awarded Alumnus of the Year 2013 by the College of 
Europe, Bruges.

In June 2014, David O'Sullivan was awarded the EU Transatlantic 
Business Award by the American Chamber of Commerce. He was awarded an 
Honorary Doctorate from his Alma mater Trinity College, Dublin in 
December, 2014.

He is married with two children.

                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================


                       Resume of Anne C. Richard

    Anne C. Richard was sworn in as Assistant Secretary of State for 
Population, Refugees, and Migration on April 2, 2012. Prior to her 
appointment, Ms. Richard was the vice president of government relations 
and advocacy for the International Rescue Committee (IRC), an 
international aid agency that helps refugees, internally displaced and 
other victims of conflict. She was also a non-resident Fellow of the 
Center for Transatlantic Relations at Johns Hopkins University/SAIS and 
a board member of the Henry L. Stimson Center.
    From 1999 to 2001, Ms. Richard was Director of the Secretary's 
Office of Resources, Plans and Policy at the State Department. From 
1997 to 1999, she was the deputy chief financial officer of the Peace 
Corps. Earlier, she served as a Senior Advisor in the Deputy 
Secretary's Office of Policy and Resources at the State Department and 
as a Budget Examiner at the U.S. Office of Management and Budget.
    From 1993 to 1994, Ms. Richard was an International Affairs Fellow 
of the Council on Foreign Relations and was part of the team that 
created the International Crisis Group. From 1985 to 1986, she was a 
fellow of the Robert Bosch Foundation in Germany. She first joined the 
U.S. government in 1984 as a Presidential Management Intern.
    Ms. Richard has authored several monographs and reports and 
numerous opinion pieces on topics including: international coordination 
of foreign assistance; combating terrorism; strategies to make foreign 
aid more cost effective; and specific humanitarian crises from Haiti to 
South Sudan to Afghanistan.
    Ms. Richard has a B.S. in Foreign Service from Georgetown 
University and an M.A. in Public Policy Studies from the University of 
Chicago. She has lived overseas in Austria, Germany and France. She is 
married with two children.

        Excerpt from Congressional Research Service Memorandum, 
                         Dated October 15, 2015

SECURITY SCREENING

USCIS coordinates the security screening process for refugees. 
According to the agency, ``the screening conducted on refugees is the 
most robust of any population processed by USCIS.'' \1\ Comprehensive, 
step-by-step information on the security screening process is not 
publicly available. USCIS has provided CRS with the following 
description of the process for refugees generally and Syrian refugees, 
in particular:
---------------------------------------------------------------------------
    \1\  E-mail from USCIS to CRS, July 15, 2015.

        A standard suite of required biographic and biometric security 
        checks has been developed for all refugee applicants. Through 
        close coordination with the federal law enforcement and 
        intelligence communities, these checks are continually reviewed 
        to identify potential enhancements and to develop approaches 
        for specific populations that may pose particular threats. The 
        biographic checks include vetting refugee data against the 
        State Department's Consular Lookout and Support System (CLASS). 
        CLASS is a biographic name check database used to access 
        critical information for visa adjudication and is run on all 
        refugee applicants. CLASS contains information from TECS 
        (formerly the Treasury Enforcement Communication System), the 
        Terrorist Screening Database (TSDB), the Department of Health 
        and Human Services (HHS), the Drug Enforcement Agency (DEA), 
        Interpol, and the Federal Bureau of Investigation (FBI). In 
        addition, refugee applicants meeting certain criteria are 
        subject to Security Advisory Opinions (SAOs), including law 
        enforcement and intelligence communities checks. SAO checks are 
        run on applicants who meet these criteria and are between the 
        ages of 16 to 50. Refugee applicants are subject to a third 
        biographic check referred to as the Interagency Check (IAC); 
        the IAC consists of screening biographic data against a broader 
        range of intelligence community holdings. IACs are run on 
        applicants who are age 14 and older. The biometric 
        (fingerprint) checks (for applicants ages 14-79) include 
        screening against the holdings of the Federal Bureau of 
        Investigation (FBI) Next Generation Identification (NGI), the 
        Department of Homeland Security (DHS) Automated Biometric 
        Identification System (IDENT), and the Department of Defense 
---------------------------------------------------------------------------
        Automated Biometric Identification System (ABIS).

        In addition to this standard suite of security checks, USCIS 
        Headquarters staff are reviewing all Syrian refugee cases prior 
        to DHS interview to identify potential national security 
        concerns. For those cases with potential national security 
        concerns, USCIS conducts open source and classified research on 
        the facts presented in the refugee claim and synthesizes an 
        evaluation for use by the interviewing officer. This 
        information provides case-specific context relating to country 
        conditions and regional activity and is used by the 
        interviewing officer to develop lines of inquiry related to the 
        applicant's eligibility and credibility. USCIS has also 
        instituted Syria-specific training for officers adjudicating 
        cases with Syrian applicants, which includes a classified 
        briefing on country conditions.

        USCIS is continuing to engage with the law enforcement and 
        intelligence communities, including exploring training 
        opportunities and potential screening enhancements, to ensure 
        that refugee vetting for Syrian refugee applicants is as robust 
        as possible. \2\
---------------------------------------------------------------------------
    \2\  Ibid.
---------------------------------------------------------------------------

   Communication From the Commission to the European Parliament, the 
                    European Council and the Council

Managing the Refugee Crisis: State of Play of the Implementation of the 
         Priority ActionsUnder the European Agenda on Migration

I. INTRODUCTION

    In the first nine months of the year, over 710,000 people \1\--
refugees, displaced persons and other migrants--have made their way to 
Europe, a trend which is set to continue. This is a test for the 
European Union. The European Agenda on Migration presented by the 
Commission in May 2015 \2\ set out the need for a comprehensive 
approach to migration management. Since then, a number of important 
measures have been introduced--including the adoption of two emergency 
schemes to relocate 160,000 people in clear need of international 
protection from the Member States most affected to other EU Member 
States. The ongoing refugee crisis, however, requires further, 
immediate action.
---------------------------------------------------------------------------
    \1\  Frontex figures published on 13 October 2015.
    \2\  COM(2015) 240 final.
---------------------------------------------------------------------------
    For this reason, on 23 September, the European Commission detailed 
a set of priority actions to implement the European Agenda on Migration 
to be taken within the next six months. \3\ This included both short 
term actions to stabilise the current situation as well as longer term 
measures to establish a robust system that will bear the test of time.
---------------------------------------------------------------------------
    \3\  COM(2015) 490 final.
---------------------------------------------------------------------------
    The list of priority actions set out the key measures immediately 
required in terms of: (i) operational measures; (ii) budgetary support 
and (iii) implementation of EU law.
    The list was endorsed by the informal meeting of Heads of State and 
Government of 23 September 2015. \4\
---------------------------------------------------------------------------
    \4\  Statement available at http://www.consilium.europa.eu/en/
press/press-releases/2015/09/23-statement-informal-meeting.
---------------------------------------------------------------------------
    Three weeks later, this Communication sets out the ongoing progress 
in implementing the priority actions (see Annex 1). The European 
Council this week provides an opportunity for Heads of State or 
Government to make a clear and unambiguous commitment to starting a new 
phase in the EU's response to the refugee crisis: one of swift and 
determined implementation.

II. OPERATIONAL MEASURES

    Effectively managing the pressure of migratory flows on some parts 
of the shared external Schengen border requires both responsibility and 
solidarity on the part of all Member States. The rapid roll-out of the 
`hotspot' approach is providing support to the most affected Member 
States to ensure the proper reception, identification and processing of 
arrivals. In parallel, the measures proposed by the Commission and 
adopted by the Council to relocate 160,000 people in clear need of 
international protection. This will allow for a significant, if 
partial, reduction of the pressure on the most affected Member States. 
It is of crucial importance that these parallel measures will now be 
fully implemented, with the fingerprinting of all migrants, the prompt 
selection and relocation of asylum applicants and adequate reception 
capacities, accompanied by steps to prevent secondary movements and the 
immediate return to the country of relocation of relocated persons 
found in another Member State. The other essential component is action 
to secure swift return, voluntary or forced, of people not in need of 
international protection and who do not therefore qualify for 
relocation. The priority actions set out by the Commission focused 
heavily on the operational working of these measures.

II.1 Implementing the `Hotspot' Approach

    Well-functioning and effective migration management at the external 
borders which are under most pressure is key to restoring confidence in 
the overall system, and in particular in the Schengen area of free 
movement without internal border controls. Central to the EU's strategy 
and credibility is to demonstrate that the migration system can be 
restored to proper functioning, in particular by using Migration 
Management Support Teams deployed in `hotspots' \5\ to help Member 
States under the most intense pressure to fulfil their obligations and 
responsibilities. For the Support Teams to work they need a strong core 
of EU Agencies, the closest of cooperation with the authorities in 
Italy and Greece, and the support of other Member States.
---------------------------------------------------------------------------
    \5\  A `hotspot' is a section of the EU external border or a region 
with extraordinary migratory pressure which calls for reinforced and 
concerted support by EU Agencies.
---------------------------------------------------------------------------
    The Commission has sent special envoys to both Italy and Greece to 
provide practical coordination and support. In Greece, a dedicated team 
is working under the leadership of the Commission's Director-General of 
the Structural Reform Support Service, reporting directly to the 
President. This team has agreed a step-by-step approach to identify the 
`hotspots', deploy the Support Teams, start relocations, resume 
returns, and reinforce the border. The same model of direct, real-time 
support and coordination is in place in Italy. This intensive, full-
time support from the Commission has made a real difference in helping 
the two Member States to move to the implementation phase of relocation 
(see Annex 2 and Annex 3).
    Both in Greece and in Italy, the Migration Management Support Teams 
are being set up and coordinated by European Regional Task Forces, 
following the increased deployment of the Agencies set out in the 
European Agenda on Migration. Frontex, the European Asylum Support 
Office (EASO), Europol, and Eurojust all participate. \6\ As a result, 
they can respond immediately to the needs identified in roadmaps 
presented by Italy and Greece.
---------------------------------------------------------------------------
    \6\  The representatives of these Agencies work together in shared 
offices, based in ports or specific reception centres, to coordinate 
the EU assistance to the national authorities in identification, 
registration and return as well as information and intelligence 
gathering, sharing and analysis to support criminal investigations of 
people-smuggling networks.
---------------------------------------------------------------------------
    However, their work relies heavily on the support of Member States. 
Frontex and EASO have both launched calls for contributions to request 
human resources and technical equipment from Member States. In both 
cases, these calls constitute unprecedented numbers when compared to 
requests made by the Agencies in the past, reflecting the exceptional 
nature of the challenges currently faced by the most affected Member 
States: it is essential that other Member States respond positively, 
concretely and quickly to these calls.
    Frontex's latest call requested 775 additional border guards, 
screeners, de-briefers, and interpreters--all indispensable tasks for 
the effective management of the external borders of the European Union. 
The call was split into 670 officers--mainly for direct support to the 
`hotspot' approach in Italy and Greece, covering estimated needs to the 
end of January 2016--and 105 guest officers to be deployed at various 
external land borders of the European Union.
    EASO's latest call for over 370 experts is intended to cover the 
needs in Italy and Greece until the third quarter of 2017. These 
experts would support the asylum management authorities of the two 
Member States in the registration process, information tasks related to 
relocation and the detection of possible fraudulent documents.
    The need for personnel and equipment was explicitly recognised at 
the informal meeting of EU Heads of State or Government in September--
with a deadline of November to meet these needs.
    However, so far, the commitments made by Member States fall far 
short of the real needs. As of 8 October, only six Member States \7\ 
have responded to the call for contributions for EASO with 81 experts, 
out of the 374 needed. So far six Member States \8\ have responded to 
the call from Frontex with 48 border officials. Member States should 
rapidly submit their contributions to meet the Agencies' needs 
assessment.
---------------------------------------------------------------------------
    \7\  Austria, Belgium, the Netherlands, Romania, Slovakia and 
Spain.
    \8\  Belgium, the Czech Republic, Lithuania, Portugal, Romania and 
Sweden.
---------------------------------------------------------------------------
    Italy has identified as `hotspot' areas Augusta, Lampedusa, Porte 
Empedocle, Pozzallo, Taranto and Trapani (see Annex 5). The first 
Migration Management Support Team is up and running, in Lampedusa. This 
builds on a European Regional Task Force set up in June 2015, in 
Catania, Sicily. \9\ The Support Team currently consists of two 
debriefing teams from Frontex, plus EASO experts both at the `hotspot' 
and at a nearby centre used for relocation. Frontex has already 
deployed 42 guest officers, while EASO has deployed 6 experts.
---------------------------------------------------------------------------
    \9\  The Task Force involves Frontex, EASO, Europol, the EU naval 
operation EUNAVFORMED-SOPHIA and the Italian authorities.
---------------------------------------------------------------------------
    For the `hotspot' approach to be effective, an increase in 
reception capacities is essential, in order to host asylum seekers 
before they are relocated. There also needs to be adequate capacity to 
detain irregular migrants before a return decision is executed. Italy 
has expanded its reception capacities and now has first reception 
centres in the four identified `hotspot' areas, capable of housing 
approximately 1,500 people. Capacity will be expanded to provide for an 
additional 1,000 places by the end of the year, bringing the overall 
first reception capacity up to 2,500.
    Greece has identified five `hotspot' areas, in Lesvos, Chios, 
Leros, Samos and Kos (see Annex 4). The European Regional Task Force is 
fully operational, based in Piraeus. The first Migration Management 
Support Team will be based around the `hotspot' in Lesvos. Frontex has 
already deployed 53 experts: at present one EASO staff member is 
permanently stationed in Greece to help organise the deployment of EASO 
experts.
    Greece has expanded its reception capacities and now has seven 
first reception centres, screening centres and temporary facilities in 
four of the identified hotspot areas (Lesvos, Chios, Samos and Leros), 
capable of housing approximately 2,000 people. Capacity is being 
expanded further. \10\
---------------------------------------------------------------------------
    \10\  For example, a temporary facility for 300-400 places in Kos 
by the end of the year.
---------------------------------------------------------------------------
    Part of the reception needs in `hotspot' areas is linked to the 
identification and registration of irregular migrants who are not in 
clear need of international protection, and thus do not qualify for 
relocation. This requires sufficient capacity to be available with the 
facilities to prevent irregular migrants absconding.

II.2 Rolling out the Relocation scheme

    On 14 September, the Council adopted the Commission's proposal for 
a Decision \11\ to relocate 40,000 people in clear need of 
international protection from Italy and Greece. This was followed a 
week later by the Decision,A\12\ again based on a Commission proposal, 
to relocate 120,000 people in clear need of international protection 
from Italy, Greece and other Member States directly affected by the 
refugee crisis. The Migration Management Support Teams are the tools to 
ensure that this relocation can happen at the Union's external borders.
---------------------------------------------------------------------------
    \11\  Council Decision (EU) 2015/1523 of 14 September 2015 
establishing provisional measures in the area of international 
protection for the benefit of Italy and of Greece (OJ L 239, 15.9.2015, 
p. 146).
    \12\  Council Decision (EU) 2015/1601 of 22 September 2015 
establishing provisional measures in the area of international 
protection for the benefit of Italy and of Greece (OJ L 248, 24.9.2015, 
p. 80).
---------------------------------------------------------------------------
    Both Decisions require immediate follow up from the EU 
institutions, the Member States under pressure and the Member States 
who are committed to hosting relocated people.
    On 1 October, the European Commission brought together over 80 
delegates from the Member States, the EU Agencies, the International 
Organisation for Migration and the United Nations High Commissioner for 
Refugees (UNHCR) in a Relocation and Resettlement Forum to take forward 
practical implementation. Italy and Greece presented their roadmaps for 
relocation at the Forum--outlining measures in the area of asylum, 
first reception and return, as well as the steps they would take in the 
weeks to come to ensure a full roll-out of the relocation scheme.
    The first relocations of people in clear need of protection have 
taken place, but much work is still needed to ensure that a substantial 
flow of several hundreds of relocations per month quickly follows. All 
Member States were asked to identify national contact points at home: 
so far, 21 Member States have identified national contact points. \13\ 
They have also been asked to send liaison officers, if relevant, to 
Italy and Greece. So far, 22 Member States have dispatched such 
officers. \14\
---------------------------------------------------------------------------
    \13\  Austria, Belgium, Bulgaria, Croatia, Cyprus, Finland, France, 
Germany, Greece, Hungary, Italy, Latvia, Luxembourg, Malta, Poland, 
Portugal, Romania, Slovakia, Slovenia, Spain, Sweden.
    \14\  From Austria, Belgium, Croatia, Cyprus, Czech Republic, 
Estonia, Finland, France, Germany, Ireland, Latvia, Lithuania, 
Luxembourg, Malta, the Netherlands, Poland, Portugal, Romania, Spain, 
Slovakia, Sweden for Italy and Slovenia for both Italy and Greece.
---------------------------------------------------------------------------
    An essential part of the relocation chain is that adequate 
reception capacity exists in the receiving Member States to accommodate 
the relocated persons. So far, only six Member States have notified 
this reception capacity they have made available to host relocated 
people. \15\ All Member States should complete this notification by the 
end of October.
---------------------------------------------------------------------------
    \15\  Austria, France, Germany, Luxembourg, Sweden and Spain.
---------------------------------------------------------------------------
_______________________________________________________________________

  first effective relocation of people in clear need of international 
                               protection

        On 9 October 2015, a first flight left from Rome taking 19 
        Eritreans to start a new life in Sweden. Five women and 14 men 
        left from Ciampino airport in the presence of Migration and 
        Home Affairs Commissioner Dimitris Avramopoulos, Luxembourg 
        Foreign Affairs Minister Jean Asselborn and Italian Minister of 
        the Interior Angelino Alfano. It was an important symbolic 
        moment which marked the start of a new, European approach to 
        the way we treat asylum applications. However, beyond 
        symbolism, relocations now need to become systematic, routine 
        business in Italy and in Greece.

        The first flight was the result of intensive preparatory work 
        on the ground by the Italian and Swedish authorities, by 
        Frontex and other EU agencies, by local NGOs, and by the 
        special envoys which the European Commission has deployed. 
        Tireless efforts have ensured that the system is operational, 
        and the necessary registration and processing can be done at 
        each step of the way.

        Outreach to the Eritrean community was crucial in ensuring the 
        success of the first exercise. Initially asylum seekers were 
        reluctant to be registered because they did not trust the 
        system. It has taken a lot of effort over the past weeks from 
        the Commission envoys on the ground, working with the UNHCR and 
        local NGOs, to convince the first set of people that they 
        really would be relocated.

        Trust in the system is increasing, however, particularly since 
        the first exercise was carried out. There are now queues of 
        people wanting to register in Lampedusa and Villa Sikania. 
        There are over 100 Eritreans already identified as candidates 
        for relocation.

        It is now crucial that further relocation exercises follow 
        suit, particularly to avoid a `bottleneck' of relocation 
        candidates accumulating.
_______________________________________________________________________

    The successful transfer of the first groups of persons under the 
relocation exercises is an important first step. These exercises now 
need to be put on a firm and ongoing footing, at a sufficient scale. 
All Member States should now provide the Commission with their clear 
commitments as to the number of people they will relocate from now 
until the end of the year, bearing in mind the urgency of the 
challenge.

II.3 Resettlement

    Resettlement of people in need of international protection directly 
from third countries both responds to the EU's humanitarian 
obligations, and provides a safe alternative for refugees as compared 
to taking the perilous journey to Europe themselves. At the Relocation 
and Resettlement Forum on 1 October, Member States confirmed the 
commitments made in July to welcome over 20,000 refugees in the next 
two years in this way. A Resettlement Workshop on 2 October developed 
practical solutions to ensure the effective application of 
resettlement. The first resettlements have now taken place. \16\ Member 
States should now provide the Commission with information on the number 
of people they will resettle over the next six months, and from where.
---------------------------------------------------------------------------
    \16\  132 Syrians staying in neighbouring countries have already 
been resettled under the scheme agreed on 20 July 2015 to the Czech 
Republic (16), Italy (96), and Liechtenstein (20).
---------------------------------------------------------------------------

II.4 Return and Readmission

    A key element in the interlocking mechanisms which make up the EU 
asylum system is ensuring that those who do not have a right to 
international protection are effectively returned. At present, far too 
few return decisions are being implemented in practice and smuggling 
networks exploit this to attract migrants who are not in need of 
international protection. The more effective the return system becomes, 
the less chance that smugglers can persuade people that they will be 
able to `slip through the net' if identified as not in need of 
international protection.
    At the October 2015 Justice and Home Affairs Council, Member States 
endorsed the EU action plan on return proposed by the Commission. \17\ 
The focus is now on swift and effective follow-up.
---------------------------------------------------------------------------
    \17\  COM(2015) 453 final.
---------------------------------------------------------------------------
    Italy has recently carried out two return operations--28 Tunisians 
were returned from Italy to Tunisia and 35 Egyptians were returned to 
Egypt. One joint return operation, coordinated by Frontex, is foreseen 
in October from Italy and two from Greece. The frequency of these 
operations needs to be increased.
    Ensuring effective returns is a core part of the work of the 
Migration Management Support Teams in `hotspot' locations.
    This also requires efficient systems to be in place inside the EU 
for issuing and enforcing return decisions. Concrete steps have been 
taken over the past month to develop a system of integrated return 
management and to make use of the EU's information exchange systems to 
include return decisions and entry bans. Member States' return agencies 
must also be given the necessary resources to perform their role.
    Returns can only be implemented if there is an agreement by the 
countries of origin to readmit the persons concerned. Readmission is an 
indispensable component of an effective migration policy. Those who 
return must be readmitted to their countries of origin. This requires a 
close partnership with third countries, using all available tools at 
our disposal. Member States and the Commission should work together to 
find the fine balance of pressure and incentives in their relation with 
third countries to increase the number of returns. To assist in the 
process, it has been agreed that Member States deploy European 
Migration Liaison Officers in eleven countries by the end of 2015, but 
this deployment has not yet taken place. \18\ The High Representative/
Vice-President has launched the first high-level dialogues with main 
countries of origin of irregular migration, and this will be followed 
up in a variety of broader dialogues with Ethiopia, Somalia, the 
African Union and the Sahel countries. The immediate priority is to 
ensure that existing readmission agreements are effectively applied in 
practice.
---------------------------------------------------------------------------
    \18\  Council conclusions 8 October 2015: ``Cooperation with the 
countries of origin and transit is key to successful return operations. 
In the short term, the EU will explore the synergies of the EU 
diplomacy on the ground, through the EU delegations, and in particular 
through the European Migration Liaison Officers (EMLOs), to be deployed 
by the end of 2015 to Egypt, Morocco, Lebanon, Niger, Nigeria, Senegal, 
Pakistan, Serbia, Ethiopia, Tunisia, Sudan, Turkey and Jordan.''

_______________________________________________________________________
      making readmission work: practical cooperation with pakistan
        The EU has a readmission agreement in place with Pakistan since 
        2012. Given the large numbers involved (see Annex 9)--for many 
        years, Pakistan has been the fourth largest source of non-EU 
        nationals found to be in the EU in an irregular way--this 
        agreement is of particular importance. But the estimate is that 
        only around 54% of Pakistani citizens receiving return 
        decisions in the EU are returned. The effectiveness of the 
        implementation of the Agreement varies significantly amongst 
        Member States. A particular blockage was identified in Greece, 
        resulting from disputes concerning documentation. Dedicated 
        readmission discussions between the Commission, Greece and the 
        Pakistani authorities this month aim to restart the returns 
        process:

        <bullet>  Discussions on the application of the EU-Pakistan 
        readmission agreement took place in Athens between Commission, 
        Greek and
        <bullet>  Contacts between the EU Delegation in Islamabad and 
        the Pakistani Ministry of Foreign Affairs took place on the 
        same day;
        <bullet>  Commissioner Avramopoulos will travel to Islamabad on 
        29 October to discuss a joint plan on migration.

        The result should be:
        <bullet>  A joint understanding on the application of the EU 
        readmission agreement between Greece and Pakistan;
        <bullet>  Frontex will carry out a joint return operation for 
        Pakistanis from Greece in November;
        <bullet>  The Commission will present an operational action 
        plan for better migration management with Pakistan.
_______________________________________________________________________

II.5 Other Ways to Support Member States

    There are several other opportunities for Member States to call on 
the support of the EU to provide assistance in border and migration 
management but which still have not been fully exploited.
    Member States can request the deployment of Rapid border 
intervention teams (RABIT) to provide immediate border guard support in 
cases of urgent or exceptional migratory pressure. The Commission 
considers that the circumstances faced by Greece over the last few 
months have been exactly the circumstances for which the Teams were 
devised. Neither Greece nor Italy has so far triggered the mechanism.
    The EU Civil Protection Mechanism \19\ can be activated by a 
country if it considers itself to be overwhelmed by a crisis. The 
Mechanism relies on voluntary contributions from Member States 
(including expertise, equipment, shelter, and medical supplies). Member 
States were asked last month to notify the Commission of the assets 
which can be held ready to deploy to help refugees. Only eight Member 
States \20\ have notified that they have--limited--civil protection 
assets or experts they would be prepared to deploy still this year, 
should a request be made. The Commission reiterates the need for Member 
States to support the mechanism with substantial contributions.
---------------------------------------------------------------------------
    \19\  The Mechanism can mobilise various types of in-kind 
assistance, including expertise, equipment, shelter, and medical 
supplies.
    \20\  Belgium, Cyprus, Finland, Sweden, Slovakia, the Czech 
Republic, Lithuania, Latvia.
---------------------------------------------------------------------------
    The Mechanism has been activated twice in 2015 to assist 
Hungary,\21\ and once to assist Serbia,\22\ in responding to the urgent 
needs caused by an unprecedented inflow of refugees and migrants.
---------------------------------------------------------------------------
    \21\  These requests are now closed.
    \22\  This request is still open.
---------------------------------------------------------------------------
    It should also be recalled that the support of Member States 
through the Frontex Joint Operations TRITON and POSEIDON continues to 
provide day-by-day support to the management of the external borders, 
rescuing thousands of migrants and refugees in the process. Currently 
17 Member States are providing assets to TRITON, 18 Member States to 
POSEIDON. \23\ However, the assets made available still fall short of 
what is needed.
---------------------------------------------------------------------------
    \23\ Malta, Portugal, the Netherlands, France, Norway, Spain, 
Greece, Poland, Romania, the United Kingdom, Germany, Denmark, the 
Czech Republic, Bulgaria and Latvia in the case of TRITON, Denmark, the 
Czech Republic, Norway, Sweden, Portugal, Poland, Latvia, Germany, 
Croatia, the Netherlands, Finland, Italy, France, Spain, Belgium, the 
United Kingdom and Romania in the case of POSEIDON.
---------------------------------------------------------------------------
Progress Made

    <bullet>  First `hotspot' working in Lampedusa (Italy).
    <bullet>  First `hotspot' in Lesvos (Greece) to be operational in 
the coming days.
    <bullet>  Relocations to other Member States have started.
    <bullet>  Migration Management Support Teams are operational.
    <bullet>  The first resettlements have taken place.
    <bullet>  Frontex supporting return missions.
Next Steps

    <bullet>  Six `hotspots' in total to be operational in Italy by the 
end of the year.
    <bullet>  Five `hotspots' in total to be operational in Greece by 
the end of the year.
    <bullet>  Member States to meet calls for experts and equipment to 
support the Migration Management Support Teams to allow the Support 
Teams to be rolled out in full.
    <bullet>  Member States to notify how many relocation and 
resettlement places they will provide, and specify their reception 
capacity.
    <bullet>  Returns to Pakistan from Greece to restart.
    <bullet>  Member States to provide adequate resources for Frontex 
Joint Operations TRITON and POSEIDON.

III. BUDGETARY SUPPORT

    Three weeks ago, the Commission committed to reinforcing financial 
support immediately. Since then, the Commission has proposed amending 
budgets to increase financial resources devoted to tackling the refugee 
crisis by an additional ] 1.7 billion for 2015 and 2016.

This includes:

    <bullet>  Additional emergency assistance already in 2015 under the 
Asylum, Migration and Immigration Fund and the Internal Security Fund-
Borders (=100 million) (see Annex 8);
    <bullet>  Reinforcement of the three key Agencies by 120 posts (60 
posts for FRONTEX, 30 for EASO and 30 for EUROPOL);
    <bullet>  Additional funding for the European Neighbourhood 
Instrument (=300 million) and redeployment of other EU funds so that 
the EU Trust Fund for Syria can reach at least =500 million this year;
    <bullet>  An increase of the funding for Humanitarian Aid of =500 
million (=200 million in 2015 and =300 million in 2016) to help 
refugees directly, notably through UNHCR, the World Food Programme and 
other relevant organisations to help refugees' essential needs, like 
food and shelter;
    <bullet>  =600 million in additional commitments for 2016 to 
increase emergency funding on migration issues (=94 million), to 
support the relocation package (=110 million), increased human and 
financial resources for FRONTEX, EASO and EUROPOL (about =86 million to 
assist on returns and in the `hotspot' areas, as well as reinforcement 
of the Agencies), and additional funding to help Member States most 
affected by the refugee crisis (=310 million).

    In total this means that the available funding to address the 
refugee crisis will amount to ]9.2 billion in 2015 and 2016.
    The European Parliament and the Council have acted swiftly to adopt 
the changes to the 2015 budget. The Commission has now adopted 
amendments for the 2016 budget and calls upon the budgetary authority 
to make a similar commitment to fast-track the 2016 budget.
    It is crucial that national spending is now deployed to reinforce 
the overall European effort in addition to this substantial 
reinforcement of migration-related spending under the EU budget. This 
was recognised by the EU Heads of State and Government on 23 September, 
which highlighted the need for national governments to contribute and 
match the EU funding in the efforts made to:

    <bullet>  Support the urgent needs of refugees through UNHCR, the 
World Food Programme \24\ and other agencies, to reach at least =1 
billion. With the EU budget providing =200 million in additional 
support this year and =300m next year, this requires a commitment of 
=500 million from national budgets.
---------------------------------------------------------------------------
    \24\  Four Member States--the United Kingdom, Germany, the 
Netherlands and Sweden--rank in the top 10 donors to the World Food 
Programme in 2015 (source: World Food Programme, 6 October 2015).
---------------------------------------------------------------------------
    Since 23 September, ten Member States \25\ have committed to 
additional contribution, with the total reaching around =275 million. 
But in reality, over 80% of this has been pledged by only two Member 
States, the United Kingdom and Germany. This still leaves a shortfall 
of over ]225 million.
---------------------------------------------------------------------------
    \25\  Cyprus, Czech Republic, Finland, Germany, Italy, Latvia, 
Luxembourg, Poland, Spain and the United Kingdom
---------------------------------------------------------------------------
    <bullet>  Support a substantial increase in the EU's Regional Trust 
Fund responding to the Syria crisis. The Commission calls on Member 
States to match the =500 million from the EU budget.
    However, despite the fact that Syria is at the core of today's 
crisis and that this Trust Fund offers a flexible and swift delivery 
tool, the response so far from Member States has been minimal, with 
just two Member States, Italy pledging =3 million and Germany pledging 
=5 million. This leaves an almost total shortfall of ]492 million.
    <bullet>  Support with national contributions the Emergency Trust 
Fund for stability and addressing the root causes of irregular 
migration and displaced persons in Africa. The Commission considers 
that national contributions should match the =1.8 billion EU funding. 
Again, support committed so far has been negligible, with only three 
Member States at present, Luxembourg, Germany and Spain, pledging =3 
million each. Six Member States \26\ have informally confirmed their 
contributions but without clear figures. Four others \27\ have said 
that it is ``very likely'' that they will contribute and four \28\ are 
still considering it. Two non-EU countries \29\ have informally 
suggested they might pledge in total around =9 million. This leaves a 
huge shortfall of ]1.791 million.
---------------------------------------------------------------------------
    \26\  Belgium, Denmark, France, Italy, Malta and the United 
Kingdom.
    \27\  Austria, the Netherlands, Finland and Sweden.
    \28\  The Czech Republic, Estonia, Latvia and Greece.
    \29\  Norway and Switzerland.

Financial resources are an indispensable part of how we can both 
address the immediate plight of refugees and start to tackle the root 
causes. It is imperative that the shortfall between the needs 
identified by the European Council and the reality of what just a few 
Member States have so far pledged is swiftly redressed (see Annex 7).
Progress Made

    <bullet>  Adoption by the European Parliament and the Council of 
the reinforcement of =800 million to support refugees and migration 
policies in 2015, as proposed by the Commission.
    <bullet>  Further reinforcement of =900 million for 2016 now before 
the budgetary authority.
Next Steps

    <bullet>  European Parliament and Council should adopt the changes 
to the 2016 budget, as proposed by the Commission.
    <bullet>  Member States need to complete the pledge of =500 million 
in support for humanitarian aid to refugees to reach =1 billion.
    <bullet>  Member States to match the =500 million funding from the 
EU budget to the EU Syria Trust Fund and the =1.8 billion in EU funding 
for the EU Trust Fund for Africa.

    In this context, questions have arisen about the treatment under 
the Stability and Growth Pact of expenditure incurred to manage the 
refugee crisis. The Commission has confirmed that, if it received a 
specific request from a Member State, it would examine whether and how 
this could be accommodated under the existing rules of the Stability 
and Growth Pact. This includes the flexibility that has been imbedded 
in the Pact to react to unforeseen circumstances and unusual events.
    This assessment would need to be made on a case-by-case basis as 
part of the analysis of national fiscal documents. It would need to be 
based on evidence of the net costs incurred, in line with the agreed 
methodology for applying the Pact.

IV. IMPLEMENTATION OF EU LAW

    The Common European Asylum System is based on helping people in 
need of international protection and returning migrants who have no 
right to stay on EU territory. To make this a reality, the EU now has a 
strong set of common rules on asylum and irregular migration. But these 
rules have to be properly applied.
    One example of the Commission's efforts to promote effective 
implementation is in the area of return, where the Commission has been 
helping Member States to understand the consequences of the rules. The 
Commission has held dedicated dialogues with Member States to highlight 
steps that need to be taken to meet the obligation to enforce return. 
Member States should ensure the physical availability of an irregular 
migrant for return and use detention, as a legitimate measure of last 
resort, where it is necessary to avoid that irregular migrants abscond. 
As long as there is a reasonable likelihood of removal, prospects for 
such removal should not be undermined by a premature ending of 
detention. Finally, both the swiftness of decision-making, and the 
availability of staff and sufficient detention capacity, can have a key 
impact on the practical implementation of return decisions.
    Since August, the Commission has sent administrative letters to 
five Member States concerning the Eurodac Regulation on fingerprinting, 
and ten concerning the correct implementation of the Return Directive. 
All Member States concerned replied on the Eurodac Regulation , and the 
Commission is now assessing the replies to see if they are sufficient 
or if infringement proceedings should be launched. On the Return 
Directive, only one response \30\ has been received so far: the 
Commission awaits the remaining responses and will swiftly assess the 
situation. A further administrative letter has been addressed to one 
Member State concerning the compliance with the Asylum Procedures 
Directive, the Reception Conditions Directive and the Schengen Borders 
Code.
---------------------------------------------------------------------------
    \30\  Italy
---------------------------------------------------------------------------
    In respect of the decision on 40 potential or actual infringement 
decisions adopted in September, concerning the Asylum Procedures 
Directive, the Reception Conditions Directive and the Qualifications 
Directive, in addition to the 34 cases opened before then, the 
Commission has not received any responses so far. Given the particular 
importance of this legislation, Member States are urged to respond as 
early as possible within the two month period.
    The Commission will continue to pursue infringement procedures 
swiftly and effectively, where necessary, to ensure full compliance 
with EU legislation in this area (see Annex 6).
    The priority actions identified in September stressed the need to 
devote particular attention to Greece. Member States have not been able 
to return asylum seekers to Greece since 2010-11. In 2010, the European 
Court of Human Rights ruled that there had been a number of violations 
of the European Convention on Human Rights. The European Court of 
Justice then confirmed that there could be no presumption that Member 
States respect the fundamental rights of asylum seekers if they return 
people to Greece under the Dublin system.
    As noted above, the Commission has dedicated substantial resources 
to assisting Greece. Member States are now starting to add to these 
efforts. Significant progress has been made in a short space of time. 
With the Migration Management Support Teams up and running, the key 
deficiencies behind the effective suspension of Dublin transfers are 
being addressed--with reception facilities being expanded and a return 
being made to a robust system of asylum processing.
    Progress so far has been encouraging and must continue. On this 
basis, the Commission will assess the situation by 30 November 2015 and 
if all conditions are met, it will recommend to the European Council in 
December 2015 or in March 2016 to confirm the reinstatement of Dublin 
transfers to Greece.
    Several Member States have recently invoked the temporary 
reintroduction of border controls under the Schengen Border Code. This 
can be justified in exceptional crisis situations and notably for 
serious threats to public policy or internal security in a given Member 
State. But it can never be more than a short-term measure before the 
situation is stabilised.
    The Commission is currently finalising its assessment of the 
situation by adopting an opinion on the prolongation of temporary 
border controls by Germany, Austria and Slovenia on the basis of the 
Schengen Border Code.
Progress made

    <bullet>  The Commission is addressing deficiencies by Member 
States in the full transposition and implementation of EU law.
    <bullet>  Reception facilities are being expanded and conditions 
for a correct asylum system and processing are being put in place in 
Greece.

Next steps

    <bullet>  The Commission will ensure active and swift follow-up of 
all infringement proceedings in asylum and return.
    <bullet>  The Commission will assess by 30 November 2015 the 
situation concerning Dublin transfers to Greece.

V. THE EXTERNAL DIMENSION

    The European Agenda on Migration underlined that a successful 
migration policy must inescapably work outside as well as inside the 
Union. Europe must always welcome those in need of protection. But it 
is in everyone's interests that the crises which force refugees to 
leave their homes and travel in great danger are tackled at their 
roots.
    At the core of the priority actions and the joint Communication of 
the Commission and the High Representative/Vice-President last month 
\31\ was putting migration at the top of the EU's external concerns. 
This has been shown through the commitments to extra funding set out 
above. But the diplomatic offensive now under way has also put 
migration at the centre of bilateral, regional and multilateral 
dialogue.
---------------------------------------------------------------------------
    \31\ JOIN(2015) 40 of 9 September 2015
---------------------------------------------------------------------------
    Turkey is a pivotal partner. Together with Lebanon and Jordan, it 
has borne the brunt of the humanitarian effort to shelter Syrian 
refugees. Its geographical position makes it the dominant channel for 
migrants arriving in the Western Balkans. Turkey has shown that it is 
capable of taking decisive action to combat smuggling. The detailed 
Action Plan on Migration handed by President Juncker to President 
Erdogan on 5 October set out a series of concrete measures covering 
both support of refugees, migrants, and their hosting communities, as 
well as strengthening cooperation to prevent irregular migration. It 
sets out short, medium, and longer term actions. The Commission is now 
in active discussions with the Turkish authorities in order to finalise 
the Action Plan.
    Cooperation with Turkey was also a key aspect of the High-level 
Conference on the Eastern Mediterranean--Western Balkans Route convened 
on 8 October by the High Representative/Vice-President and the 
Luxembourg Presidency. This meeting agreed a series of practical steps 
to foster a more effective cooperation with partner countries along the 
route, including by supporting countries of first asylum and of 
transit, as well as underlining the broader issues of tackling root 
causes and fighting smuggling. \32\
---------------------------------------------------------------------------
    \32\  This document can be found by following the link : http://
www.consilium.europa.eu/en/press/press-releases/2015/10/08-western-
balkans-route-conference-declaration/
---------------------------------------------------------------------------
    The High Representative/Vice-President has been engaged in 
extensive diplomatic contacts with a view to finding an agreement to 
the crisis in Libya. These efforts, political and financial, have been 
deployed in support of the Special Representative of the UN Secretary 
General, Bernardino Leon, who, on 8 October, presented a final text of 
the Libyan Political Agreement to all participants in the political 
dialogue. The focus is now on having this agreement endorsed by the 
parties, in which case, the EU stands ready with a substantial and 
immediate package of support to a new government of National Accord 
that will benefit the Libyan population. The Foreign Affairs Council of 
12 October adopted conclusions in this respect.
    On 7 October, the EU military operation in the Southern 
Mediterranean--EUNAVFOR MED Operation Sophia--moved to its second phase 
in international waters, after having successfully fulfilled the 
objectives of phase 1 (surveillance and assessment of smuggling and 
trafficking networks), and contributing to the rescue of more than 
3,000 people. It will now be able to conduct boarding, search, seizure 
and diversion, on the high seas, of vessels suspected of being used for 
human smuggling or trafficking, and will contribute to bringing 
suspected smugglers to justice. This represents a key development in 
disrupting the business model of traffickers/smugglers and received an 
important political endorsement from UN Security Council Resolution 
2240 adopted on 9 October.
    Under the chairmanship of the High Representative/Vice-President, 
the Foreign Affairs Council adopted conclusions on the Syria crisis on 
12 October, on the basis of which the EU will enhance the level of its 
engagement in support of UN-led international efforts to find a 
political solution to the conflict. The High Representative/Vice-
President is actively engaged with all of the key regional and 
international actors, including Russia, US, Saudi Arabia, Iran, Turkey 
and Iraq. The EEAS has taken measures to strengthen support to the 
political opposition inside and outside Syria as a party to a 
transition process and to continue to facilitate the rapprochement and 
unification of its numerous political and military segments behind a 
common strategy. On 7 and 9 September, the EEAS together with the UN 
Special Envoy, Staffan de Mistura, conducted detailed consultations 
with mediation practitioners, notably from Russia, Iran, Egypt and 
Saudi Arabia and Syria envoys from the Member States. The EU is also 
active in some of the working groups established by the Small Group of 
the Global Coalition against Da'esh, namely on stabilization, foreign 
terrorist fighters, counter-financing. Implementation of the EU 
regional strategy for Syria and Iraq as well as the Da'esh threat is 
on-going.
    Migration was a key theme discussed by representatives of the EU 
institutions and of the Member States in the 70th United Nations 
General Assembly at the end of September. In this context, the need for 
a more proactive response and enhanced engagement by the international 
community to deal with the challenges of migration and human mobility 
was stressed, notably with regard to the Syrian refugee crisis.
    The EU Action Plan against migrant smuggling presented in May \33\ 
is now being implemented--as well as law enforcement operations both 
within and outside the EU--for example, campaigns are under way in 
Ethiopia and Niger to prevent smuggling at the source.
---------------------------------------------------------------------------
    \33\  COM(2015) 285 final
---------------------------------------------------------------------------
    A major focus in the new priority on migration issues in the next 
month will be the Valletta Summit on Migration (11-12 November). This 
Summit is the subject of intensive preparation with African partners. 
It will represent an opportunity to show that both the EU and its 
African partners can deliver tangible action to address the root causes 
of irregular migration and to ensure orderly, safe, regular and 
responsible migration and mobility of people. Fundamental to such 
partnerships is that the EU must support its partners--with financial 
assistance, with expertise, with the confidence to work together and 
demonstrate a common effort. As such, its success is inextricably 
linked to a joint effort to deliver a major financial commitment to the 
EU Emergency Trust Fund for Africa (see above under point III).
Progress Made

    <bullet>  A series of high-level meetings by the High 
Representative/Vice-President and Commissioners have given meaning to 
the new diplomatic offensive on migration.
    <bullet>  EUNAVFOR MED operation Sophia fulfilled objectives of 
phase 1.

Next Steps
    <bullet>  Finalising the Action Plan with Turkey.
    <bullet>  High level dialogues foreseen by the High Representative/
Vice-President with Ethiopia, the African Union and Somalia on 20-21 
October.
    <bullet>  EUNAVFOR MED operation Sophia implementing its phase 2.
    <bullet>  EU to support a new government of National Accord in 
Libya.
    <bullet>  EU to enhance level of engagement in support of UN-led 
international efforts to find a political solution to the conflict in 
Syria.
    <bullet>  Valletta Summit on Migration.

VI. CONCLUSION

    The operational and budgetary steps set out above are designed to 
provide the support needed to bring the EU's migration system back into 
an orderly approach where the rules are properly applied and the system 
is robust enough to react to the inevitable peaks in migration. An 
indispensable part of restoring stability is the external border. This 
is at the heart of the Commission's commitment to bring forward before 
the end of the year proposals to develop a fully operational European 
Border and Coast Guard, as a recognition that Member States must be 
supported more strongly in the challenge of managing Europe's external 
borders.

_______________________________________________________________________
                    summary of specific conclusions
        <bullet>  Member States should rapidly submit their 
        contributions to meet the EU Agencies' needs assessment for the 
        implementation of the ``Hotspot'' approach;
        <bullet>  Italy and Greece should increase their reception 
        capacities;
        <bullet>  Member States should notify their reception capacity 
        to host relocated people;
        <bullet>  Member States should provide clear commitments as to 
        the number of people they will relocate from now until the end 
        of the year;
        <bullet>  Member States should now provide the Commission with 
        information on the number of people they will resettle over the 
        next six months and from where;
        <bullet>  Member States should swiftly implement the EU action 
        plan on return proposed by the Commission, for an effective 
        system of return at EU level;
        <bullet>  European Migration Liaison Officers should be 
        deployed by the EU in eleven third countries by the end of 
        2015,
        <bullet>  Member States should support the EU Civil Protection 
        Mechanism with substantial contributions;
        <bullet>  Member States should make available sufficient assets 
        for Frontex joint operations TRITON and POSEIDON;
        <bullet>  Member States should contribute to and match the EU 
        funding in the efforts made to support the UNHCR, World Food 
        Programme and other international organisations, the EU Trust 
        Fund for Syria and the EU Trust Fund for Africa;
        <bullet>  The European Parliament and the Council should adopt 
        the draft amending budget for 2016, as proposed by the 
        Commission;
        <bullet>  The Commission will continue to pursue swiftly and 
        effectively infringement procedures, where necessary, to ensure 
        full compliance with the acquis in the area of Asylum and 
        Return;
        <bullet>  The Commission will assess by 30 November 2015 if all 
        conditions are met to recommend to the European Council in 
        December 2015 or in March 2016 to confirm the reinstatement of 
        Dublin transfers to Greece;
        <bullet>  The Commission will finalise its opinion on the 
        prolongation of temporary controls by Germany, Austria and 
        Slovenia on the basis of the Schengen Border Code;
        <bullet>  The Commission will finalise the Action Plan with 
        Turkey.
_______________________________________________________________________

List of Annexes

Annex 1: Follow-up of the Priority Actions
Annex 2: Greece--State of Play Report from11 October 2015
Annex 3: Italy--State of Play Report from 11 October 2015
Annex 4: Map of the `Hotspots' designated in Greece
Annex 5: Map of the `Hotspots' designated in Italy
Annex 6: Implementing the Common European Asylum System
Annex 7: Member States' financial pledges since 23 September 2015
Annex 8: Financial Support to Member States under the Asylum, Migration 
and Integration Fund and the Internal Security Fund
Annex 9: The functioning of the EU-Pakistan Readmission Agreement 2012-
2014

  FROM: General Secretariat of the European Council    TO: Delegations

    SUBJECT: European Council Meeting, 15 October 2015--Conclusions

MIGRATION

1. Tackling the migration and refugee crisis is a common obligation 
which requires a comprehensive strategy and a determined effort over 
time in a spirit of solidarity and responsibility. The orientations 
agreed by Heads of State or Government on 23 September focused on the 
most pressing issues. Their implementation is advancing rapidly, as 
evidenced by work undertaken within the Council and by the Commission 
report of 14 October. This will be kept under close review, including 
as concerns the financial pledges and possible further needs.

2. Today, the European Council set out the following further 
orientations:

Cooperating with third countries to stem the flows

a) welcomes the joint Action Plan with Turkey as part of a 
comprehensive cooperation agenda based on shared responsibility, mutual 
commitments and delivery. Successful implementation will contribute to 
accelerating the fulfilment of the visa liberalisation roadmap towards 
all participating Member States and the full implementation of the 
readmission agreement. Progress will be assessed in spring 2016. The EU 
and its Member States stand ready to increase cooperation with Turkey 
and step up their political and financial engagement substantially 
within the established framework. The accession process needs to be re-
energized with a view to achieving progress in the negotiations in 
accordance with the negotiating framework and the relevant Council 
conclusions.

The European Council expressed its condolences to the people of Turkey 
following the Ankara bomb attack and pledged its support to fight 
terrorism;

b) ensure effective and operational follow up to the High-level 
Conference on the Eastern Mediterranean/Western Balkans Route, with 
particular emphasis on the management of migratory flows and the fight 
against criminal networks;

c) achieve concrete operational measures at the forthcoming Valletta 
Summit with African Heads of State or Government, focusing, in a fair 
and balanced manner, on effective return and readmission, dismantling 
of criminal networks and prevention of illegal migration, accompanied 
by real efforts to tackle root causes and to support the African socio-
economic development together with a commitment concerning continued 
possibilities for legal migration;

d) explore possibilities for developing safe and sustainable reception 
capacities in the affected regions and providing lasting prospects and 
adequate procedures for refugees and their families, including through 
access to education and jobs, until return to their country of origin 
is possible;

e) ask Member States to further contribute to the efforts made to 
support UNHCR, World Food Programme and other agencies, as well as to 
support the EU's Regional Trust Fund responding to the Syria crisis and 
the EU Trust Fund for Africa.
Strengthening the protection of the EU's external borders (building on 
        the Schengen acquis)

f) work towards the gradual establishment of an integrated management 
system for external borders;

g) make full use of the existing Frontex mandate, including as regards 
the deployment of Rapid Border Intervention Teams;

h) in accordance with the distribution of competences under the Treaty, 
in full respect of the national competence of the Member States, 
enhance the mandate of Frontex in the context of discussions over the 
development of a European Border and Coast Guard System, including as 
regards the deployment of Rapid Border Intervention Teams in cases 
where Schengen evaluations or risk analysis demonstrate the need for 
robust and prompt action, in cooperation with the Member State 
concerned;

i) devise technical solutions to reinforce the control of the EU's 
external borders to meet both migration and security objectives, 
without hampering the fluidity of movement;

j) welcome the Commission's intention to rapidly present a package of 
measures with a view to improving the management of our external 
borders.
Responding to the influx of refugees in Europe and ensuring returns
k) in accordance with the decisions taken so far, press ahead with the 
establishment of further hotspots within the agreed timeframe to ensure 
the identification, registration, fingerprinting and reception of 
applicants for international protection and other migrants and at the 
same time ensure relocation and returns. Member States will support 
these efforts to the full, in the first place by meeting the calls for 
expertise from Frontex and EASO for the Migration Management Support 
Teams to work in hotspot areas and by the provision of necessary 
resources;

l) further to the first successful relocations, proceed rapidly with 
the full implementation of the decisions taken so far on relocation as 
well as our commitments on resettlement and on the functioning of 
hotspots;

m) at the same time step up implementation by the Member States of the 
Return Directive and, before the end of the year, create a dedicated 
return office within Frontex in order to scale up support to Member 
States;

n) enlarge the Frontex mandate on return to include the right to 
organise joint return operations on its own initiative, and enhance its 
role regarding the acquisition of travel documents for returnees;

o) promote the acceptance by third countries of an improved European 
return laissez-passer as the reference document for return purposes;

p) effectively implement all readmission commitments, whether 
undertaken through formal readmission agreements, the Cotonou Agreement 
or other arrangements;

q) further increase leverage in the fields of return and readmission, 
using where appropriate the ``more-for-more'' principle. In this 
regard, the Commission and the High Representative will propose, within 
six months, comprehensive and tailor-made incentives to be used vis-a-
vis third countries.

3. The orientations set out above represent a further important step 
towards our comprehensive strategy, consistent with the right to seek 
asylum, fundamental rights and international obligations. There are 
however other important priority actions that require further 
discussions in the relevant fora, including the Commission proposals. 
And there is a need for continuing reflection on the overall migration 
and asylum policy of the EU. The European Council will keep 
developments under review.

Syria and Libya

4. The European Council discussed political and military developments 
in Syria, including their impact on migration. The Assad regime bears 
the greatest responsibility for the 250.000 deaths of the conflict and 
the millions of displaced people. The European Council agreed on the 
need to focus on the fight against DAESH and other UN-designated 
terrorist groups in the framework of a united and coordinated strategy 
and a political process on the basis of the Geneva Communique of 2012. 
The EU is fully engaged in finding a political solution to the conflict 
in close cooperation with the UN and the countries of the region and 
calls on all parties involved to work to that effect. There cannot be a 
lasting peace in Syria under the present leadership and until the 
legitimate grievances and aspirations of all components of Syrian 
society are addressed. The European Council expressed its concern about 
the Russian attacks on the Syrian opposition and civilians and the risk 
of further military escalation.

5. As regards Libya, the European Council welcomed the announcement 
made by the UN and called on all parties to swiftly endorse it. The EU 
reiterates its offer of substantial political and financial support to 
the Government of National Accord as soon as it takes office.

OTHER ITEMS

6. The European Council took stock of the discussions on the 
Presidents' report on completing Europe's Economic and Monetary Union. 
The European Council reiterates that the process of completing the 
Economic and Monetary Union must be taken forward in full respect of 
the single market and in an open and transparent manner. The European 
Council will revert to these issues at its December meeting.

7. The European Council was informed about the process ahead concerning 
the UK plans for an (in/out) referendum. The European Council will 
revert to the matter in December.

8. The European Council welcomes the international and independent 
report, conducted by the Dutch Safety Board, published on 13 October 
into the downing of flight MH17 and supports the ongoing efforts to 
hold to account those responsible for the downing of MH17, in 
accordance with UNSC Resolution 2166.

    Submitted for the Record by Metodija A. Koloski, Co-Founder and 
      President, United Macedonian Diaspora, and Gavin Kopel, UMD 
               International Policy and Diplomacy Fellow

Challenges facing Macedonia in regards to Refugee Crisis
    Macedonia has made great strides in the face of one of the most 
challenging crises of the 21st century, but no country can manage this 
crisis unilaterally. Lack of infrastructure led to isolated clashes 
between border police and refugees desperate to move through Macedonia 
on their way into Europe. In July, Macedonia passed legislation to 
allow the migrants 72 hours to pass through the country, allowing them 
to enter and exit the country legally. Special transportation has been 
arranged to move the refugees, a large number of police have been hired 
to register refugees and increase security, and the government is 
working in tandem with local and international NGOs to provide 
assistance to the refugees. Macedonia has done all this without closing 
its borders as other states have and is once again a regional leader in 
keeping up with the democratic and humanitarian values it shares with 
its western allies. However, growing costs are putting increased strain 
on an already heavily burdened economy. A prompt, unified response from 
the international community, led by the United States and the European 
Union, is needed to address not only the problems that led to this 
crisis but also the problems that have stemmed from it.
    Macedonia, a country with a population of approximately two million 
people, is currently contending with an unprecedented number of 
migrants moving through its territory. From January to June, 124,000 
migrants passed through Greece, a 750% increase over the previous year. 
In the short time from June 1st the rate at which migrants are entering 
Europe increased even more rapidly. Since June, over 140,000 migrants 
have passed through Greece. In this fourmonth period, more refugees 
have entered Macedonia through Greece than in all of last year. This 
number is only a fraction of the total number that has entered Europe 
this year. Only a tiny fraction of the refugees who enter Macedonia 
seek asylum there; only 550 have done so since the crisis began. A 
majority of the migrants who enter Europe through Greece proceed 
further into Europe through Macedonia's southern border near Gevgelija, 
a town with less than 16,000 inhabitants and vastly insufficient 
infrastructure to deal with such a high number of migrants. Recently, 
the southern border has seen up to 10,000 migrants crossing into the 
country per day.
    Although Macedonia is a transit country for the refugees on their 
way deeper into Europe, the cost associated with the crisis is 
continually growing. At a recent American Bar Association- Rule of Law 
Initiative panel discussion on refugee crisis, Macedonian Ambassador to 
the United States Dr. Vasko Naumovski stated that the increased police 
force needed to maintain the security of the southern border is costing 
Macedonia over $100,000 per day. Macedonia is helping to assure the 
security of the European Union as the refugees pass through by 
registering and fingerprinting the refugees, reducing the risk of 
Islamic extremists slipping into Europe with the flow of refugees. As 
the number of people entering the country each day increases, the cost 
of this task increases substantially. Serbia's Ambassador Djerdj 
Matkovic, on the same panel, stated that the cost of simply feeding and 
providing water to the refugees is close to =20,000 per day, and with 
almost equal numbers of refugees moving through Macedonia, the costs 
are similar. With winter approaching, refugees will need heated 
shelters and additional services to keep them safe from the elements, 
which will drive up the cost of the crisis in the region even higher. 
Without increased foreign aid to address the growing burden on already 
taxed economies, the Balkans will not be able to maintain the services 
that are being provided for the refugees as they enter the countries.
    The amount of funds that Macedonia receives from the EU to deal 
with this incredibly complicated issue is inadequate. Macedonia 
receives less than a quarter of the funding from the EU that Serbia 
does for migrant management, even though each country experiences a 
similar number of migrants. This figure is not an indictment of Serbia, 
but of the disjointed response from the international community. In 
addition to the =8.2 million package that Serbia is receiving through 
2020 to expand its capacity for migrants, reform its asylum system and 
improve border security, it was recently granted =630,000 to address 
issues related to the influx of migrants and improve infrastructure 
including waste disposal, water and sanitation. In comparison to 
Serbia, the only funding Macedonia received from the EU was a mere 
=90,656. In stark contrast is the funding that Greece receives to 
address issues related to migration crisis. Despite the fact that most 
refugees cross Greece to enter Macedonia, Greece receives over 5,000 
times more funding than Macedonia. In the period from 2014 to 2020, 
Greece will receive =474,192,915 to address issues related to this 
crisis. Norway, a non-EU member state, has given nearly as much aid 
unilaterally to the Balkans, namely Serbia and Macedonia, as the 
entirety of the EU with its aid package of NOK 60 million, nearly $7.5 
million.
    Resolution of the current crisis is viable only if responsibility 
is shared. No single country can rely solely on its own resources to 
solve a problem as complex as this. Macedonia has been a long-time 
friend and loyal ally to the United States since its own independence, 
and now the United States should be a leader in supporting Macedonia 
and its neighbors affected by the crisis and lead a common response 
with Europe with increased aid and technical assistance. If the EU 
wants to retain its position as a powerful global player that is 
genuinely committed to the promotion of peace, democracy and human 
rights, it must provide a unified and resolute response to the current 
migrant crisis. This includes providing adequate support to Macedonia 
and other non-EU states, which is crucial in ensuring that governments 
meet their obligations under international law to treat all migrants 
with dignity. Lastly, the United States must use its diplomatic 
resources-at-hand to bring upon a solution to Macedonia's NATO 
membership, so that the country can officially become a member at the 
2016 Warsaw Summit.

                                 [all]
  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
